<html>
<title> - THE FBI'S CONTROVERSIAL HANDLING OF ORGANIZED CRIME INVESTIGATIONS IN BOSTON: THE CASE OF JOSEPH SALVATI</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





 THE FBI'S CONTROVERSIAL HANDLING OF ORGANIZED CRIME INVESTIGATIONS IN 
                   BOSTON: THE CASE OF JOSEPH SALVATI

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2001

                               __________

                           Serial No. 107-25

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
76-507                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
BOB BARR, Georgia                    ROD R. BLAGOJEVICH, Illinois
DAN MILLER, Florida                  DANNY K. DAVIS, Illinois
DOUG OSE, California                 JOHN F. TIERNEY, Massachusetts
RON LEWIS, Kentucky                  JIM TURNER, Texas
JO ANN DAVIS, Virginia               THOMAS H. ALLEN, Maine
TODD RUSSELL PLATTS, Pennsylvania    JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida                 WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   ------ ------
ADAM H. PUTNAM, Florida              ------ ------
C.L. ``BUTCH'' OTTER, Idaho                      ------
EDWARD L. SCHROCK, Virginia          BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 3, 2001......................................     1
Statement of:
    Bailey, F. Lee, esquire, attorney for Joseph Barboza; and 
      Joseph Balliro, Sr., esquire, attorney for Vincent Flemmi 
      and Henry Tameleo..........................................   122
    Garo, Victor J., attorney for Joseph Salvati; Joseph Salvati; 
      and Marie Salvati..........................................    29
    Rico, H. Paul, retired FBI Special Agent.....................   158
Letters, statements, etc., submitted for the record by:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia, exhibits 15, 8 and 7......................... 61, 177
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Exhibit 4................................................   166
        Exhibit 7................................................   160
        Exhibit 10...............................................   163
        Exhibit 24...............................................     5
        Letter dated May 3, 2001.................................    18
        Prepared statement of....................................     8
    Delahunt, Hon. William D., a Representative in Congress from 
      the State of Massachusetts:................................
        Exhibit 6................................................   171
        Various letters..........................................    73
    Garo, Victor J., attorney for Joseph Salvati, prepared 
      statement of...............................................    34
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Exhibit 11...............................................    54
        Exhibit 35...............................................   132
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland:
        Exhibit 10...............................................   191
        Exhibit 12...............................................   209
    Salvati, Joseph, prepared statement of.......................    40
    Salvati, Marie, prepared statement of........................    44
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibit 11.............................................. 87, 99
        Exhibit 13...............................................   103
        Exhibits 11, 12 and 13...................................   138
        Exhibit 15...............................................   147
        Exhibit 26...............................................   151
        Prepared statement of....................................    15
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    24
    Wilson, James C., chief counsel, Committee on Government 
      Reform:
        Exhibit 7................................................   108
        Exhibit 8................................................   111
        Exhibit 15...............................................   113
        Exhibit 24............................................ 118, 218

 
 THE FBI'S CONTROVERSIAL HANDLING OF ORGANIZED CRIME INVESTIGATIONS IN 
                   BOSTON: THE CASE OF JOSEPH SALVATI

                              ----------                              


                         THURSDAY, MAY 3, 2001

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Gilman, Morella, Shays, 
Horn, LaTourette, Barr, Jo Ann Davis of Virginia, Putnam, 
Otter, Kanjorski, Norton, Cummings, Kucinich, and Tierney.
    Also present: Representatives Delahunt, Frank, and Meehan.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy chief counsel; 
Mark Corallo, director of communications; Thomas Bowman, senior 
counsel; Pablo Carrillo, investigative counsel; James J. 
Schumann, counsel; Sarah Anderson, staff assistant; Robert A. 
Briggs, chief clerk; Robin Butler, office manager; Michael 
Canty and Toni Lightle, legislative assistant; Josie Duckett, 
deputy communications director; John Sare, deputy chief clerk; 
Danleigh Halfast, assistant to chief counsel; Corrine 
Zaccagnini, systems administrator; Phil Schiliro, minority 
staff director; David Rapallo, minority counsel; Michael 
Yeager, minority senior oversight counsel; Ellen Rayner, 
minority chief clerk; Jean Gosa, minority assistant clerk; and 
Teresa Coufal, minority staff assistant.
    Mr. Burton. Good morning. A quorum being present, the 
committee will come to order. I ask unanimous consent that all 
witnesses' and Members' statements be included in the record. 
Without objection so ordered. I ask unanimous consent that all 
articles, exhibits, and extraneous or tabular material referred 
to be included in the record. Without objection so ordered. I 
ask unanimous consent that a set of exhibits which have been 
prepared for today's hearing be inserted into the record and 
without objection, so ordered. I ask unanimous consent that 
Representatives Barney Frank, Bill Delahunt and Marty Meehan 
who are not members of the committee, be allowed to participate 
in today's hearing and without objection, so ordered.
    I ask unanimous consent that questioning in this matter 
proceed under clause 2(j)(2) of House rule 11, and committee 
rule 14 in which the chairman and ranking minority member may 
allocate time to committee counsel as they deem appropriate for 
extended questioning, not to exceed 60 minutes equally divided 
between the majority and minority and without objection, so 
ordered.
    Today's hearing is going to focus on an injustice done by 
the FBI that went on for nearly 30 years. We're going to hear 
about a terrible wrong that was done to one man and his family. 
As terrible as this story is, it's only one small part of a 
much larger picture. I have always supported law enforcement. I 
remember I used to watch ``I Led Three Lives'' on television, 
and I used to watch the FBI programs and I thought that the FBI 
Director walked on water. And my great faith in Mr. Hoover has 
been shaken by what I have learned in just the last few weeks. 
Over the years, I have worked with Director Louie Freeh on a 
number of issues, and I think Louie Freeh has done a terrific 
job, and I'm sorry to see him leave this summer.
    I think that, on the whole, the FBI has done great work 
protecting the people of this country. But we are a Nation of 
laws and not of men. In this country, no one is above the law. 
If a Federal law enforcement agency does something wrong, they 
have to be held accountable. That's why we held hearings on the 
Drug Enforcement Agency last December. I have a lot of respect 
for the men and women of the DEA. They have a tough job and 
they do it well. But there was a very important drug 
investigation going on in Houston, TX. It was shut down because 
of political pressure that was brought to bear. And then the 
head of the Houston office for the DEA came up here and mislead 
the Congress about it. That cannot be tolerated. What the FBI 
did to Boston 30 years ago cannot be tolerated.
    We will hear today from Joseph Salvati. Mr. Salvati spent 
30 years in prison for a murder he didn't commit. 30 years. 
Think about that. That is 1971. Do you remember what you were 
doing in 1971? Think about it, what it would be like if you 
were in prison for 30 years. It was a death penalty crime. He 
went to prison in 1968. He had a wife and four children. His 
oldest child at the time was 14, his youngest was 6 and he 
wasn't released from prison until 1997, 30 years later.
    The reason Joe Salvati went to prison was because an FBI 
informant lied about him which is unthinkable. But the reason 
he stayed in jail was because the FBI agents knew their 
informant lied and they covered it up, and that's much worse. 
Documents we've received show that this case was being followed 
at the highest levels of the FBI in Washington. J. Edgar Hoover 
was kept informed on a regular basis. It is hard to believe he 
didn't know about this terrible injustice. The informant who 
put Joe Salvati in prison was Joseph ``the Animal'' Barboza. He 
was a contract killer in Boston. He was also a prized FBI 
informant. He was considered so valuable that they created the 
Witness Protection Program to protect him.
    Most of the evidence now indicates that Joseph Barboza and 
his associates planned and executed the murder. Barboza pointed 
the finger at Joe Salvati because Salvati owed him $400. 
Because of $400, Joe Salvati spent 30 years in prison. Joe 
Salvati and his wife Marie are going to testify today. And I 
want to express to both of you how deeply sorry we are for 
everything that has been taken away from you and that you have 
had to go through over these past 30 years, and I want to thank 
you for being here today. And I intend to participate in making 
sure that you are compensated for--money can't pay for what you 
went through--but you should be compensated for what you went 
through and the time you spent away from your family. We will 
try to make sure that happens.
    Joseph Barboza was a criminal. You would expect him to lie, 
but the FBI is another story. They are supposed to stand for 
the truth. The FBI had a lot of evidence that Joe Salvati 
didn't commit that crime and they covered it up. Prior to the 
murder, the FBI was told by informants that Joseph Barboza and 
his friend, Vincent Flemmi, were planning to commit the murder 
of Teddy Deegan. Two days before Deegan was murdered, J. Edgar 
Hoover, the head of the FBI, got a memo about Vincent Flemmi: 
One the FBI's own informants was going to kill Deegan.
    The author was H. Paul Rico, who will testify later today. 
He was a member of the FBI at the time. After the murder, the 
FBI was told by informants that Barboza and Flemmi had 
committed the crime. J. Edgar Hoover was told that Barboza and 
Flemmi had committed the crime. FBI memos spell all of this 
out. The FBI was compelled to make these documents public just 
in the last few months. They had all this information but they 
let Joseph ``the Animal'' Barboza testify anyway and put Mr. 
Salvati away for life.
    Originally it was the death penalty. But that wasn't the 
end of it. In the 1970's, Barboza tried to recant his 
testimony. The FBI pressured him not to do it. Mr. Barboza's 
lawyer was F. Lee Bailey, and Mr. Bailey is going to testify 
about what happened later today. Mr. Bailey told the 
Massachusetts attorney general's office that his clients had 
lied and the wrong man was in prison. He was ignored. Mr. 
Bailey asked Joe Barboza to take a lie detector test to make 
sure he was telling the truth this time. Barboza was in prison 
at the time on a separate offense. When the FBI got wind of 
this, they went to the prison and told Barboza not to take the 
polygraph and to fire his lawyer, Mr. Bailey, or he'd spend the 
rest of his life in jail.
    So the FBI once again was trying to protect their tails and 
cover this thing up. I think that is just criminal. Not only 
did the FBI conceal the evidence that they had on Joe Salvati 
that Joe Salvati was innocent, they went out and actively 
suppressed other evidence. To say what they did was unseemly 
was an understatement. It was rotten to the core.
    And this is just one small part of the story. Joe ``the 
Animal'' Barboza wasn't the only mob informant the FBI official 
cultivated in Boston. There was James Whitey Bulger, who was a 
killer. There was Steve ``the Rifleman'' Flemmi, and there were 
others.
    While they worked with the FBI, they went on a crime spree 
that lasted for decades. There were dozens of murders. There 
were predatory sexual crimes. They committed all of these 
crimes with virtual impunity because they were under the 
protection of the FBI. When informants emerged that tied these 
men to crimes, they were tipped off by the FBI and the 
informants were murdered.
    So the FBI were complicitous and involved in the murders of 
some of these people that were informants. It was apparently a 
very cozy relationship. We understand there were FBI agents 
that got cash, they got money from the mobsters. Then got cases 
of wine, tickets for girlfriends and other favors, and we'll 
get to those issues in later hearings.
    Joseph Barboza committed a murder while he was in the 
Witness Protection Program. Paul Rico, who will testify today, 
actually flew out to California to help Barboza's defense, and 
so did a man who is now a Federal judge. I have issued 
subpoenas to two of the principal FBI agents who were involved 
with Joseph Barboza: Paul Rico and Dennis Condon. Mr. Condon is 
not here today. I understand he is in very poor health, but 
that does not excuse the things he is accused of doing and we 
have still have a lot of questions to ask him.
    I can assure everyone that one way or another, we will be 
interviewing Mr. Condon. Mr. Rico is here. I understand that 
there is a possibility he may take the fifth amendment because 
he's under criminal investigation. I hope that will not be the 
case. We have a lot of questions, and I think that Joe Salvati 
and the American people deserve answers. Years ago FBI agents 
would heap scorn when organized crime figures took the fifth 
amendment. I hope Mr. Rico does the right thing today and 
testifies.
    One thing that really troubles me about our third panel 
comes from the document we have just received. Paul Rico and 
Dennis Condon interviewed Joseph Barboza in 1967. That report 
is exhibit 24, which we will show later. Barboza told him he 
would never provide information that would allow James Vincent 
Flemmi to fry but that he will consider furnishing information 
on these murders. Mr. Rico and Condon had lots of evidence that 
Flemmi was in on the Deegan murder. They knew that Barboza 
would not incriminate Flemmi, yet they stood by while Barboza 
protected his partner and put Joe Salvati in a death penalty 
crime.
    [Exhibit 24 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.091
    
    [GRAPHIC] [TIFF OMITTED] T6507.092
    
    Mr. Shays. I don't know how they can sleep at night when 
they do things like that. I think this whole episode is 
disgraceful. It was one of the greatest, if not the greatest 
failure in the history of Federal law enforcement.
    If there is one institution that the American people need 
to have confidence in, it's the FBI. I think that 99 percent of 
the time the men and women of the FBI are honest and 
courageous, and I don't want to tar the entire organization 
with the misdeeds of a few. But if we're going to have 
confidence in our government, we cannot cover up corruption 
when we find it. It needs to have a full public airing, and 
that's what we're going to try to start to do today.
    I want to thank all of our witnesses for being here, and I 
will now yield to my colleagues for opening statements. Do you 
have an opening statement, Mr. Tierney?
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.001
    
    [GRAPHIC] [TIFF OMITTED] T6507.002
    
    [GRAPHIC] [TIFF OMITTED] T6507.003
    
    [GRAPHIC] [TIFF OMITTED] T6507.004
    
    Mr. Tierney. Thank you, Mr. Chairman. I have some opening 
remarks. First of all, I think what happened to Mr. and Mrs. 
Salvati is just a disgrace. I look forward to hearing your 
comments today and know that this is hopefully just the 
beginning of what we're going to do with this. I think it is 
important to get your remarks on the record and to talk about 
some of the things we will discuss today. This is not in any 
sense of the way a partisan hearing, and that is a good thing 
for this hearing, but I hope we use this as a basis to go 
forward and talk about the FBI's practice of using confidential 
informants and what that means for the future.
    I know that we've been asked for the present to not delve 
in that area too deeply because it would interfere supposedly 
with the Justice task force work that is going on. But I don't 
think we can allow that to go neglected, and I hope this sets 
just the foundation for inquiring as to what that practice is, 
what the FBI intends to do going forward, and whether or not 
they have a set of proper procedures so we do not see this case 
of disgrace happen again.
    Mr. Garo, I just want to say I think you are a credit to 
the legal profession for what you did, and I thank you for 
that. I know that there are other lawyers, some who will join 
us today and others in the profession that do that. I think you 
shine to the public on that and you let the public know there 
are good lawyers out there who do the right thing for people.
    My remarks to the Salvatis are that it is shameful what you 
went through, I think, Mrs. Salvati, particularly of your 
strength and your support, and I am glad things are working for 
a change. I don't know how it is that society will make it up 
to either of you and your family for what went on. But I 
appreciate and thank you very much for participating in today's 
hearing, and hopefully some good will come of this in terms of 
going forward. Thank you.
    Mr. Burton. Thank you, Mr. Tierney. I might point out Mr. 
Tierney made reference to it, but Mr. Garo worked pro bono for 
25, 30 years trying to get Mr. Salvati exonerated, and that is 
really something.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Thank you so much for 
holding these hearings. Under our Constitution, we are a Nation 
founded to secure the blessings of liberty. The power we have 
in government to take away a citizens liberty, strictly 
prescribed by the bill of rights and is vested only in those 
sworn to enforce and uphold the law. Yet before us today is Mr. 
Joseph Salvati, a citizen whose liberty was stolen from him for 
30 years by his own government.
    So profound an injustice is almost unimaginable. But it 
takes very little imagination to reconstruct the sordid saga of 
official malfeasance, obstruction, brutality and corruption 
that brings us here this morning. In this tragic tale, ends 
justified means, cascading down a legal and ethical spiral 
until both the ends and means became utterly unjust. Protecting 
criminals in the name of catching criminals, agents of the 
Federal Bureau of Investigation [FBI], became criminals, 
willing accomplices in the problem they have set out to solve, 
organized crime.
    Thomas Jefferson said, the sword of law should never fall 
but on those whose guilt is so apparent as to be pronounced by 
their friends as well as foes. Only Joe Salvati's foes 
pronounced his alleged guilt for a crime sworn law enforcement 
officers from the Director of the FBI to the local police knew 
he did not commit.
    Solely on the basis of false testimony from a known killer, 
Joseph ``the Animal'' Barboza, with conclusive exculpatory 
evidence suppressed and ignored, an innocent man faced the 
death penalty; the death penalty. Because he made the mistake 
of borrowing money from a thug, local, State and Federal law 
enforcement officers joined the thug in a criminal conspiracy 
to take Joseph Salvati's life. And they did, 30 years of it; 30 
years. A generation.
    His young wife, Marie Salvati, suddenly on her own, raised 
a family. She visited her husband every week. Their four 
children, then ages 4, 7, 9 and 11 grew up seeing their only 
father in prison. Birthdays, first communions, proms, 
graduations, weddings, the birth of grandchildren, priceless 
events in the life of a family, forever denied him because the 
FBI considered his freedom an acceptable cost of doing business 
with mobsters.
    The Reverend Martin Luther King, Jr. observed that 
injustice anywhere is a threat to justice everywhere. Joseph 
Salvati is not here today because of a local ethnic turf battle 
between Boston's Irish and Italian gangs who corrupted a few 
rogue FBI agents. Joseph Salvati is here today after spending 
30 years in prison because he is the victim of a corrupted 
State and Federal criminal justice system. The protection of 
confidential informants by law enforcement in what can amount 
to a nonjudicial street immunity and an official license to 
commit further crimes is a national practice and national 
problem.
    The Federal Witness Protection Program was created to 
shield the same man who falsely accused Joseph Salvati. The 
tentacles of Joseph ``the Animal'' Barboza, FBI's protected 
criminal, stretched well beyond Massachusetts, from Connecticut 
to California. New Federal guidelines on the use of informants 
might help prevent the abuses that put Joseph Salvati in 
prison. But they will not necessarily break the self-justifying 
protective culture of some law enforcement agency that allow 
this gross miscarriage of justice to occur and to persist for 
30 years. Only an official apology from the FBI will do that; 
only compensation from the State of Massachusetts and the 
Federal Government will do that. Only bringing those 
responsible before the bar of justice they swore to defend, but 
betrayed will do what must be done to right this wrong.
    Mr. and Mrs. Salvati, thank you for being here. As a fellow 
citizen of a land that holds liberty sacred, let me say that I 
am profoundly sorry for what has happened to you. We can never 
replace what has been taken from you, but we are grateful for 
your openness and your willingness to share what you have. Your 
story of faith, incredible faith, Marie, incredible faith, 
family, your story of faith, your story of family, your story 
of courage and perseverance is a gift to your Nation, and we 
cherish it.
    Your testimony will help ensure no one else has to endure 
the outrageous indignities and injustices you, Mr. Salvati and 
your family, Marie, and your family have suffered.
    Mr. Garo, let me say something to you. You are a hero. You 
are an absolute hero, and you share that with some in the press 
who wrote this story up for years and years and years. I have 
just wished we heard it sooner.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.005
    
    [GRAPHIC] [TIFF OMITTED] T6507.006
    
    Mr. Burton. Thank you, Mr. Shays. With the approval of the 
committee, I would like to read one paragraph from the 
statement of FBI Director, Louie Freeh, we just received this 
this morning. It says,

    The allegations that have been made concerning the 
circumstances of Mr. Salvati's conviction and 30-year 
incarceration speak directly to the need for integrity and 
commitment in the pursuit of justice under the rule of law. 
These allegations that the law enforcement personnel turned a 
blind, including the FBI, eye to its exculpatory information 
and allowed an innocent man serve 30 years of a life sentence 
are alarming and warrant thorough investigation.
    Under our criminal justice system, no one should be 
convicted and sentenced contrary to information known to the 
Federal Government. As with the conviction earlier this week in 
the Birmingham civil rights bombing case, we cannot allow the 
egregious actions of 30 years ago to prevent us from doing now 
what is right and what must be done to ensure justice is 
ultimately served.

    I would like to insert into the record the rest of his 
letter. With that we'll go to Mr. Kucinich and then to you, Mr. 
Delahunt.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.007
    
    [GRAPHIC] [TIFF OMITTED] T6507.008
    
    [GRAPHIC] [TIFF OMITTED] T6507.009
    
    [GRAPHIC] [TIFF OMITTED] T6507.010
    
    [GRAPHIC] [TIFF OMITTED] T6507.011
    
    Mr. Kucinich. I yield to Mr. Delahunt.
    Mr. Burton. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman; and I applaud you 
for initiating these hearings.
    I just want to associate myself with the remarks of Mr. 
Shays. I think, Mr. Salvati and Mrs. Salvati, that his 
eloquence, his obvious emotion really reflect the sentiment of 
everyone on this panel and I am sure most Americans. I want to 
congratulate my colleague from Connecticut for seeing it as it 
is.
    I recently read a newspaper piece describing your story, 
Mrs. Salvati; and in that story you have indicated that no one 
ever had said sorry to you. You have heard that here today, and 
let me also state my profound sorrow for what you experienced.
    And, Mr. Salvati, you should know that you and your family 
and your splendid attorney are making a real contribution to 
the United States. As Mr. Shays indicated, justice is something 
very special in a democracy; and your testimony and your story 
has opened up many, many eyes. We thank you for that and also 
express profound sorrow for what you experienced.
    And, yes, Mr. Garo, you are a hero. I am proud that I am an 
attorney, that we belong to a profession that represents often, 
often those causes that are so unpopular, but that are so 
righteous. In this particular case, I am confident that if it 
had not been for the literally tens of thousands of hours that 
you have spent on this case, your persistence, your 
perseverance, that Joe and Marie Salvati would have never been 
reunited and that this injustice never would have been 
redressed. You are a hero.
    Victor, we met recently in your office. You provided the 
muffins and the coffee. You know my background, that I served 
as the district attorney in the metropolitan Boston area for 
more than 21 years.
    I would be remiss at this point in time not to note at this 
point on the second panel two of America's finest lawyers will 
also testify, Mr. Bailey, Mr. Balliro. All of you reflect such 
great credit on our profession. In an era when sometimes 
attorneys are held in low esteem, you represent the very best.
    Let me conclude, Mr. Chairman, by thanking you for allowing 
me to participate in this hearing.
    I know my two other colleagues from Massachusetts who 
served with me on the Judiciary Committee, Mr. Meehan and Mr. 
Frank, will also be here during the course of the hearing.
    Also, let me indicate that I have been informed that Mr. 
Waxman, who is the ranking Democrat on this committee, is tied 
up with a hearing in the Commerce Committee dealing with the 
issues of energy in California; and since he represents 
California he will obviously be there for a considerable 
portion of this hearing. But I do have a statement that I have 
been asked to submit into the record on behalf of Mr. Waxman.
    Mr. Burton. Without objection, so ordered.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.135
    
    [GRAPHIC] [TIFF OMITTED] T6507.136
    
    Mr. Burton. We will now go to Mr. Barr, but, before we do 
that, let me just thank Mr. Shays for being so diligent in 
bringing this to the committee's attention and making sure we 
had this hearing. If it hadn't have been for all of his hard 
work, we wouldn't be here today.
    Mr. Shays. You were not a hard sell.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you very much, Mr. Chairman, for not only 
convening this hearing today but also for the outstanding work 
of the staff. They have, over the past weeks, put in tremendous 
effort in both quality and quantity of effort, and I appreciate 
very much the dedication of Mr. Wilson and his fine staff in 
pursuing this evidence.
    I appreciate your reading into the record part of the 
letter from FBI Director Freeh. He makes reference in his 
letter to the case earlier this week in Birmingham involving 
the civil rights bombing where four little girls were killed 
many years ago. Just in that case, the inference of those who 
would not let injustice sleep as in this case, even though 
very, very late and after a tremendous injustice has been done, 
at least some folks have stepped forward, including yourself 
and Mr. Shays and our witnesses here today and others, to try 
and see that at least at some point, at some level justice is 
done.
    While this, the letter from the Director, is important, I 
would like to refer also to the very last sentence of Director 
Freeh's statement in which he says that he looks forward to 
working with the committee to ensure that not only the 
troubling allegations raised by Mr. Salvati's case but each of 
the allegations is investigated fully.
    We certainly look forward to working very closely with the 
FBI, even though Director Freeh is leaving; and we certainly 
wish him well. We have tremendous regard for him. We hope that 
his successor is equally committed to pursuing this case so 
that all vestiges of it are aired.
    The purpose of it, as you have indicated, Mr. Chairman, go 
far. I don't understand simply the injustices that were done to 
this family, these individuals, that alone would justify this 
action. But it's important that we also recognize that, in 
trying to correct the injustices in this case, we are taking 
some steps to ensure hopefully that similar cases will not 
arise in the future, both through the example of these hearings 
and, hopefully, further action by the Federal Government and 
the local authorities in directing these injustices but also 
perhaps through looking at legislation, perhaps looking at 
legislation too, that deals with how informants are dealt with 
by the government.
    We certainly recognize that the use of informants is an 
essential law enforcement tool, but it must be done within the 
bounds of the Constitution, the same as all the other things 
law enforcement does.
    So this hearing today is not certainly the end of either 
correcting the injustices in this case, nor is it looking at 
the ways--the very specific ways, Mr. Chairman, that we can 
help ensure that these kind of things will not happen in the 
future, if not through legislation then certainly policy 
changes at a bare minimum.
    Thank you, Mr. Chairman, for convening this hearing and for 
the work of the staff; and I want to testify, beginning here, 
thank very much the witnesses here today and for what they 
represent. Thank you.
    Mr. Burton. Thank you, Mr. Barr.
    Mr. Kanjorski--or did you want to make a comment? Mr. 
Kucinich.
    Mr. Kucinich. Thank you very much, Mr. Chairman, members of 
the committee, to the Salvati family.
    Franz Kafka once wrote a book called ``The Trial'' in which 
an individual was prosecuted, didn't even know why. I don't 
think that Franz Kafka, even with his great skills as a writer, 
could have countenanced the kind of trial and tribulations that 
Mr. Salvati and the Salvati family had to go through for 
decades.
    The scriptures say that blessed are they who suffer 
persecution for justice's sake. The persecution of Mr. Salvati 
is a cautionary tale about the American justice system, and it 
shows the importance of attorneys who are willing to support 
the cause of justice without failing, without flagging but with 
persistence, with integrity, with the willingness to take a 
stand. It shows the quality of character of a family whose name 
was smeared, who endured trials that are of biblical 
proportions and yet who today come before this committee of the 
U.S. Congress fully vindicated and standing for all of America 
to see as a family in triumph, with a wonderful name as a 
family whose name will always be remembered for its 
perseverance, for its endurance and for its love of country. 
God bless you.
    Mr. Burton. Thank you, Mr. Kucinich.
    Mr. Horn.
    Mr. Horn. Mr. Chairman, I commend you for holding this 
hearing and withhold any comment for the question and answer 
period.
    Mr. Burton. Mr. Horn, thank you.
    Mr. Kanjorski, do you have any comment?
    Mr. Kanjorski. No.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I will be, I 
think, brief.
    There is no doubt in my mind, as I look at this case and 
others, that back in the 1950's and 1960's organized crime was 
a scourge upon the landscape of America; and it isn't 
surprising to me that law enforcement used ordinary and 
extraordinary measures to bring those who would rape, murder 
and extort others to justice.
    However, as Mr. Delahunt has mentioned and others I think 
will mention, prosecuting officials, be they enforcement or 
prosecuting attorneys, have a different responsibility than the 
defense attorney or those lawyers who are hired as advocates. 
Those individuals are bound by ethical considerations and 
confidentialities. But a lot of people who get into the 
business of prosecuting and law enforcement think it's about 
winning and whether or not you can rack up a conviction. It's 
not. It's about doing justice.
    I have always believed prosecuting officials have a higher 
responsibility than others who engage in the practice of law. I 
think the saying is, the power to indict is the power to 
destroy. Simply by taking a good person to the grand jury and 
causing an indictment to be issued with faulty evidence, let 
along convicting and placing that person in prison, you can 
ruin literally a person for life.
    That is why, built into the system are a number of 
safeguards, beginning with the Brady decision in the 1960's. 
The Federal rules and I think State rules have something known 
as rule 16 that indicate that prosecuting officials have a 
responsibility and a duty to hand over exculpatory materials so 
that all facts are known when a jury or judge makes a 
consideration as to a defendant's guilt or innocence.
    If this hearing develops the facts that we believe they 
will over the next few hours, this represents a failure of the 
system. It represents a failure of the responsibility of the 
prosecuting officials involved. It represents a failure of 
ethics; and, more basically, it represents a failure of human 
decency to those who have been involved. And I am glad you are 
here, Mr. Salvati.
    Thank you.
    Mr. Burton. Thank you, Mr. LaTourette.
    Mr. Frank.
    Mr. Frank. Mr. Chairman, along with my colleague, we very 
much appreciate the initiative you have taken of having this 
hearing. I hope there will be further hearings here and in the 
Judiciary Committee because I think we have a very serious 
problem of abuse by law enforcement. Abuse that is the result 
of good motivation and a desire to do good is also abuse. It is 
clear by what has been brought out by Judge Wolf in Boston, by 
the media, that some agents in the FBI violated their oath and, 
in fact, perpetrated injustice, having started out to bring 
justice to people.
    My view is that it is unlikely that what we are now dealing 
with, either here or in the case that Judge Wolf talked about, 
are isolated instances. The nature of bureaucracy is such that 
it is not at all persuasive to me that these are the only 
instances of this. So I think we need a systematic 
investigation so that the important essential and very well-
performed work of the FBI in general is not called into 
question by a certain pattern of actions by a few people that 
causes problems. I think it is important for us to find out 
what and how high up people in the FBI knew and what they did 
about it. So I appreciate your giving us the chance to begin 
this.
    I will now apologize for the fact that the Housing 
Subcommittee, which I am the senior ranking Democrat, is 
meeting simultaneously down the hall, so I will be in and out. 
But I leave with the confidence that my colleague from 
Massachusetts, my former State legislative colleague who spent 
more than 20 years as a first-rate prosecuting attorney in 
Massachusetts and has a good deal of first-hand information 
about this, will be here. Because this is a matter about which 
I have a great deal of confidence in his judgment and his 
knowledge.
    But I do appreciate your beginning this process, and I 
think it is very important for us in the nature of the 
integrity of law enforcement to do a very thorough study to why 
this sort of event happened, again growing out of the zeal to 
do right. But just because bad things were originally motivated 
by the zeal to do right does not in any way justify them or 
mean that they should be overlooked.
    I will say that, in closing, that I have been disappointed 
over a series of events in what seems to me an unwillingness on 
the part of the FBI to be self-critical. We still have the Wen 
Ho Lee case where an FBI agent admittedly gave false testimony 
in court that was material to the outcome that led to a man's 
confinement in part. That happened well over a year ago. The 
FBI still has not dealt with that.
    So I appreciate your being willing, Mr. Chairman, to take 
this on.
    Mr. Burton. Thank you, Mr. Frank.
    Mrs. Davis. No opening statement?
    If not, I think we have covered the panel.
    Mr. and Mrs. Salvati and Mr. Garo, would you please rise to 
be sworn.
    I'm sorry. Mrs. Morella, do you have an opening statement?
    Mrs. Morella. No opening statement.
    Mr. Burton. Would you please rise?
    [Witnesses sworn.]
    Mr. Burton. I guess we will start with Mr. Garo. Would you 
like to make an opening statement? Then we'll go to Mr. Salvati 
and Mrs. Salvati.

  STATEMENTS OF VICTOR J. GARO, ATTORNEY FOR JOSEPH SALVATI; 
               JOSEPH SALVATI; AND MARIE SALVATI

    Mr. Garo. Thank you, Mr. Chairman.
    At the very outset, I would like to thank you, Mr. 
Chairman, and the members of your committee for holding this 
hearing and with the promise of other hearings, because it is a 
story that has to be told. We live in America, not Russia.
    In trying to find the opening remarks that I wanted to say, 
I thought very deeply as to how I wanted to begin; and I would 
like to begin as follows, if I may, Mr. Chairman: With liberty 
and justice for all. Those are famed words from our Pledge of 
Allegiance to our flag. Many dedicated men and women gave their 
lives for those words. Those words are the foundation of our 
country.
    However, the FBI's investigation and participation in the 
Deegan murder investigation has made a mockery of those words. 
The FBI determined that the lives of these people were 
expendable; that the life of Joe Salvati, my friend and client, 
was expendable; that the life and future of his wonderful wife 
and my friend, Marie, was expendable; and that the four young 
lives of their children, at the time ages 4, 7, 9 and 11, were 
expendable.
    From the very beginning, I said, no, they were not 
expendable. I don't believe a life is expendable.
    What has gone on here, and as you will find out from the 
evidence as presented and the herculean efforts of counsel and 
his staff of putting together these documents, that this is 
probably the most classic example of man's inhumanity to man.
    We are a system of laws. We are supposed to be a system of 
justice. Only justice failed Joseph Salvati, justice failed 
Marie Salvati, and justice failed their four young children.
    As was just indicated, the FBI has always had a gloried 
background. What happened here in the big view of what was 
going on I think is important to understand.
    The FBI determined that it was important to bring down 
organized crime in the Northeast area. At that time, the 
alleged organized crime figure in Massachusetts was Mr. 
Angiulo. The alleged organized crime boss of the New England 
crime family was allegedly Raymond Patriarca. In the Deegan 
murder investigation there was the right arms of Mr. Angiulo 
and Mr. Patriarca and other people that they wanted off the 
street. And with one witness, Joseph ``the Animal'' Barboza, 
who gave uncorroborated testimony in three cases, the 
government had what they wanted. The Federal Government had 
what they wanted. They wanted the press and the recognition 
that they were crime fighters, and based on that premise they 
issued propaganda to the press and to anyone who would listen 
to them.
    There's more than just an apology that should be made to my 
clients. There is an apology that should be made to the 
citizens of the United States and to the premises of the United 
States. Because you were all taken in by the name of the FBI. 
It was more important to the FBI that they protected their 
prized informants than it was for innocent people not to be 
framed.
    The truth be damned. It didn't matter, the truth. We want 
convictions. We don't care what happens to Joe Salvati. We 
don't care what happens to Marie Salvati. We don't care what 
happens to their four young children.
    I care. I have cared for over 26 years.
    The entire saga here can be summed up like this: The FBI 
determined who got liberty, the FBI determined who got justice, 
and justice was not for all. It was for they who determined 
that justice was for.
    What Constitution? What Bill of Rights? What human rights? 
What human decency? We're the FBI. We don't have to adhere to 
those principals so long as we have good press and so long as 
we get convictions. That will show that the ends justify the 
means.
    Many defense lawyers like myself have through the decades 
fought difficult battles because the whispering campaigns would 
begin, such as, yeah, right, Salvati is innocent? He comes from 
the north end, you know what I mean? Right.
    The mere fact that they were the FBI and those are the type 
of comments that they would make, it was all done with a 
purpose in mind so that the press that is here today would not 
get involved with the stories. They didn't want anyone 
investigating the investigators. Because they couldn't pass the 
smell test of honesty. No human rights, no human decency.
    From the evidence that you will have before you, Mr. 
Chairman, and the evidence that I have, I believe it allows me 
to say the following: It is my opinion that J. Edgar Hoover, 
former Director of the FBI, conspired with FBI agents to murder 
Joseph Salvati. The manner of means by which that murder was to 
be committed was by way of an indictment on October 25, 1967 
where the penalty was death by the electric chair.
    J. Edgar Hoover knew the evidence of his prized informants, 
and he allowed Barboza to commit perjury in that first degree 
murder case. In my opinion, the date of October 25, 1967, will 
go down in the annals of the FBI as their day of infamy. 
Because it was on that day that the Director of the FBI crossed 
over the line and became a criminal himself.
    Mr. Chairman and members of the committee, we're not here 
to paint with the same brush all of the FBI and agents of the 
FBI or law or law enforcement. Because they do a good job. 
Because we need them to protect us from those that would harm 
us.
    But they who are under sacred oath and trust of allegiance 
to our country have to be accountable for their actions. And it 
isn't just the role of a few. It was known from the agents to 
those who were in charge of the Boston office of the FBI and 
with the evidence that you have that J. Edgar Hoover himself 
knew exactly what was going on. The truth be damned. 
Convictions are what we want.
    What has been very worrying to my clients, who are my 
friends, is that there is a complete denial in the Boston 
office of the FBI that they have done anything wrong. Now the 
flip side of that argument would be, we haven't done anything 
wrong, so therefore we're going to continue and keep doing the 
same things over and over.
    That's unacceptable to us. In saying those words, they are 
trivializing my client's 30 years in prison. They are 
trivializing his wife's 30 years without a husband. They are 
trivializing the four young children growing up without the 
love and companionship of their father. And we won't allow that 
to happen.
    When did the FBI stop having a heart? When did our justice 
system stop caring for our citizens? When did they stop caring 
about a loving family being broken apart?
    On the date of January 30, 2001, Mr. Chairman, I was asked 
by many reporters, you must feel very vindicated, Mr. Garo, and 
you must feel very happy that your client has walked out a free 
man. And it was just the contrary, Mr. Chairman. It was a very 
sad day in my life.
    Because everything that I had been saying for all those 
years, 26 of them, came to be true. That means that the 
government stole my client's life for 30 years, his wife's life 
for 30 years and the children's lives for 30 years. The FBI 
acted like a god. They determined liberty and justice for all. 
Not our justice system. The FBI.
    In closing, I would like to just make some examples of the 
emotional part of this case.
    I used to have meetings, Mr. Chairman, with my client's 
children and Mrs. Salvati. I would meet with them every 3 or 4 
months to bring them some type of hope. Because H-O-P-E, those 
four letters, that's all they had. They had this fat bald guy. 
That is all they had to try to explain, we'll try a new way to 
do it. We'll find another door maybe we can open. We will find 
another way. Maybe we can do this. But we'll do it.
    I said to the son, Anthony, the youngest of the children, 
in one of our meetings, I said, Anthony, when I get your dad 
home, you're going to say I created a monster. Because he's 
going to follow you around, and he's going to want to know 
everything you have done. Anthony is a rather emotional young 
gentleman, and gentleman he is. And he came over, and he sat 
beside me on the couch, and he said, no, Victor. He says, I 
have never seen my father get up in the morning, I have never 
had breakfast with my father in the morning, I've never taken a 
walk with my father, and I have never gone to a ball game with 
my father. I sure do want to do that in the future with my dad.
    A second example is their daughter, Sharon. In returning 
from one of the visits before the trial of her father, she came 
home and asked her mother and then asked her father, daddy, 
what's the electric chair? They say you're going to get the 
electric chair. Are they giving you a present?
    Tell me how a father and tell me how a mother explains that 
to a young child around 8 or 9 years old.
    Finally, there is a story about love, commitment and 
devotion, of good people. When I used to visit Marie Salvati 
and her children at home, small one bedroom apartment, I always 
used to see a card on top of the TV stand, on top of the TV; 
and I saw it many times. I never asked a question, but I always 
noticed when I got there it was always a different card. I said 
one time, Marie, can I go over and look at that card? She said, 
yes, Victor.
    Mr. Chairman, I have to say to you that when I went there 
and I saw it, a tear came to my eye. Because she never, ever 
mentioned this to me for decades, and neither did my client. 
How Joe and Marie kept their love and life together was by 
small, little things. Every Friday Marie Salvati would receive 
from her husband beautiful love cards. And inside those cards 
was always a statement of Joe Salvati to his wife. What else 
can I say? I love you. I love you. I have everything. I miss 
you, and I love you, Joe.
    Marie Salvati has said to me, Mr. Chairman, that sometimes 
her life has been lived in a shoe box. Mr. Chairman and members 
of the committee, they have several shoe boxes of all the cards 
that she has saved over the years of his incarceration.
    I bring those out, Mr. Chairman and members of committee, 
and I know maybe I have taken a little bit more time, and I'm 
sorry. But these are stories that people don't want to have 
told. They don't want you to understand the pain and the 
suffering that this family has endured. It is inhuman.
    So I say to you, Mr. Chairman, in closing, that I think 
when you have this hearing and the other hearings that you're 
going to conduct, I have an opinion. It came true in the Joe 
Salvati case, and I have an opinion that I would like to share 
with you, Mr. Chairman and members of committee.
    It is my opinion, when you discover all of the evidence in 
this case and the hearings, that you are going to hold that 
this is a scandal that is bigger than Watergate. It is broader 
than Watergate. It deals with people's lives, whether they get 
killed or not killed. It depends on whether you go to jail or 
not to jail. They determined, as God, who lived, who died and 
who went to prison. Out of control. That's what was happening 
in four decades in Boston.
    So I say, Mr. Chairman, that I cannot thank you enough for 
allowing us to come here today to share with you our thoughts 
and evidence. God bless you.
    Mr. Burton. Thank you, Mr. Garo.
    I understand you have a chronology of events that you want 
to go into. Why don't we have Mr. Salvati and Mrs. Salvati make 
a statement, and then we'll come back to you. And if you could 
quickly go through the chronology I would appreciate it.
    [The prepared statement of Mr. Garo follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.012
    
    [GRAPHIC] [TIFF OMITTED] T6507.013
    
    [GRAPHIC] [TIFF OMITTED] T6507.014
    
    [GRAPHIC] [TIFF OMITTED] T6507.015
    
    [GRAPHIC] [TIFF OMITTED] T6507.016
    
    Mr. Burton. Mr. Salvati.
    Mr. Salvati. Thank you, Mr. Chairman.
    I want to thank this committee for holding this hearing. 
This is a story that needs to be told so the country can know 
what awesome power the government has over our lives.
    When I was arrested on October 25, 1967, for participating 
in the Edward ``Teddy'' Deegan murder, I was devastated. How do 
you prove that you're innocent? There were constant stories in 
the media that I was a very bad person and one not to be 
respected.
    The government stole more than 30 years of my life. Just 
the statement of 30 years in prison can run shivers up and down 
your spine. My life as a husband and father came to a tumbling 
halt.
    In order to clear my name, it has been a long and 
frustrating battle. Yet, through all the heartbreak and 
sometimes throughout the years, my wife and I have remained 
very much in love. Prison may have separated us physically, but 
our love has always kept us together mentally and emotionally. 
Our children have always been foremost in our minds. We tried 
our best to raise them in a loving and caring atmosphere even 
though we were separated by prison walls.
    More than once my heart was broken because I was unable to 
be with my family at very important times. However, through 
love and courage, all of us have battled back through times of 
adversity. We were strong in bad times, and we are still strong 
in good times.
    I am here to talk about our most precious possession of 
all: Freedom.
    As you know, I have served 30 hard and long years in prison 
for a crime I did not commit. However, I still consider our 
justice system to be the greatest system in the world. But 
sometimes it fails, as in my case. I became a casualty in the 
war against crime.
    The justice system has finally worked for me, although it 
has taken over 34 years. I wouldn't be here before you today if 
it weren't for an honest, dedicated assistant U.S. attorney by 
the name of John Durham. The FBI agents working for him found 
documents, and these documents were sent to my lawyer. We need 
agencies like the FBI, because there are many out in the world 
that want to hurt us; however, when the FBI or any other 
similar agencies break the law, they must be held accountable 
for their crimes.
    Finally, I'd like to say a few things about my wife. She is 
a woman with great strength and character. She has always been 
there for me in my darkest hours. She brought up our four 
children and gave them a caring and loving home. When God made 
my Marie, they threw the mold away.
    Mr. Burton. It's OK. Take your time.
    Mr. Garo. Mr. Chairman, may I please finish those last two 
sentences for Mr. Salvati?
    Mr. Burton. Sure.
    Mr. Garo. When God made my Marie, the mold was thrown away. 
I am one of the luckiest men in the world to have such a 
devoted and caring wife, my precious Marie.
    Mr. Burton. Thank you, Mr. Salvati.
    [The prepared statement of Mr. Salvati follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.017
    
    [GRAPHIC] [TIFF OMITTED] T6507.018
    
    [GRAPHIC] [TIFF OMITTED] T6507.019
    
    Mr. Burton. Ms. Salvati, do you have a statement?
    Mrs. Salvati. Yes, thank you.
    Mrs. Salvati. Chairperson and everybody here, it's just 
overwhelming. OK. At the very outset, I want to thank this 
committee for holding this hearing and for asking us to 
participate in order that we can tell our story.
    From October 25, 1967, the date my husband was arrested, 
until January 30, 2001, when all the charges were dropped, my 
life was extremely difficult. The government took away my 
husband and the father of our four children in 1967. My world 
was shattered. This wonderful life that we shared was gone. I 
was looked down upon by many. As we all know, children can 
sometimes be cruel. Other children in our neighborhood would 
make fun of the fact that their father had been arrested for 
murder, and they would taunt some of them and say, shoot you, 
bang-bang. Your father is going to die; you know, things that 
would really hurt the family. And my children would come home 
crying to me. And I did my best to comfort them in bad times, 
but I had no one to comfort me when my children went to bed. 
Many a night I cried by myself, and I suffered in silence.
    When my husband was arrested on October 25, 1967, I found 
out that the punishment for the crime was death in the electric 
chair. That potential sentence weighed heavily on me until he 
was sentenced on July 31, 1968, and received a life sentence 
without parole.
    The government stole 30 years of my life. I was unable to 
share with my husband the joys of being a husband and a wife. 
The government stole 30 years from my children, because they 
grew up without their father. However, the government was never 
able to break our spirit. Our love grew stronger, and I always 
knew my husband was innocent. I know the moral character my 
husband possessed. I did not accept as my destiny that my 
husband would never come home again. I always had faith and 
love.
    Our lawyer, Vic Garo, always instilled in us that the glass 
was half full and not half empty. We gathered strength from 
this fact and that he believed Joe was innocent from the very 
beginning of his representation of my husband and my family.
    While my husband was in prison, the pact between us was I 
would not inform him of the problems at home. You know, I used 
to say to my husband, you take care of yourself on the inside, 
and I'll take care of the family on the outside.
    From the very beginning of imprisonment, I knew that it 
would be important for the children to have constant contact 
with their family, with their father. And every weekend, you 
know, I'd dress up, pack a little lunch, and we'd go off to see 
him for their hugs and their kisses and whatever went on. And 
he would give them a father's guidance, even though he was not 
home with them. Sometimes it took hours to get there, and every 
time you got there, you were all nervous.
    My husband and I have endured many hardships. As we grow 
older, we still have the cherished feeling that a husband and 
wife can have. We love each other very much. God bless you all.
    [The prepared statement of Mrs. Salvati follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.020
    
    [GRAPHIC] [TIFF OMITTED] T6507.021
    
    Mr. Burton. Let me just say to both of you, Mr. and Mrs. 
Salvati, this has got to be a very difficult time to bring all 
of this out, but I'll tell you, it's important for not only the 
Congress, but the American people to see the emotion and the 
heartache that you guys had to suffer through for 30 years. And 
so I apologize for you having to make these statements, but I 
think you're doing an awful lot of good, because it's going to 
show the country that we must never allow innocent people to 
suffer like you folks have.
    Mr. Garo, you want to go through that real quickly, the 
chronology of events?
    Mr. Garo. Thank you, Mr. Chairman. As I said in the 
beginning, it is a very emotional case, and I thank you for 
allowing us to make those statements.
    My representation of Mr. Salvati began in 1976 when I was 
asked to come down to see him by a client of mine who was in 
prison. I met Mr. Salvati. It was a dark, dreary, rainy day, 
and I went down to see him, and he told me the facts upon which 
that he was convicted. From the very facts he told me, I said, 
this doesn't seem correct to me. How could you be convicted on 
those facts?
    I then did my own independent investigation, Mr. Chairman, 
and I found that what he said was so, not that I did not 
believe him. I just had to check the facts. I agreed to 
represent him and help him to gain freedom, and they gave me a 
retainer. Shortly after that, I found out that this family did 
not have a lot of money. I returned the money back to him, Mr. 
Chairman, and I said that I would stay with you. It's true, I 
never thought it would be 26 years later and over 20,000 free 
hours of my time, but I was brought up that when you make a 
commitment, you keep a commitment, and I've kept that 
commitment.
    If I may, Mr. Chairman, I'd like to go over just for a few 
minutes, if I may, about the facts that were told in court by 
Joe ``the Animal'' Barboza concerning Mr. Salvati. On or about 
January 20, 1965, Barboza testified that one Peter Limone 
offered him a contract for $7,500 to kill one Teddy Deegan. 
Barboza then said it took from January 20th until March 12, 
1965 to put together his death squad. He went around the 
country, he said, to go get participants in this murder. They 
were going to do this through a setup, Mr. Chairman, of Mr. 
Deegan being involved in a breaking and entering in the Chelsea 
alley of a finance company, and it was supposed to be set up by 
certain people. Deegan would go in the alley and would be shot 
to death.
    On March 12, 1965, the day of the killing, Barboza in the 
middle of the afternoon said, Salvati has got to be involved in 
the killing tonight. As a matter of fact, he's going to be my 
getaway car driver, and he's going to wear three disguises. 
He's going to wear a wig to make him look bald. He's going to 
wear a pair of sunglasses and a mustache. Later that night, at 
about 7:30, Barboza testified that when he went to the Ebb Tide 
Restaurant and Lounge, which was a hangout for organized crime, 
he saw Joe Salvati at the bar, and he said to Joe Salvati, go 
outside and warm up the car, Joe.
    Now, mind you, that night, they did not know if the 
breaking and entering was going to happen. The murder would 
depend on whether or not there was going to be a breaking and 
entering that night. Since they didn't know that was going to 
happen, no one knew the time that it would happen or if it 
would happen, but Joe Salvati is still warming up the car. It's 
7:30. At 9 o'clock, Barboza receives the nod from a Roy French, 
indicating that the breaking and entering was going to take 
place and that Deegan would be there. That was the signal for 
Barboza to leave and to go and kill Teddy Deegan.
    Barboza goes out to the car sometime about quarter past 9 
and gets in and drives the car, tells Salvati to get in the 
back seat. Barboza then says, we go to the area and we bend the 
license plates--in those days you had a front license plate and 
a rear license plate--and they bent it in half to hide their 
identity. As they were in the car, a person was walking toward 
them, and Barboza said, I think it's the law. And it was. It 
was a captain of the Chelsea Police Department. Barboza saw him 
and said he took off at a high rate of speed. The captain later 
said that he saw a man in the back seat with a bald head, bald 
spot, and he was able to find the first three numbers of the 
license plate, 404.
    Barboza then said he went back to the Ebb Tide. He told Joe 
Salvati, go throw away the guns, throw away the disguises, and 
meet me in the bar. He then said that he split up the money 
with Salvati the next day. All that testimony came from Joe 
``the Animal'' Barboza, uncorroborated, no other witness, just 
him.
    Three things that always bothered me, Mr. Chairman, from 
the first time I ever heard the story: Timing. Why would 
Barboza hire someone to be involved in a killing that afternoon 
when it had taken him 2 months to put together his death squad? 
It didn't make sense to me. Two, he was going to be my getaway 
car driver. Getaway car driver? Salvati and Barboza never hung 
with each other, never associated with each other, were not 
partners. Barboza was a killer. Salvati was never. Barboza was 
a hit man. Salvati was not. And they knew who Barboza's 
partners were. Salvati never hung with Barboza, never 
associated with Barboza, other than a year later when he 
borrowed $400 from one of Barboza's associates. And we said, 
wouldn't there be a dry run? Salvati came from the north end of 
Boston. This was a killing that was supposed to take place in 
Chelsea, and I said, wouldn't a getaway car driver, at that--
want to know the street that you could go up and down? That 
bothered me, Mr. Chairman.
    And the third one is that of all the killers in this case, 
Salvati had to wear three disguises, and the three disguises 
were a wig to make him look bald, a pair of sunglasses and a 
mustache. Now, from what I understand of law enforcement is 
that the reason why you wear disguises, because everybody knows 
who you are. Mr. Salvati had one criminal conviction in 1956. 
He was not known to the police, not known to the Chelsea Police 
Department, not known to the Boston Police Department as a 
driver or somebody for Barboza; didn't hang with Barboza. And I 
said, why would Barboza want somebody to wear three disguises?
    Well, now, of course, you know from the evidence that you 
have seen and that your counsel Mr. Wilson and his staff so 
ably has put together, you have come to find out that story was 
all made up and a fabrication. But one thing wasn't a 
fabrication. They did do a dry run. Can you imagine Mr. Salvati 
at 7:30 warming up the car, quarter of 8 warming up the car, 8 
o'clock warming up the car, quarter past 8 warming up the car, 
8:30 warming up the car, quarter of 9 warming up the car? They 
didn't know what time this was going to be. That was the best 
heated car in the world. This could have ran anyplace. They 
almost ran out of gas. Did that make sense to anybody? It 
didn't make sense to me.
    Now, what is it that has happened? The biggest break in 
this case happened in 1989 when we were receiving a commutation 
hearing that took place in August 1989. About 3 weeks before 
that event, I obtained a copy of a hidden Chelsea Police 
Department report. In that report it had an informant who 
mentioned who left the Ebb Tide that night, who went out to do 
the killing, and then when they came back, he said, we nailed 
him.
    Now, under the law at that time under Rowe v. United 
States, if they knew there were informants and that defense 
counsel would have known it, they could have made a motion for 
the name of the informant. But, of course, the FBI was 
protecting informants, because, lo and behold, who were their 
informants back at that time? I had always said that Barboza 
was hiding a friend or a close associate. Yeah, Vinny Flemmi 
was his partner. Vinny Flemmi was bald. Vinny Flemmi had a 
bigger criminal record than Joe Barboza. He was a killer, a 
known thug, and known as a driver for Barboza 90 to 95 percent 
of the time, because he was his chauffeur, because he trusted 
him.
    When I received that report, I then went out and did my own 
investigation, because I was not an organized criminal defense 
attorney. Most of my work was in white collar crimes. When I 
looked at it, I had my investigators go out and check out who 
these people were. Lo and behold, Mr. Chairman, we find out 
that one of the men mentioned was Vincent Flemmi. I went out 
and checked who Vincent Flemmi was. He was bald. I found out 
his record. I said my God, that's who was there that night. It 
wasn't Joe Salvati. It was Vincent Flemmi.
    When I brought that to the attention of the parole board in 
1989, we received the unanimous vote of the parole board. The 
only problem is, Mr. Chairman, from 1986 to 1989, the FBI told 
the parole board that my client was going to get indicted, so 
don't give him a commutation hearing. Four years went by, and 
they said, don't you understand it's all phony information 
you're receiving? I appeared in 1989, Mr. Chairman, before the 
parole board. Mr. Salvati, after the unanimous vote of the 
parole board, finally gets out on his commutation on March 20, 
1997.
    Make no mistake about it, the Federal Government and the 
State government never wanted Mr. Salvati ever to get out of 
prison, because dead men tell no tales, and we wouldn't be here 
today before you if they had succeeded. Three of the six, 
though, have died in prison. Mr. Salvati is here today before 
you because he survived 30 hard years in prison.
    Now, in 1993, Mr. Chairman, I obtained new evidence, and 
finally I was able to obtain coverage by the press in this case 
because of an event that occurred on the commutation, Mr. 
Chairman. On January 20, Governor William Weld at that time 
denied my client's commutation because of his long criminal 
record, one criminal conviction in 1956. I said, I need some 
help. And I did get that help from a reporter back in Boston by 
the name of Dan Rea, CBS affiliate, channel 4, WBZ, and he 
became my advocate through the press of our story. And through 
the years, he did many, many stories, and we found much, much 
evidence, as you have here documented before you. But no one 
wanted to listen to it. No one wanted to see it, because, you 
know, Salvati, yeah, he's innocent, right, yeah, right, all 
those words.
    In 1997, we obtained a commutation, and probably the most 
important day in the history of this case occurred in my 
office, Mr. Chairman, on the date of December 19, 2000. And 
that was when an assistant U.S. attorney named John Durham, who 
was in charge of the Justice Task Force in Boston that is 
investigating criminal activities of FBI agents, called me and 
said, Mr. Garo, I have some evidence for you. I'd like to come 
over to your office and see you. He delivered those documents 
that you have, Mr. Chairman, and it showed a shocking, shocking 
story that now we know the entire story that Mr. Barboza made 
up was untrue. When we saw that evidence, Mr. Chairman, it was 
shocking to me, and I just sat down looking at it.
    On January 18, 2001, Mr. Chairman, the Suffolk County 
district attorneys on its own motion made a motion to vacate 
the judgment and the sentence and requested a motion for new 
trial that was allowed. On January 30, 2001, Mr. Chairman, Mr. 
Salvati walked out of the courtroom a free man for the first 
time since October 25, 1967.
    Mr. Burton. Thank you, Mr. Garo.
    We will now go to questioning. We'll start--Mr. Shays, 
would you like to start?
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Shays. We will proceed under the 5-minute 
rule today, so every Member that wants to ask questions will be 
able to quickly.
    Mr. Shays. Mr. Salvati, I love your gentleness, and I love 
your wife.
    Mr. Salvati, has anyone in the government ever told you or 
your children that they're sorry for what happened to you?
    Mr. Salvati. No, they haven't.
    Mr. Shays. Do you think people knew all along that you were 
innocent?
    Mr. Salvati. A lot of people did, yes.
    Mr. Shays. Mr. Garo, why does this case mean so much to 
you? You told me a story about your mother. Real short, tell it 
to us.
    Mr. Garo. My mother was brought up as an orphan from age 3, 
and my father was born into abject poverty. When I passed the 
bar exam on November 9th, and when I was sworn in as an 
attorney on November 9, 1965, my mother and father took me to 
afternoon lunch that day. They were very proud, as I was, about 
the accomplishment. And my mother and father said to me that 
day, Congressman, that, look, now that you're a lawyer, you can 
go out and help people. Go help people. Don't do it for the 
money. Do it to go help them. The money will come, but don't do 
it just for the money. And I followed certain values I believe 
that my mother and father instilled in me.
    I had a one-man law office, and the only way that I would 
keep business was to have personalized service. My mother for 
years talked to Joe Salvati, and they became friends over the 
phone, and my mother knew all the evidence that we had and were 
trying to do for Joe Salvati. And my mother was very sickly 
toward the end of the 1980's, and shortly before she passed 
away, my mother said to me as follows: ``No one will represent 
Joe Salvati in this matter unless you stay with him. So I want 
you to promise me that you will stay with Joe Salvati until you 
walk him out of prison.''
    On March 20, 1997, with the wonderful help of the 
Massachusetts Department of Corrections, they allowed only two 
people to walk out of prison that day, and that was Joe Salvati 
and myself. After we left the prison and went to the parole 
officer that Joe had to go to, Joe and Marie, my father and 
myself all went to my mother's gravesite, and I placed roses on 
her grave, and I said, ``Mommy, I kept my promise.''
    Mr. Shays. Thank you for keeping your promise.
    Mrs. Salvati, I am amazed at your strength. I am amazed at 
the love you had for a man who was in prison for 30 years. I 
would love to know how you did it.
    Mrs. Salvati. You know how I did it. We were always a 
happy, loving couple, and I wouldn't have it any other way. My 
family values, my children, it was so important for me to keep 
it all together. You know, and when I went to visit him, like 
on the weekends, my children needed the hugs. They needed the 
kisses from their father. They needed all that stuff. So I 
tried to put it all together the best I could.
    I reevaluated myself, you know, and I put my goals and my 
objectives, and I feel like I've done the right thing in life. 
I've worked. I went on to be a program director of the Head 
Start Program, and, you know, you do what you have to do. And 
we always believed in his innocence, and it was just, you know, 
like I said in my opening remarks here, you know, it wasn't 
hard to do. In a way it wasn't, because we had the love of my 
husband. I had my family, and I was just a--I don't know. I was 
driven. It was something that I felt like I could never give 
up, and that's how I felt about it.
    And then, like, 10 years came, and we put in appeals, and 
then you get some--you know, get some good reports, and then 
you still have----
    Mr. Shays. You still kept hope alive?
    Mrs. Salvati. Yes, yes. Never gave up.
    Mr. Shays. I have other questions, but I won't get to them 
now.
    Mr. Salvati, I want to know about your first attorney. I 
want to know if you were under a jury trial. I want to know why 
you didn't win that case in the first time around, and I'll ask 
that later, but it's not now.
    Mr. Chairman, thank you.
    Mr. Burton. Did the gentleman yield his time or----
    Mr. Shays. I finished.
    Mr. Burton. Oh, you finished. OK.
    Mr. Kanjorski.
    Mr. Kanjorski. Thank you very much, Mr. Chairman.
    Mr. Garo, being a lawyer, you make me proud of the 
profession. That doesn't happen too often when you're sitting 
on this side of the aisle and dealing with----
    Mr. Garo. Thank you, Mr. Congressman.
    Mr. Kanjorski [continuing]. This profession in Washington.
    Let me ask you this, though. Looking at the statement of 
facts and the evidence, is this peculiar to the Boston area, or 
is it possible that this is occurring in other American cities 
and in other FBI offices across this country?
    Mr. Garo. That's a good question, Mr. Congressman, and I 
guess my best answer that I can give to that is this, that if 
you have a cookie cutter and it works one place, that it should 
be able to work a second place, a third place and the fourth 
place. I have a distinct feeling that this is not just a 
situation that happens only here in Boston. I think there are 
those and many around that would like us to believe that it was 
only happening in Boston, and when these actions and these 
events were allowed to happen by the Director of the FBI, I 
just don't believe it just happened in Boston. And I think that 
the good that can come out of this hearing and other hearings 
will be that maybe other people will come forward with similar 
situations and would have the courage to face up and say what 
they have to say.
    Mr. Kanjorski. Do we in the Congress have a process of 
oversight of the FBI and to look through these complaints that 
may have occurred across the country, or is this a unique 
situation?
    Mr. Garo. I think, Mr. Congressman, that if you people 
don't have this type of power, then who is investigating or 
watching over the investigators? Because there has to be some 
accountability, there has to be some checks and balances, and 
that's one of the reasons why we ask this honorable committee 
in all of your power and wisdom that you might be able to help 
us so that another family doesn't go through this again.
    Mr. Kanjorski. Mr. Garo, a lot of discussions are occurring 
in the country right now on the question of capital punishment. 
At this time the State of Massachusetts--or the Commonwealth of 
Massachusetts did have capital punishment----
    Mr. Garo. At that time, yes, Mr. Congressman.
    Mr. Kanjorski. If, in fact, Mr. Salvati had been sentenced 
to die in the electric chair or by lethal injection, 30 years 
he would have been executed; is that correct?
    Mr. Garo. That's correct.
    Mr. Kanjorski. So this is another very strong piece of 
evidence for us to reexamine the whole concept of capital 
punishment, particularly many cases of convictions of 
uncorroborated testimony.
    Mr. Garo. Absolutely. And you hit the nail right on the 
head, Mr. Congressman, when you're dealing with the 
uncorroborated testimony of a person who is more of a killer 
than anything else, because the FBI, Mr. Congressman, at that 
time made the determination that it was far more important for 
them to protect the integrity of the informant system than it 
was to see innocent people go to prison or to potentially die 
in the electric chair.
    Mr. Kanjorski. I'm aware of some of the investigations of 
organized crime that have occurred in the Northeast and the 
Philadelphia area, and I am aware of what I tend to believe is 
selective prosecution; that when you read the wiretap evidence 
or other material, there are a host of crimes against sometimes 
very involved and very impressive people that seem to be 
totally ignored, and the FBI and the Federal attorneys seem to 
narrow in and focus in on their hunt, if you will, or their 
bait. Do you find that in Boston to be the factor?
    Mr. Garo. I would say that whatever you can think of, 
you'll find it in Boston. If there's any type of corruption 
that hasn't come forward and it hasn't been prosecuted, when 
you still have the FBI in Boston, Mr. Congressman, still 
maintaining today that they did nothing wrong, and a superior 
court judge has already discharged the cases, and the district 
attorney's office refuses to retry them because of what they 
have done, then we're out of control.
    Mr. Kanjorski. Mr. Garo, I complimented you as a lawyer in 
the legal profession, but it's almost impossible for me to 
believe that Federal prosecutors and members of the Justice 
Department and the FBI were not aware of this miscarriage of 
justice. Has any disbarment or prosecution of any of the 
professionals involved in this case taken place?
    Mr. Garo. Mr. Congressman, I would say to you that other 
than certain investigations that are being conducted by John 
Durham, assistant U.S. attorney in Boston, especially assigned 
to the Justice Task Force, he is trying to get to the bottom of 
what FBI agents and what the statute of limitations problems 
are and the prosecution of those agents is really about.
    You will find, Mr. Congressman, if you check in the 
newspapers and in the records in Massachusetts, that we have 
been saying things about this case for decades, Mr. 
Congressman, and no one has bothered to ever investigate any 
part of this. There are State crimes, Mr. Congressman, that 
have been committed here, and there's been no grand juries held 
for accountability of what local law enforcement officials did. 
Let us hope, Mr. Congressman--and that's our hope here, Mr. 
Chairman, is that through your committee and through your 
hearings that maybe the truth will finally come out.
    And it's interesting that my pastor at my church has said 
it well: The truth will set them free, but no one wants to tell 
the truth.
    Mr. Kanjorski. Thank you, sir.
    Mr. Garo. Thank you, Mr. Congressman.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman and Mr. Garo.
    You described in your testimony--your written statement 
that your first big break, I think you called it, was the 
delivery to you of the Chelsea police report, and that was in 
1989 at the----
    Mr. Garo. That is correct, Mr. Congressman.
    Mr. LaTourette [continuing]. Commutation hearing. Have you 
had a chance to talk to the lawyer that represented Mr. Salvati 
at this trial?
    Mr. Garo. Let me just say about this very eminent counsel 
here, Mr. Balliro, who was a lawyer at that time and 
representing the case, that case was stacked, Mr. Congressman; 
that God could have come down and tried that case, and he would 
have never won that case. The chicanery that was involved with 
the evidence in this case, and the hiding of the evidence, and 
the wheeling and dealing behind the scenes, no one had an 
opportunity to win that case. And that's why, if I may just----
    Mr. LaTourette. Sure. Sure.
    Mr. Garo. That's why I have never and will never, ever say 
anything about legal counsel at that trial. They tried their 
damnedest, but they were up against an insurmountable wall.
    Mr. LaTourette. And by asking that question, I wasn't 
meaning to disparage the trial counsel.
    Mr. Garo. I understand.
    Mr. LaTourette. But my question was, do you feel 
comfortable and confident that this 3-page--it's exhibit 11 in 
the book in front of you, but do you feel comfortable and 
confident that no one in the defense had access to or----
    Mr. Garo. Absolutely not.
    Mr. LaTourette [continuing]. Knew of the existence of this 
report?
    [Exhibit 11 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.053
    
    [GRAPHIC] [TIFF OMITTED] T6507.054
    
    [GRAPHIC] [TIFF OMITTED] T6507.055
    
    Mr. Garo. Absolutely not. As much as the judicial opinions 
in the case have tried to place it in the hands, through 
unbelievable miscarriage of the facts in the case, no, it was 
never had.
    Mr. LaTourette. And just for the purposes of the record, 
the reason that the report, I think, written by a lieutenant in 
the Chelsea Police Department, was significant, on page 3 of 
the report, it mentioned confidential information as to who the 
murderers were eventually?
    Mr. Garo. That is correct. As a matter of fact, from the 
evidence that you have in your pamphlets, provided by chief 
legal counsel and the staff, you will see that the exact 
killers that were mentioned in the Chelsea police--hidden 
police report were the same as the killers that were mentioned 
on March 13, 1965 by Vincent Jimmy ``the Bear'' Flemmi to a 
prized informant of the FBI, who I say, Mr. Chairman, in my 
opinion, was his brother Steven Flemmi.
    Mr. LaTourette. OK. Did you have the opportunity to chat 
with the individual prosecuting authorities about this Chelsea 
Police Department report after it was discovered to you in 
1989?
    Mr. Garo. Yes, I did.
    Mr. LaTourette. And who was the prosecuting----
    Mr. Garo. The prosecutor in the case was an attorney Jack 
Zalkind.
    Mr. LaTourette. And can you relate to the committee what 
the substance of that conversation was?
    Mr. Garo. Surely. In fact, he has filed an affidavit that I 
have filed in court, and Mr. Zalkind said that he had never 
known that Chelsea police report ever existed as to whether or 
not there was an informant in there. He said if he had known 
that there was an informant there that night that did not see 
Mr. Salvati, that he would have done a more thorough 
investigation, and Mr. Salvati may never have been indicted.
    Now, what's interesting to note, Mr. Congressman, is that 
when I filed my motion for new trial in 1993, the District 
Attorney's Office of Suffolk County filed that affidavit by a 
Mr. McDonough, who was the legal assistant to Mr. Zalkind, who 
stated in his affidavit that that police report was in the 
files when he was there as a legal assistant to Mr. Zalkind. So 
what we have, Mr. Congressman, is we have prosecutors saying, I 
didn't have it, a legal assistant who said that it was there. I 
don't care who had it or what had it. If they said it was 
there, they didn't do anything with it, and you're going to 
have people die in the electric chair. My God. Don't you think 
you have a duty to go and investigate that? It's 
unconscionable, Mr. Congressman.
    Mr. LaTourette. Did you--it was written by a Lieutenant 
Thomas Evans. Did you ever have a chance to chat with him about 
when it was prepared or anything of that nature?
    Mr. Garo. No. Lieutenant Evans had passed away.
    Mr. LaTourette. Had he? OK.
    Mr. Garo. But what I did do, Mr. Congressman, and that's an 
excellent point, is that when I found out Lieutenant Evans had 
died, I then sent my investigators out to go find out if he had 
a partner. Lo and behold, I found he had a partner. I contacted 
their partner, and he said, sure, we worked on that together, 
and we filed it. As a matter of fact, we knew who the killers 
were that night. They had----
    Mr. LaTourette. Did he say who he had filed it with?
    Mr. Garo. Lieutenant Evans.
    Mr. LaTourette. OK. And the last question that I have for 
you, who is John Doyle?
    Mr. Garo. I don't think I'd have enough time probably to 
answer that question, but suffice it to say he was the liaison 
at the Suffolk County District Attorney's Office, Garrett 
Byrne, with the FBI at that time. And he was the head detective 
that would put together the cases on organized crime. That's 
who he was.
    Mr. LaTourette. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. Burton. Mr. Cummings, did you have a question?
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And, Mr. Garo, from one lawyer to another, I'm very glad 
that you do what you do and that you take your job as seriously 
as you do, and I wish more people had an opportunity to hear 
the testimony. And I understand you're just doing what you 
believe what you should be doing, and this is your job.
    Mr. Garo. Thank you, Mr. Congressman.
    Mr. Cummings. You know, I really wish that more people 
would have an opportunity to hear this testimony, because so 
often I think what happens is that when someone lands in prison 
and they declare their innocence, although they have come 
through the criminal justice system, there are some who believe 
that the criminal justice system in our country does not--I 
mean, there's some that believe that it's perfect. And one 
thing is very, very clear, and that is that one of the things 
that will get us as close to perfection as we can get is that 
if the people that we trust, such as FBI agents and others and 
judges, it is important that they do their job in an honest and 
truthful manner, because I think that's what leads to the trust 
of the public.
    And that leads me to my first question. You know, in 
reading your testimony, Mr. Garo, you seem to have kind words 
about John Durham, the prosecutor heading up the Justice 
Department's Task Force.
    Mr. Garo. I do.
    Mr. Cummings. Why is that, sir?
    Mr. Garo. He is the first prosecutor, in my opinion, that I 
have met in the entire investigation of this case for over 26 
years that had as his motive in this case to let the truth come 
out, and that it would have been very easy for him, Mr. 
Congressman, to have thrown away these documents, and that the 
FBI agents that were working for him found these documents, and 
they found them because they were misfiled in other files, Mr. 
Congressman, and they were in the Boston office. All of the 
regular files had already been destroyed at that time, Mr. 
Congressman. This was all done--Mr. Congressman, if you throw 
away the evidence, it can't come back to haunt you. The only 
problem is that it had been misfiled, and they spent hours and 
days and weeks and months poring over these documents to give 
me those documents.
    And that's why we say, Mr. Congressman, that we still have 
the greatest justice system in the world. And when you have a 
person like John Durham, and you have a person like Judge Mark 
Wolf in the Federal court who took on the investigation here of 
informants back in Boston, they're heroes. They're the ones who 
have fought the system, and they have let come out the evidence 
that we have. And it makes us feel good, because we don't paint 
all the FBI with the same brush, and we say we need them, but, 
darn, when you break the sacred oath of trust--when I represent 
defendants in court and it's a public official, the first thing 
that the prosecutor says is, because he was a public official 
and he broke his sacred trust, we throw the book at him. 
Conversely in this case, no book has been thrown at any of the 
Federal officials.
    Mr. Cummings. Do you think the book should be thrown at 
them?
    Mr. Garo. Absolutely. For those that are guilty, for those 
that took part in this, because how can anybody be so inhuman? 
Because we wanted, Mr. Chairman, you to see how much this 
affected this family.
    That's what people don't want you to see, Mr. Congressman, 
and that's why this is difficult for the three of us. We're not 
here for publicity. I don't practice criminal law. I'm not 
looking to get referral cases. But we're here--when we first 
got approached by Mr. Wilson, who I have the deepest respect 
for and his staff, both on the Democratic side and the 
Republican side, and the work and the hours that they have put 
into this, we knew that sooner or later this is important to 
say, and this has never been about money, power, prestige. 
Those that know me know that I'm not like that, but if we can 
help you out, we have pledged that we will be here for you at 
any time. I said that I would give and help Mr. Wilson, Mr. 
Yeager behind the scenes on anything that your staff wants, Mr. 
Chairman, and I'll be here for you all the time.
    Mr. Cummings. Mr. Garo, your client was facing the death 
penalty. Is that what you said?
    Mr. Garo. Yes, sir. That's true.
    Mr. Cummings. And, Mrs. Salvati, how did that affect you?
    Mrs. Salvati. I became numb. I just couldn't believe it 
that our lives could be so shattered with all this here, and, 
you know, it's devastating. It's just devastating. You get 
yourself in a state when the verdict came in, and I just--you 
know, I had a horrible night that night. Especially when the 
verdict came in, my children were my first priority. I went to 
get them from school, you know, because I didn't want them to 
hear nothing in the street. So I took them home, and I told 
them what had happened to, you know, Dad. We call him Dad. And 
he said--you know, I said, you know, you're going to hear a few 
things. You're going to read things in the paper. You know, 
families talk when they go home. You know how people are. So I 
tried to comfort them and tried to, you know, not tell them 
more than what I had to because they were little, you know, 
especially the young--the 4-year-old.
    And we got through that. Then the very next day, my husband 
had the chaplain call me, and he wanted to see me right away. 
So we needed that bonding between us to go through the sorrow, 
this heartache together. All I could think of him was the night 
before being shackled in jail. I had no concept of what jail 
was about or how anything was, and, you know, we needed each 
other, too, but you have to be there for each other, and we had 
that bonding with us all the time.
    Mr. Cummings. Mr. Chairman, just one quick statement. I 
just want to express to you and your husband, you know, 
something that Mr. Garo said. We do have an outstanding system 
of justice. It does fail. We have a lot of great people in our 
justice system, but I hope and I pray that God will give you 
the strength and the courage to continue on. You both have held 
up tremendously. I mean, a lot of people would not have held up 
under these circumstances, and I thank God for you and for your 
lives, and certainly you'll be in my prayers.
    Mrs. Salvati. Thank you.
    Mr. Salvati. Thank you.
    Mr. Burton. Thank you for your comments, Mr. Congressman.
    Before I yield to Mr. Barr, one of the things that I will 
ask our legal counsel and our staff to investigate is whether 
or not there were some other injustices done as well. I 
understand that Mr. Barboza testified in some other criminal 
trials, and people were sent to jail. I don't know if anybody 
was sent to death or not, but we're going to investigate that 
as well. And so what you're telling us here today is not going 
to just reflect on the injustice done to the Salvatis, but also 
we're going to look at other things as well.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Could the staff prepare exhibits 15, 8 and 7, please, 
beginning with 15.
    Counsel, when I first started learning about this case from 
counsel and from the chairman and from Mr. Shays, probably, as 
most people, I was skeptical. You know, it reads like a novel. 
And then as you get into it, you say, yeah, well, maybe this 
sort of stuff did happen, but certainly the head of the FBI 
didn't know about it. He would have stopped it. But the fact of 
the matter is that there appears to be documentation that 
indicates very clearly that the Director of the FBI, Mr. 
Hoover, knew exactly what was going on, and that's very, very 
disturbing as a former U.S. attorney, as a citizen. You don't 
have to be a former U.S. attorney or an attorney to be 
disturbed by that. It's disturbing deeply as a citizen.
    Document exhibit No. 15 is an airtel--this is back in the 
days before all the technology. We didn't have e-mails and so 
forth--dated March 19, 1965, which was, I think, about a week 
after the Deegan murder, and that document is to Director, FBI. 
In your knowledge, which is certainly extensive, my 
understanding is that Mr. Hoover kept very close tabs on what 
happened in the FBI.
    [Exhibits 15, 8 and 7 follow:]

    [GRAPHIC] [TIFF OMITTED] T6507.062
    
    [GRAPHIC] [TIFF OMITTED] T6507.063
    
    [GRAPHIC] [TIFF OMITTED] T6507.064
    
    [GRAPHIC] [TIFF OMITTED] T6507.047
    
    [GRAPHIC] [TIFF OMITTED] T6507.045
    
    [GRAPHIC] [TIFF OMITTED] T6507.046
    
    Mr. Garo. He was getting information on a weekly basis, Mr. 
Congressman, on exactly what was happening back in Boston, 
because Boston in the 1960's was going through a gang war, and 
there were approximately 50 to 60 people who got killed. And 
they weren't able to get any convictions on a lot of the 
murders, and he wanted to be on top of everything that was 
happening in the Boston area during that period of time. So he 
was being informed on a weekly basis. This is only one of the 
documents that was left as misfiled. Other documents that Mr. 
Durham believes has either been destroyed or may even be around 
in other places and have not surfaced yet.
    But there are documents, also, Mr. Congressman, that show 
that the Director knew exactly what was going on. What happened 
here, if I can, Mr. Congressman, that in March 1965--if I could 
do just a little chronology of this, in February 1965, Steven 
``the Rifleman'' Flemmi had been targeted as a top-echelon 
informant. On March 9, 1965, his brother was being targeted as 
an informant. On March 10----
    Mr. Barr. When you say targeted as an informant, you mean 
by the FBI?
    Mr. Garo. Yes. Absolutely.
    Then on March 10th, they received information that Flemmi 
and Barboza might be going to kill Teddy Deegan. On March 12th, 
Teddy Deegan was killed. On March 13th, Vincent Flemmi told the 
same informant that he and Joe Barboza killed Teddy Deegan the 
night before with three other guys, told them how it happened, 
how they were going to get in and do the B&E, how it happened, 
who was there, who did what. And they did a very sloppy job.
    On March 19th, all this information now is given to the 
Director of the FBI. Now what happens is--now you have to go 2-
1/2 years later, because in March, April or May 1967, Barboza 
becomes a witness for the Federal and State governments on 
various defendants that I've talked about previously.
    Now, when Barboza was willing to take down and give false 
and perjurious statements on first degree murder cases, and 
it's all uncorroborated testimony, now--in my opinion, what 
happens now is between March, April, May 1967 and October 25, 
1967, when the indictments came down as a result of Barboza's 
testimony on October 25th, the previous information just got in 
the way of the prosecution of these three cases. So now they 
let Barboza tell another story. No one is ever going to find 
out about these documents, because we're going to bury the 
documents and destroy them.
    Mr. Barr. In your view, are there sufficient checks and 
balances and access to information now that weren't available 
back in the 1960's----
    Mr. Garo. No.
    Mr. Barr [continuing]. So that you would have a confidence 
level that this sort of thing would not happen?
    Mr. Garo. No. I have no confidence right now that won't 
happen, because this has been happening in the 1960's, 1970's, 
1980's and the 1990's. It's occurring right up today, Mr. 
Congressman, because there's still a denial at the FBI in 
Boston that anything was wrong, they have done nothing wrong.
    Mr. Barr. But I don't mean just in this case, in other 
cases. I mean, we have additional safeguards that have been put 
in place, both statutorily as well as is in guidelines for the 
use of informants, as well as court decisions that have come 
down in the intervening decades. Do you have a confidence level 
that with all of those safeguards that we have in place now, 
that this sort of thing could not happen again?
    Mr. Garo. None whatsoever.
    Mr. Barr. Do you have some recommendations for us on 
specific steps that could be taken to help raise your comfort 
level?
    Mr. Garo. I think that should be done, Mr. Congressman, 
with the defense bar. When everybody makes guidelines 
determining what's going to happen within the FBI or the 
government, they go to government. They don't go to the 
criminal defense bar. I think that the criminal defense bar, as 
over here, are two of the finest criminal defense lawyers that 
there are in the country. I think that they ought to be sitting 
down around the country and determining what legislation is 
necessary. I don't practice criminal law anymore, Mr. 
Congressman, and--other than for the Joe Salvati case for all 
these years, so I'm not maybe the best person in the world to 
tell you how to do that, but I know that the Massachusetts 
Association of Criminal Defense Lawyers would make themselves 
very available to sit down and talk, either with you or the 
committee, to find what can be done with the legislation and 
checks and balances to make sure that something like this, Mr. 
Chairman, will never happen again.
    Mr. Barr. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Burton. It's really troubling to think that this has 
continued to go on. As I understand it, the assistant U.S. 
attorney up there, they're working on this right now to dig out 
all the dirt that they possibly can. Is that not correct?
    Mr. Garo. That is correct.
    Mr. Burton. OK. Thank you.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. It is not out of lack 
of respect that I keep leaving, and I apologize for that. Like 
Mr. Waxman, I have another Committee on Education that is 
marking up a bill.
    Mr. Garo. We understand, Mr. Congressman. Thank you.
    Mr. Tierney. I appreciate that.
    I would like to yield my time to Mr. Delahunt, who I know 
is prepared to go forward on that at this time, and so I would 
yield to Mr. Delahunt.
    Mr. Burton. Mr. Delahunt.
    Mr. Delahunt. Yes. I thank you. I thank my colleague from 
Massachusetts for yielding, and I thank the Chair again, for 
allowing us to participate.
    Mr. Garo, you stated that it is your belief that the 
informant alluded to, in the various reports that have come to 
your attention--the report by the FBI, by a Special Agent Paul 
Rico; a Chelsea Police Department report authored by a 
captain--or a Lieutenant Evans; and a Boston police report 
authored by one William Stewart; a State police report authored 
by a Lieutenant Cass--refer to the same individual when they 
reference an informant. Is that correct?
    Mr. Garo. No. No. I say that there are several different 
informants, Mr. Congressman. On the Chelsea police report, that 
is one informant. The informants on the FBI documents that were 
handed to me by Mr. Durham, that's a second informant, in my 
opinion, and in the documents that were provided on the others, 
I think that in the Detective Richard Cass's report from the 
State police, that he had further information that no one else 
had, and I say that there was another informant.
    Mr. Delahunt. OK. Let me go back then again. I know you 
mentioned the name of one Steven----
    Mr. Garo. Flemmi.
    Mr. Delahunt [continuing]. Flemmi. And it's your belief 
that he was the informant referred to in the report by Special 
Agent Paul Rico?
    Mr. Garo. That is my opinion.
    Mr. Delahunt. Are you aware of any documents or any reports 
whatsoever that exist that reveals the name of that informant?
    Mr. Garo. No, I do not. As a matter of fact, Mr. Durham in 
his investigation was unable to find that, because the 
informant documents had already been destroyed.
    Mr. Delahunt. Well, that answers my question, because I was 
going to request the Chair of this particular committee to 
inquire of the FBI to reveal the name of that particular 
informant.
    Mr. Garo. Mr. Congressman, though, I would say this to you, 
that I wish you would still make that request, because I have a 
feeling that there's still information----
    Mr. Delahunt. Well, then----
    Mr. Garo [continuing]. That's around.
    Mr. Delahunt [continuing]. I will make that request then.
    Mr. Garo. Because I think it's an excellent request.
    Mr. Delahunt. I yield to the Chair.
    Mr. Burton. If the gentleman will yield--and I thank you 
for yielding. We certainly will contact the head of the 
current--acting head of the FBI and whoever his successor is, 
and we'll ask for any documents pertaining to this 
investigation and what's going on in Boston.
    Mr. Garo. I think that's an excellent point.
    Mr. Delahunt. I just simply can't imagine any basis, in 
terms of what has gone on in Boston, pursuant to the 
proceedings presided over by Judge Wolf, why the name of that 
particular informant cannot be revealed, because it's simply my 
opinion that would remove some of the mystery surrounding the 
case against Mr. Salvati.
    We spoke, as I indicated earlier, last Saturday regarding 
the case of Mr. Salvati, and I took a particular interest in 
your explanation of the efforts that you made to seek a 
commutation on behalf of Mr. Salvati. Could you just repeat 
them once more for members of the panel? And maybe, Mr. Garo, 
you could start with explaining to members of the panel what 
the commutation process is and how one proceeds and its 
significance in the Commonwealth of Massachusetts. If you could 
start there, please.
    Mr. Garo. Certainly. Thank you, Mr. Congressman.
    In Massachusetts when you are convicted of murder in the 
first degree, you have no right to parole. The only way that 
you have the right to parole is if you receive a commutation, 
and a commutation is considered to be an extraordinary legal 
remedy. In order to get a commutation, three votes have to be 
taken, one by the parole board sitting as the advisory board of 
pardons, the second vote by the Governor of the Commonwealth of 
Massachusetts, and the third by the Governor's Council, not 
legal council, the Governor's Council, a duly elected body. The 
three of those votes have to be situated for you to get a 
commutation. It is not easy to obtain.
    So that I had filed for a commutation in 1986, but I was 
told by the then current chairman of the parole board that they 
weren't going to hold the hearing. In granting, Mr. Chairman, a 
commutation hearing in the Commonwealth of Massachusetts by a 
parole board, that means that they are very seriously 
contemplating giving you your commutation, because they don't 
do it to raise the hopes of an inmate that you're going to get 
out. They don't do that. So it's--Mr. Salvati's really to 
lose--95 percent for him to win it, 5 percent for him not to 
win it.
    The chairman of the parole board said to me in 1986 that he 
was contacted by the FBI that they were doing an investigation, 
and Salvati was part of it, and that he was going to get 
indicted.
    Mr. Delahunt. Will you just repeat that slowly? You were 
contacted by the chair--or the Massachusetts Parole Board was 
contacted by the FBI, indicating that they were conducting an 
investigation that implicated Mr. Salvati?
    Mr. Garo. That is correct, Mr. Congressman.
    Mr. Delahunt. Proceed, please. Do you know the name of the 
FBI agent?
    Mr. Garo. No, I do not. No, I do not.
    Mr. Delahunt. Could you identify the individual on the 
Massachusetts Parole Board who----
    Mr. Garo. Yes. Jim Curran, who is now currently a judge out 
in the western part of the State.
    Mr. Delahunt. And Mr. Curran was the Chair at the time?
    Mr. Garo. Yes, sir.
    Mr. Delahunt. And he indicated----
    Mr. Burton. If the gentleman will yield. We will contact 
the judge, and we will ask who the FBI agent was that informed 
him it was an ongoing investigation.
    Mr. Delahunt. I thank the Chair.
    Would you proceed, Mr. Garo?
    Mr. Garo. Thank you.
    I was very well known to the parole board, because I used 
to knock on their doors all the time for many years. As a 
matter of fact, when they heard I was in the building, they 
would say, hey, Vic, come on and have a cup of coffee with us, 
because I believe that I've always conducted myself as a 
gentleman. I believe I've always conducted my representation of 
Mr. Salvati always on another level.
    Mr. Delahunt. But what happened to that investigation, Mr. 
Garo----
    Mr. Garo. Nothing.
    Mr. Delahunt. Nothing?
    Mr. Garo. After 3 years----
    Mr. Delahunt. After 3 years nothing happened?
    Mr. Garo. That is correct.
    Mr. Delahunt. And what did you do then, Mr. Garo?
    Mr. Garo. I went to Mr. Curran and I said, they are trying 
to prevent you from ever having a hearing on Mr. Salvati.
    Mr. Delahunt. And what did Mr. Curran say to you?
    Mr. Garo. He said, you're right, we're going to hold a 
hearing.
    Mr. Delahunt. And did he hold a hearing?
    Mr. Garo. Yes, they did, sir.
    Mr. Delahunt. And what was the conclusion of that hearing?
    Mr. Garo. It was held in August 1989, and at a date that I 
still don't know, Mr. Congressman, they voted unanimously for 
the parole----
    Mr. Delahunt. Mr. Garo, how many members on the parole 
board?
    Mr. Garo. At that time I had five members that were present 
at----
    Mr. Delahunt. And each and every one of them voted in favor 
of commuting the first degree murder sentence of Mr. Salvati, 
and that was in 1989?
    Mr. Garo. I don't know the date they----
    Mr. Delahunt. You don't know----
    Mr. Garo. It's always been hidden from me because----
    Mr. Delahunt. It's been hidden from you?
    Mr. Garo. And I would explain----
    Mr. Delahunt. And I would hope that the Chair of this 
particular committee would request the documents from the 
Massachusetts Parole Board relative to when that unanimous vote 
was taken.
    Proceed, Mr. Garo.
    Mr. Garo. Thank you, Mr. Congressman. At that time when--I 
received a phone call from a member of the parole board who 
said to me, Mr. Garo, I have some good news and bad news for 
you. You have received the unanimous vote of the parole board, 
but the documents are not going to be placed on Governor 
Dukakis' desk; and I said, can you tell me why? He said, 
because of the Willy Horton scandal that had happened and other 
matters, that they really don't want to deal with your 
commutation. And that was a major blow to us, Mr. Congressman, 
because I then had to meet with my client Mr. Salvati and his 
wife and four children, because at that time----
    Mr. Delahunt. Are you aware of any communication between 
the then Governor Dukakis' office and the Chair of the parole 
board regarding concern about the Willy Horton case?
    Mr. Garo. Only what I was told by the parole board 
themselves.
    Mr. Delahunt. At some point in time, could you give the 
names of the----
    Mr. Garo. Yes. I will be glad to give that to you at the 
appropriate time, Mr. Chairman--I mean, Mr. Congressman.
    Mr. Delahunt. And what happened then, Mr. Garo? If I could 
indulge the Chair for the additional time.
    Mr. Garo. What happened then----
    Mr. Shays. I'm happy to yield the gentleman my 5 minutes.
    Mr. Burton. We'll give you time. Without objection, we'll--
--
    Mr. Delahunt. There's a particular line of questioning I 
want to pursue.
    Mr. Shays. You just stay right at it, sir.
    Mr. Delahunt. Mr. Garo, please.
    Mr. Garo. We had a very difficult decision, Mr. 
Congressman, as you well know, that if I filed a motion for new 
trial, I'd lose my unanimous vote of the parole board, and 
knowing the history here of the judicial handling of these 
cases, I told him, we're not going to overturn this case.
    Mr. Delahunt. So that's when you made the decision not to 
pursue the motion for the new trial?
    Mr. Garo. That is correct.
    Mr. Delahunt. Fine.
    Mr. Garo. We gave that up because we had a unanimous vote 
of the parole board, and we said, let's keep what we have. Why 
go into waters where we don't know what we're going to get?
    Mr. Delahunt. Right.
    Mr. Garo. 1992, then came Governor Weld. On January 20, 
1993, Mr. Salvati's commutation was turned down by Governor 
Weld.
    Mr. Delahunt. And what was the reason expressed by the then 
Governor for rejecting the unanimous recommendation of the 
parole board?
    Mr. Garo. My client's long and involved criminal record.
    Mr. Delahunt. Can you relate to us how long and involved 
Mr. Salvati's criminal record was?
    Mr. Garo. A conviction in 1956 for breaking and entering 
and possession of a precarious implement and a couple of 
traffic tickets.
    Mr. Delahunt. You referenced earlier that one Jack Zalkind 
was the prosecutor in the case against Mr. Salvati?
    Mr. Garo. That is correct.
    Mr. Delahunt. And during our conversation last Saturday, I 
requested any documents that you might have relative to this 
commutation process?
    Mr. Garo. That you did, sir.
    Mr. Delahunt. And I have a bunch of them here, and I will 
ask the Chair to submit them.
    And if I----
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.022
    
    [GRAPHIC] [TIFF OMITTED] T6507.023
    
    [GRAPHIC] [TIFF OMITTED] T6507.024
    
    [GRAPHIC] [TIFF OMITTED] T6507.025
    
    [GRAPHIC] [TIFF OMITTED] T6507.026
    
    [GRAPHIC] [TIFF OMITTED] T6507.027
    
    [GRAPHIC] [TIFF OMITTED] T6507.028
    
    [GRAPHIC] [TIFF OMITTED] T6507.029
    
    [GRAPHIC] [TIFF OMITTED] T6507.030
    
    [GRAPHIC] [TIFF OMITTED] T6507.031
    
    Mr. Delahunt. Back on March 12, 1979, Mr. Garo, did you 
receive a letter from Jack Zalkind?
    Mr. Garo. Yes, I did.
    Mr. Delahunt. And if you could read--if you have it before 
you, if you could read the second paragraph for the benefit of 
the committee, please.
    Mr. Garo. Surely. And this is a letter dated March 12, 
1979.
    To whom it may concern, Re Joseph Salvati.
    Second paragraph: During the investigation of this case, 
prior similar activities by Mr. Salvati never came to my 
attention, and it was my belief at that time that it was Mr. 
Salvati's first serious criminal involvement.
    Mr. Delahunt. Can you repeat that again for the benefit of 
the panel?
    Mr. Garo. It was my belief at that time that it was Mr. 
Salvati's first serious criminal involvement.
    Mr. Delahunt. And that was a letter dated to you on March 
12, 1979?
    Mr. Garo. That is correct, Mr. Congressman.
    Mr. Delahunt. And back in 1979, did you also receive the 
communication from a Frank Walsh?
    Mr. Garo. Yes, I did.
    Mr. Delahunt. Could you inform the panel who Mr. Walsh is?
    Mr. Garo. Mr. Walsh was a detective in the Boston Police 
Department assigned to organized crime activities and 
homicides, and he was involved in the investigation and arrest 
of Joseph Salvati.
    Mr. Delahunt. OK. Referring--if you have before you a 
letter from Mr. Walsh, dated March 15, 1979, and if you would 
refer to the third paragraph. Could you read it to the 
committee?
    Mr. Garo. Certainly, Mr. Congressman.
    During my investigations prior to his indictment, 
subsequent sentencing, unto this date I have never become aware 
that Mr. Salvati has been even remotely connected with firearms 
or physical violence.
    Mr. Delahunt. Thank you. And both of these letters--and 
they were subsequent letters similar in nature. Is that a fair 
statement----
    Mr. Garo. That's a very fair statement.
    Mr. Delahunt [continuing]. Recommended--from the prosecutor 
and the investigator, recommended a commutation for Mr. 
Salvati; is that accurate?
    Mr. Garo. That is very accurate.
    Mr. Delahunt. And yet we have the then Governor of 
Massachusetts in 1992 making a statement that it was because of 
his long criminal history. And I also remember reading 
something about his association with organized crime. Is that--
--
    Mr. Garo. That was part of it also, yes, Mr. Congressman. 
That was in 1993, January 20, 1993.
    That was January 20, 1993.
    Mr. Delahunt. Did you ever have any communication with 
anyone from Governor Weld's office?
    Mr. Garo. No, I was like persona non grata. No one would 
talk to me.
    Mr. Delahunt. Do you have any reason to believe that anyone 
from the Federal Bureau of Investigation would have 
communicated with the Governor's Office relative to the 
commutation of Mr. Salvati?
    Mr. Garo. May I, Mr. Congressman, do that with an old 
evidence trick that we were once taught in law school, that 
when it snows during the night and you wake up the next morning 
and you see footprints around the building--I can't tell you 
who the footprints belonged to, but I can tell you that the 
footprints are there. The footprints are all there that no 
doubt Governor Weld was talked to.
    Mr. Burton. Would the gentleman yield?
    Mr. Delahunt. Yes.
    Mr. Burton. I think this is important. I know Governor 
Weld. I think he relied on some staff people for this.
    Do you know who at the Governor's Office would have been 
contacted about this?
    Mr. Garo. I have no idea.
    Mr. Burton. You have no idea. We will contact former 
Governor Weld and ask him who gave him that information.
    Mr. Delahunt. I think that is very important. Because I 
presume, given what I have read in newspaper reports, that the 
FBI--and even today in--the Special Agent in Charge of the FBI 
office, one Charles Prouty, has indicated that, while they had 
this information, they did transmit it to local authorities. It 
would seem that, at least in terms of Mr. Prouty's statements, 
that it's his opinion that terminated any obligation that the 
FBI had relative to providing this exculpatory information 
about Mr. Salvati.
    But it's clearly different if the FBI took an active role 
and involvement in impeding the process of the commutation of 
Mr. Salvati, extending those years for maybe 10 or 15 years, 
that is clearly a significant injustice, to some 30 years. It's 
disgraceful, and I hope the Chair proceeds to examine that 
matter very closely.
    Mr. Garo. Mr. Chairman, may I make one comment? Maybe you 
are now beginning to get the flavor of what I was going through 
all of these years. Because no one was listening.
    Mr. Burton. Well, we're listening; and we will contact 
Governor Weld to find out what transpired.
    Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, I hope Mr. Delahunt continues to participate 
in these hearings that we will be having.
    I have a close friend named Austin McGuigan, who is the 
Chief State's Attorney in Connecticut; and 20 years ago he 
predicted to me that some day there would be a story about the 
corruption that existed in the FBI operation in New England. 
Part of what motivated him to say that is that he was 
questioning witnesses that were being--in dealing with the 
World Jai Alai, and they were being murdered. And he was 
puzzled by the fact that so many retired FBI agents were 
working for organized crime in Connecticut.
    I have such a difficult time understanding the early stages 
of this. Mr. Salvati, I need to ask you a question, too, and 
I'm sure I will understand it after you tell me, but, first, 
was this trial a jury trial or was it a trial by a judge?
    Mr. Salvati. Jury trial.
    Mr. Shays. Jury trial.
    Mr. Salvati. Yes.
    Mr. Shays. Was it pointed out that the witness had an 
incredible, despicable record? Was it made clear to the jury?
    Mr. Salvati. Yes, and they used that to say that you need 
the bad guy to catch the bad guy.
    Mr. Shays. OK. Didn't you have an alibi?
    Mr. Salvati. No, I did not.
    Mr. Shays. Explain that to me. You were somewhere.
    Mr. Salvati. I don't know where I was that night.
    Mr. Shays. That is because----
    Mr. Salvati. Because I wasn't there. Why do I need an 
alibi?
    Mr. Shays. What you don't have is what I have. I have a 
Franklin planner, and I can tell you where I was. Obviously, we 
didn't have Franklin planners then, and you didn't have one. 
But I'm smiling because I am so incredulous. Because there was 
such a timeframe between--it would be like asking me what I 
did----
    Mr. Garo. 2\1/2\ years earlier.
    Mr. Shays [continuing]. So I would have had to have 
identify now what I did 2\1/2\ years earlier on a particular 
day.
    Mr. Salvati. Right.
    Mr. Garo. And, Mr. Congressman, that's what is so 
unbelievable, is that Joe Salvati did not invent an alibi and 
did not create an alibi. He just said, look, I wasn't there. I 
don't know where I was, but I certainly wasn't there, because I 
had nothing to do with that situation.
    Mr. Shays. The problem for me is someone who--this is 
causing me----
    Mr. Burton. Would the gentleman yield?
    Mr. Shays. It makes me wonder about so many things I have 
read and heard.
    Mr. Burton. Let me ask you about one question that needs to 
be asked, but I hope it's not too uncomfortable for you. But in 
your first trial there were a number of defendants along with 
you, and others who were innocent of this crime as well as you, 
and we have been told that that the head of the Mafia up there 
paid the legal expenses for everybody that was involved in that 
case. Is that correct?
    Mr. Salvati. No, it's not.
    Mr. Burton. Who paid for your legal expenses?
    Mr. Salvati. I paid whatever I had saved, and they ran a 
benefit for me, and that was it.
    Mr. Burton. So you paid for your own legal expenses.
    Mr. Salvati. Yes.
    Mr. Burton. So the information I have was erroneous then.
    Mr. Shays.
    Mrs. Salvati. Excuse me. I can attest to that. Because we 
had a fundraising in the community, and the little money we had 
we put toward legal counsel for him, and he didn't have the 
best.
    Mr. Burton. OK, thank you very much.
    Mr. Shays.
    Mr. Shays. I would like to make mention to exhibit 11 which 
Mr. LaTourette had showed earlier. I'd love to have you turn to 
the third--and it's the third to the last paragraph.
    Just explain to me, first, Mr. Garo, what this exhibit is. 
It is my understanding this is the Police Department of 
Chelsea's statement by the officer, Lieutenant Thomas Evans, of 
what he saw when he investigated this crime.
    [Exhibit 11 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.053
    
    [GRAPHIC] [TIFF OMITTED] T6507.054
    
    [GRAPHIC] [TIFF OMITTED] T6507.055
    
    Mr. Garo. What this document represents, Mr. Congressman, 
is the investigation done by Lieutenant Evans and his partner 
Bill Moore on the night of the murder and the next day of the 
murder and what they observed and what they have found out from 
all different sources.
    Mr. Shays. And the Chelsea Police Department is a small 
police department.
    Mr. Garo. Not that small. A good size.
    Mr. Shays. How big is the town, the community of Chelsea?
    Mr. Garo. I can't tell you.
    Mr. Shays. Is it part of Boston?
    Mr. Garo. Yes, it is a suburb of Boston.
    Mr. Shays. But it is its own entity, its own community.
    Mr. Garo. Yes, it is.
    Mr. Shays. But this was the report of the officer who was 
investigating.
    Do I have your permission to proceed, Mr. Chairman.
    Mr. Burton. Yes.
    Mr. Shays. And this is a document that was not made 
available to the prosecutor or the defendant.
    Mr. Garo. That is correct.
    Mr. Shays. And this is a document that at one time people 
denied even existed?
    Mr. Garo. That is correct.
    Mr. Shays. What I don't understand, though, is Lieutenant 
Evans knew it existed because he wrote it.
    Mr. Garo. That is correct.
    Mr. Shays. So when Mr. Evans says in this paragraph--excuse 
me, it's not Mr. Evans, he's Lieutenant Evans--I received 
information from Captain Renfrew--did he work in the 
department?
    Mr. Garo. Yes, he did.
    Mr. Shays [continuing]. That an informant of his had 
contacted him and told him that French had received a telephone 
call at the Ebb Tide at 9 p.m. on March 12, 1965; and after a 
short conversation he left the cafe with the following men. And 
then it lists six people: Joseph Barboza, Ronald Cassesso, 
Vincent Flemmi, Francis Imbuglia, Romeo Martin and Nicky Femia, 
and a man by the name of Freddie, who is about 40 years old and 
said to be a ``strong man.'' They are said to have returned at 
11 p.m., and Martin was alleged to have said to French, we 
nailed him.
    Now this was actually in a police document.
    Mr. Garo. That is correct.
    Mr. Shays. What I don't understand is there is more than 
one person who is aware of this document.
    Mr. Garo. Correct.
    Mr. Shays. Who did you ask this document for and who denied 
it existed?
    Mr. Garo. Well, first of all, I obtained a copy of this 
document, Mr. Congressman, about 3 weeks before the beginning 
of the commutation hearing in August 1989.
    Mr. Shays. August 1989.
    Mr. Garo. I received it about 3 weeks before.
    Mr. Shays. Where did you receive it from?
    Mr. Garo. I would rather not disclose that, Congressman.
    Mr. Shays. Was it in the possession of the Chelsea Police 
Department.
    Mr. Garo. That's an interesting story, and if I could 
answer that, Mr. Congressman. When I had obtained a copy of 
this document, I used it on the commutation hearing of Mr. 
Salvati. And when Governor Weld denied the commutation back on 
January 20, 1993 because of his long criminal record, etc., I 
said I needed someone in the press to start helping me. And I 
found a wonderful ally who has done a wonderful job, Dan Rea, 
who is here today in chambers, and Dan has done wonderful 
investigative reporting in the case, also.
    When I showed him the report in March 1993, he then went 
out and did his own investigation also. He went to the Chelsea 
Police Department, and he said, do you have an old file on the 
Deegan murder case? And they said, I'll go look for one. Lo and 
behold, they came back with a folder. The first document he 
opens up is the original of this document. So that the original 
of this document was in a small file folder on the Deegan 
murder case.
    Mr. Shays. I thought you said they didn't have the 
document.
    Mr. Garo. That's what they said.
    Mr. Shays. They is what----
    Mr. Garo. If what you're being confused about--and I know 
you're not confused--is this: Are you saying the Chelsea Police 
Department conspired with the FBI in this case, the answer is 
yes. Do I think that the Boston Police Department conspired 
with the FBI office in this case? Yes, I do. Do I believe that 
certain police officers associated and did things with the FBI 
concerning this case? The answer is yes. Because for this 
document to come out, Congressman, then they would be coming 
out with information about informants.
    Mr. Shays. Why weren't you able to get the document when 
someone from the police was able to get the document? Explain 
that to me.
    Mr. Garo. No one ever looked at that time.
    You have to understand, Congressman, no one wanted to talk 
about this case.
    Mr. Shays. In other words, when you asked, they didn't even 
bother to look.
    Mr. Garo. When was that? I was not the trial counsel.
    Mr. Shays. Didn't you ask for this document earlier?
    Mr. Garo. No, no. I obtained a copy of it 3 weeks before my 
commutation hearing.
    Mr. Shays. I'm sorry. If I can just make sure. I am 
confused.
    Mr. Garo. I'm sorry. I'm confusing you.
    Mr. Shays. It's not your fault.
    I want to know this. You would have clearly gone to the 
Chelsea Police Department to ask for any record they had. You 
did that before, correct?
    Mr. Garo. There were no documents that were ever turned 
over to me from the Chelsea Police Department having anything 
to do with Salvati's case.
    Mr. Shays. And you did ask for it.
    Mr. Garo. The lawyers had asked for it. There were motions 
filed, and the request made. It would almost seem, Mr. 
Congressman, didn't it, that maybe somebody had been keeping 
that document hidden for a lot of years.
    Mr. Shays. I'm saying you didn't specifically ask for it. 
It didn't come into your possession, and you didn't feel you 
had to ask for it. You would have thought it had to have been 
given to you. And it just so happens that someone asked for 
this document, and they were handed it.
    Mr. Garo. What happened, Mr. Congressman, in reading the 
8,000 pages of transcript, you would come to find out that all 
the reports they had were in evidence. This was an additional 
document.
    Mr. Shays. I hear you. I hear you. This is something 
totally----
    Mr. Garo. That is correct--out of the blue. That is why I 
said, Mr. Congressman, the most important document that I ever 
received in the case, because this hidden Chelsea Police 
Department shows who the real killers were.
    Mr. Shays. What strikes me is that Lieutenant Evans didn't 
somehow feel compelled to come forward. But also Captain 
Renfrew, did you ever speak to him?
    Mr. Garo. Captain Renfrew would not speak to me.
    Mr. Shays. And he's living today.
    Mr. Garo. He died.
    Mr. Shays. And evidently Lieutenant Evans----
    Mr. Garo. He passed away.
    Mr. Shays. Well, I will say to all three of you that I 
rejoice in the fact that, Mr. Salvati, that you're out and, 
Mrs. Salvati, that you get to hug your husband without anyone 
watching. But I wonder now who else is like you, Mr. Salvati, 
who is still there, and maybe he doesn't have a lawyer like Mr. 
Garo, and I wonder how many people died in prison who were in 
your circumstance and were not able to celebrate their being 
out.
    Mr. Garo. More than a few, Congressman, more than a few.
    Mr. Shays. Thank you.
    Mr. Burton. Let me just say to my colleague we will, as far 
as we can--we can't cover every case that took place up in the 
Boston area, but any case involving Barboza and others we will 
try to get information, and if we find that there are similar 
circumstances we will look into them.
    Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman; and, Mr. Chairman, I 
want to thank you for holding this hearing. This is a 
critically important case. The revelations about the 
relationship between the Boston FBI agents and Boston area 
underworld figures are obviously are a matter of concern to us 
in Massachusetts but really to the entire country.
    To get back to what Congressman Shays has just indicated, 
this isn't just a question of what happened in this case or 
what happened in a series of cases but a culture in the FBI 
that may be taking place or have taken place not only in Boston 
but throughout the country.
    I want to go quickly to this 1993 report. You had indicated 
that WBZ's Dan Rea had a police report that was found in a file 
in 1993.
    Mr. Garo. Yes, Mr. Congressman.
    Mr. Meehan. Where had it been all these years?
    Mr. Garo. I don't know.
    Mr. Meehan. Does anybody know?
    Mr. Garo. You will probably have to ask somebody on the 
Chelsea Police Department, Mr. Congressman.
    Mr. Meehan. Well, Mr. Chairman, I want to thank you, 
Congressmen Frank and Delahunt, and I appreciate the fact that 
we can participate here.
    We had called for congressional hearings not because we 
wanted to cripple the FBI. We respect what the FBI does on a 
daily basis to protect people from violence and terrorism and 
fraud. But I think, at a minimum, we want to find out the 
truth. Because sunlight and accountability ultimately prevent a 
repeat of the mistakes that have severely tarnished the FBI 
here.
    We also want the truth to come out so that Mr. Salvati and 
others whose lives have been shattered at least can be heard. 
They deserve so much more than that, but, at a minimum, they 
deserve to be heard.
    Actually, I called for hearings as far back as the summer 
of 1998 when the relationship between the FBI agents and two 
particular Boston area gangsters was revealed. In general, this 
isn't a new story for us from Boston, but the revelations that 
have been leaking out over the 4 or 5 years with Judge Wolf's 
260-page opinion being, from my perspective, a watershed event 
in pulling back the curtains of decades of the incestuous 
relationship between the agents and the informants and the 
destructive consequences. I didn't know much or focus back in 
the summer of 1998.
    The most tragic part of this story, the most tragic thing 
of all is one that we hear today. It's hard to believe that 
this could happen in America. It is hard to believe that FBI 
agents could know of a murder in the making and not stop it 
from happening. It's hard to believe that FBI agents could know 
a man was innocent of a crime yet allow him to be jailed for 
what was to be life.
    We've heard about the process with the Governor--first, 
Governor Dukakis and then Governor Weld, and to allow him to be 
stripped from his family, his life, his liberty--and the FBI 
says they were forthcoming. They say they didn't conceal 
information indicating Mr. Salvati's innocence, and they didn't 
attempt to frame anybody. Well, there is plenty of dispute here 
over how the FBI handled the information it received in this 
case, the information exonerating Mr. Salvati.
    But one way or the other, I think that we deserve better 
than ``we didn't attempt to frame anyone.'' It is the FBI's job 
to protect us. Obviously, it failed miserably here.
    Ultimately, we can never undo the pain and suffering 
inflicted in this case. At least we can offer apologies. We can 
ensure that this doesn't happen again.
    One of the issues is the so-called guidelines that the 
Justice Department has reported. But I can't help but look back 
to early in the Ford administration, I think it was Attorney 
General Levi went through a process of guidelines at that time, 
but they didn't seem to have much in effect here. The 
guidelines didn't affect the culture of the FBI.
    I would add, Mr. Chairman, that at the time, the early 
1970's, it was a congressional hearing shedding light on that 
process of guidelines that resulted in getting the new 
guidelines and resulted in putting some guidelines that at 
least took into account--so that's why these hearings are so 
critical, Mr. Chairman.
    But I wonder if you have a perspective, Mr. Garo, as to how 
you change this culture. It is one thing to make guidelines and 
to have hearings and continue--I am happy to hear the chairman 
is going to continue this process, get information and get to 
the bottom of it. How do you change the culture, 
notwithstanding the attempt to have guidelines?
    Mr. Garo. I don't think you can just do it, build 
guidelines. I think there has to be some checks and balances 
that are in there.
    What I'd offered earlier, Mr. Congressman, is this, is that 
whenever guidelines or anything comes down of the government 
doing its own checks and balances, that never works. What 
happens is we have in Massachusettes a wonderful organization 
called the Massachusettes Association of Criminal Defense 
Lawyers; and it would seem to me, Mr. Congressman, that when 
and if this committee or if your committee in the future 
investigates further, that some of the more practicing 
attorneys--because I don't practice criminal law anymore, Mr. 
Congressman----
    Mr. Meehan. The case burned you out, huh?
    Mr. Garo [continuing]. And I'm not looking for more 
business like this.
    But Mr. Balliro is here. Mr. Bailey is here. They are 
wonderful criminal defense lawyers. Actually, they're the ones 
that should be part of any process in the future because that 
is where the tire meets the road. They're out there every day 
fighting the system. And we were told in law school that the 
system has to work for the very worst of us to work for the 
very best of us.
    Mr. Meehan. I was detained earlier. You think this case has 
been frustrating. I was in a meeting. We are trying to get 
campaign finance reform passed, and I am reminded of the 
frustrations trying to do that with a lot of the frustrations 
you have had.
    But I wanted to ask you, the Supreme Court in Brady v. 
Maryland, Rivero v. the United States, held the government had 
certain obligations to give exculpatory information to 
defendants in criminal cases; isn't that right?
    Mr. Garo. Absolutely.
    Mr. Meehan. Could you explain in general terms what that 
means?
    Mr. Garo. What it means in the general sense is the 
government is a human being. It doesn't just look to convict. 
It looks for justice.
    What they're looking for there shouldn't even have to be a 
rule of law like Brady. If there's a situation and you have 
evidence of a person as being innocent and you're going to put 
him to death in the electric chair, you would think that human 
rights and human decency--forgetting the law--would make the 
government want to comply with that. But, as we know, they 
didn't obey the law, they didn't obey their conscience. It is, 
the truth be damned, full blown speed ahead for convictions 
only.
    Mr. Meehan. In the Rivero case, the court stated 
specifically where the disclosure of an informer's identity or 
the content of his communication is relevant and helpful to the 
defense of an accused or is essential for a fair determination 
of a case, the information must be disclosed or the case must 
be dismissed. Now is that your understanding what the law was 
at the time of Mr. Salvati's trial?
    Mr. Garo. That was a 1959 Supreme Court of the United 
States' decision. I had used it successfully many times in the 
past. I don't have to tell Mr. Balliro or any of the good 
criminal defense lawyers that were involved in the Deegan 
murder case at the time. They knew all about those laws. That's 
the reason why, Mr. Congressman, it was withheld from them that 
there was informants.
    Because, under Rivero, the law is, if you make a demand 
from an informant during trial and you can show it will be 
relevant and helpful, you will get the name of the informant 95 
to 99 percent of the time. And if the government doesn't give 
it to you, the charges are dismissed.
    Can you imagine how the chicanery was going on in the 
Boston office of the FBI, the Suffolk County District 
Attorney's Office, the Boston Police Department, the Chelsea 
Police Department, the U.S. attorney's office? If anybody finds 
out that we have informants and we don't give the name of the 
informants, we're going to blow the cases. I think that's a 
pretty big incentive not to come forward with the fact that 
there were informants in this case.
    Mr. Meehan. So in this case the government failed to 
disclose this information to the defense because----
    Mr. Garo. It could have--since they would have never given 
away the names of informants, they would have had to dismiss 
the cases. I had done that myself about a year earlier in 1966. 
I understood the Rivero case very, very well because I used it 
many sucessful times.
    Mr. Meehan. So if the system had worked correctly in this 
case how should the government have handled the information 
received from the confidential informants?
    Mr. Garo. If they're looking for the truth and you don't 
want to put someone in prison or to die in the electric chair, 
you would think that the common decency is that--let me give 
them this evidence. But if I am bent only on convictions and I 
have an agenda that I don't want to share with anybody else, I 
am looking to hide all the good evidence, conjure and perjure 
and make up the bad evidence and let's go with the 
convictions--because, as has been stated, the criminal--the 
Witness Protection Program began with Joseph Barboza. I say it 
was a misnomer. I say it was the criminal protection program, 
and it wasn't the Witness Protection Program. When Joe Barboza 
went out to California under the Witness Protection Program, he 
killed three to five more people. He's in the Federal Witness 
Protection Program, and he is killing people in California.
    As a matter of fact, he goes to trial on a first degree 
murder case in 1971 and is still in the Witness Protection 
Program. And the head of the organized strike force and two FBI 
agents go out to California and help the defense of Barboza in 
his 44-day trial of a first degree murder case by saying he was 
a good guy and he helped us with crime back here.
    Mr. Bailey will be able to tell you more about that because 
he was going to be a witness out there, and that's what 
caused--it was said--Barboza to finally plead to second degree 
murder while in the Federal Witness Protection Program and get 
a sentence, I believe, that is 5 to life. And he has killed 
others, and no one wanted to investigate it. No one wanted to 
talk about it.
    Mr. Delahunt. Would the gentleman yield for a moment?
    Mr. Meehan. Sure.
    Mr. Delahunt. Mr. Garo, I'm aware of the fact that two FBI 
agents testified on behalf of Mr. Barboza in that capital case. 
Could you identify them for the record?
    Mr. Garo. H. Paul Rico and Dennis Condon.
    Mr. Delahunt. Thank you.
    Mr. Meehan. What's really repulsive about the behavior in 
this case is, before I got elected to Congress, I was a first 
assistant district attorney in Middlesex County up in 
Massachusetts. We take young lawyers and we take them into the 
office and train them, basically a training ground; and we 
teach the ethics of making sure that they balance the enormous 
power that the prosecutor has with making sure that the police 
are getting it right, making sure that they always maintain 
their responsibility, their integrity to disclose exculpatory 
information and to get it right. I know that's the way Mr. 
Delahunt's office operates, and to see that it can get this bad 
is just very very concerning.
    Again, Mr. Chairman, I look forward to participating with 
you further.
    Mr. Burton. I hope you gentleman will be able to be with us 
for the next panel. We have some interesting testimony coming 
there as well. Thank you.
    Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Garo, I want to go back to exhibit 11 just to clean up 
some stuff, if I can. Those of us that have been involved in 
prosecutions and law enforcement know that there are informants 
and there are informants. I think you were talking to Mr. 
Delahunt earlier about that fact, and I think you indicated 
that in the various reports you think there may have been up to 
three different informants supplying law enforcement with 
information concerning this homicide.
    Exhibit 11 to the layman is startling because it indicates 
very early on, even though it's not dated, very early on 
Lieutenant Evans had information from an informant as to who 
the murderers of Mr. Deegan were. My question is, given the 
fact that there are informants that are good informants and 
there are bad informants, did you ever discover who the 
informant was that supplied this information to the Chelsea 
Police Department back in 1965?
    Mr. Garo. No, the identity of that informant has not been 
made known yet.
    Mr. LaTourette. When I had the chance to talk to you before 
in my 5 minutes, I asked you who John Doyle was. It sort of 
brought a smile to your face, and you sort of indicated it was 
a long story, and you identified what his position was. But I 
want to spend the rest of my time, if I could, talking to you 
about what it is he did or didn't do in this case; and, 
specifically, the staff of this committee has indicated to me 
that after this document came to light that it may have been 
offered or brought to his attention. Is there such a story you 
can relate to us?
    Mr. Garo. Yes, there is; and I'll gladly share it with you. 
Dan Rea, who was the only voice that I had for this case from 
1993, had been talking to--we call him Commander Doyle, and he 
wanted to know from Doyle--he had a relationship with Mr. Doyle 
for many years, and Dan told him that he was getting involved 
in the case with me. And he says, why do you want to do that? 
That's a dead end case. Why don't you just forget about it and 
go on home? And Dan said, no, I think it's a story that I'm 
going to follow. He says, I think you're barking up the wrong 
tree. Dan at that time had then found the original of the 
police report in the Chelsea Police Department.
    Mr. LaTourette. Was there a public record law that was 
passed in Massachusetts when all of this took place?
    Mr. Garo. Yes. And at that time when Dan found it and he 
told me all about it and he was very surprised and I was 
shocked, and with that document what he did was he called up 
Commander Doyle. And he said to Commander Doyle--this is what 
has been relayed to me, now.
    Mr. LaTourette. Sure.
    Mr. Garo [continuing]. And the Commander said to him, what 
is it that you're bothering me about now? And he said, well, he 
said, that Chelsea police report. Yeah, there was no Chelsea 
police report. He said, yes, there is. As a matter of fact, I 
found the original Chelsea police report, and I have a copy of 
it. I would like to come over and show it to you and discuss it 
with you. I don't want to see you. Don't call me anymore. And 
that was the end of conversation.
    Mr. LaTourette. Was that in 1989?
    Mr. Garo. No, that happened in 1993.
    Mr. LaTourette. 1993. OK. But at that time you had a copy 
of it.
    Mr. Garo. I had a copy of it for 4 years.
    Mr. LaTourette. And your client had been in prison for over 
20 years.
    Mr. Garo. That is correct.
    Mr. LaTourette. And still an additional 4 years went by 
before he was released from prison.
    Mr. Garo. That is correct.
    Mr. LaTourette. Thank you very much. I don't have any other 
questions.
    Mr. Barr [presiding]. Ms. Holmes Norton, did you have some 
questions for the panel?
    Ms. Holmes Norton. No.
    Mr. Barr. Mr. Shays, do you have some additional questions?
    Mr. Shays. I do.
    Mr. Barr. The gentleman from Connecticut is recognized for 
5 minutes.
    Mr. Shays. Thank you. I have a few, yes, sir.
    I would like to go through this fairly quickly. I would 
like exhibit 11 to be put up. Exhibit 11 is the report of the 
Chelsea Police Department, Lieutenant Evans. There is a report 
of the city of Boston. And what's very interesting about it is 
this is a report of the murder of Teddy Deegan in Chelsea on 
March 12.
    It's dated March 14, and it says, ``From a reliable 
informant the following facts were obtained to the murder: 
Informant states that the following men''--and it goes through 
the list of men, and here it identifies Freddie as being 
Freddie Chiampi, and it goes on and on and on. But basically it 
confirms what was pretty much in the memo, the report from 
Thomas Evans. So they had an informant. The city of Boston had 
their informant.
    Now is this a document that you were provided years ago.
    [Exhibit 11 follows:]
    [GRAPHIC] [TIFF OMITTED] T6507.053
    
    [GRAPHIC] [TIFF OMITTED] T6507.054
    
    [GRAPHIC] [TIFF OMITTED] T6507.055
    
    Mr. Garo. I have never seen that document I think until Mr. 
Wilson showed it to me.
    Mr. Shays. So even as we proceed in this case this is a 
document, and--is there a name identified, Mr. Wilson, with 
this document? Other than the city of Boston, we don't know who 
it is. This is December 12.
    Mr. Wilson. If I could, this was a document that was 
provided to us by the FBI on Friday night of last week.
    Mr. Shays. So the FBI had this document, and we have been 
provided it, and you have got it.
    Then if you could look at exhibit 13. So we have the 
Chelsea Police Department and the Boston Police Department; 
and, Mr. Salvati, your name doesn't show up in this--in either 
one. And before--they knew it a few days before your trial, 
they knew it a few days after the murder that they had these 
informants.
    Now this one is from the Department of Public Safety. Is 
that the State police?
    [Exhibit 13 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.058
    
    [GRAPHIC] [TIFF OMITTED] T6507.059
    
    [GRAPHIC] [TIFF OMITTED] T6507.060
    
    Mr. Garo. State police.
    Mr. Shays. And this is dated March 15. The murder 
occurred----
    Mr. Garo. March 12.
    Mr. Shays. So this is a pretty fresh document. It is not 
something they discovered a few years later.
    I am looking at No. 9; and it says, on the second page, 
``During the evening of Friday, March 12, French was at the Ebb 
Tide''--and it goes on, and it basically mentions the same 
name, and really what--in this case, they seem to have gotten 
the report from the Chelsea Police Department. But the point is 
there is someone in the State police department that also was 
aware of the Chelsea report, because they mirror it almost 
perfectly.
    Mr. Garo. Absolutely.
    Mr. Shays. This is a document you got when?
    Mr. Garo. This is a document that I received when the 
Suffolk County District Attorney's Office in October 1993 filed 
a brief in opposition to my motion for a new trial.
    Mr. Shays. So just to reiterate, that was in 1993?
    Mr. Garo. 1993.
    Mr. Shays. But the report by Lieutenant Thomas Evans, 
Chelsea Police Department, wasn't dated, but it appears to be 
fairly current but--so we have the Chelsea Police Department, 
we can make an assumption it was done shortly after, if not 
right after----
    Mr. Garo. The partner said that, Bill Moore said that.
    Mr. Shays. And then we have the Boston Police Department 
talking about what informants it had, and then we have the 
Massachusettes Police Department--excuse me, State police on 
our document 13. And there it was dated March 15.
    So, just a few days afterwards, this was made available to 
not just one person or two people, not just one department, but 
you had three different departments, two communities, plus the 
State police.
    Mr. Garo. What you are having here, Congressman, that we 
never knew is that there were parallel investigations going on 
in the Deegan murder case shortly after it happened within 
March 12th to 15th, and none of us knew about this Cass report 
of the State police because in it they talk about a different 
motive.
    If you were to look on page 3 of the Cass report, it says, 
on No. 11 at the top of the page, ``Further information was 
received that about 3 weeks prior Deegan had pulled a gun on 
Barboza, aka Baron, at the Ebb Tide and forced him to back down 
and that this was the cause of Deegan's death.''
    Now Barboza had said that the motive for this was to get 
$7,500 from Peter Limone to kill Deegan. The State police at 
that time had another informant that was giving them 
information as to the real motive that Deegan was killed, and 
they sat on it.
    Mr. Shays. But I would like to think that there is a fail-
safe system that we have in, that somebody is going to step 
forward. It would seem to me that someone would want to think 
that someone else might show up and reveal what happened and 
then be made to look bad. So your concept of the conspiracy 
becomes almost inevitable. It seems like you have no other way 
to come to any conclusion.
    Mr. Garo. That is correct, Congressman; and let me say 
this. You know, this is not easy for me to come here before 
Congress and to belittle the enforcement of the laws in the 
Commonwealth of Massachusettes. But if things are going to 
change you have to first find out what the evidence really was 
and to say how do we prevent this from ever happening.
    Because it looks like, Congressman, you have hit the nail 
right on the head. Because what you're saying, there is a 
Chelsea police report, there is a State police report, there is 
a Boston Police Department report and god knows how many other 
reports that have been hidden or destroyed over the years that 
all say the same thing. Joe Salvati was innocent. He was never 
mentioned. You people knew who it was, and you all sat back and 
were happy enough that Joe Salvati could die in the electric 
chair. My God, what are we coming to?
    Mr. Shays. Thank you.
    Mr. Barr. All Members having concluded their questioning, 
the Chair now recognizes the counsel for 30 minutes.
    Mr. Wilson. I won't take the full 30 minutes.
    First of all, Mr. and Mrs. Salvati, thank you for being 
here and thank you for extending courtesies to myself and my 
colleagues when we have talked to you. It has meant a lot to us 
that you have spoken with us and spoken with us freely. You 
have made our jobs a lot easier by being willing to cooperate 
with us, and we appreciate that. It's something that we don't 
always get in this line of work, and we really do appreciate 
what you have done for us.
    I will just take a few minutes right now, because there are 
some documents we should work through fairly quickly. Because 
we have submitted documents for the record and because there is 
a transcript of this, I want to get a few things down so we all 
understand what was going on right at the time of the murder, 
and I want to explain some of the initial documents that we 
have put in the record.
    If you could please put up exhibit No. 7 on the screen. 
Exhibit No. 7 is described as an Airtel to the Director of the 
FBI. It's dated March 10, 1965. That would be 2 days before 
Teddy Deegan was murdered.
    On the second page of the exhibit which you have in your 
book, in the first full paragraph, it says, ``According to 
Patriarca, another reason that Flemmi came to Providence to 
contact him was to get the OK to kill Teddy Deegan of Boston 
who was with''--and there is a redacted name, and then it goes 
on. It says, ``It was not clear to the informant whether he 
received permission to kill Deegan.''
    Now this is 2 days before Deegan was killed, and the 
document we have indicates that the FBI was in possession of 
information that Deegan was to be killed. Mr. Garo, is it fair 
to say you did not know about this document until December 
2000?
    [Exhibit 7 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.045
    
    [GRAPHIC] [TIFF OMITTED] T6507.046
    
    Mr. Garo. December 19, the year 2000. That is correct, Mr. 
Wilson.
    Mr. Wilson. Now, the next document--if we could go to 
exhibit 8, please. Exhibit 8 is also titled Boston's Airtel to 
Director and SACS--that's special agent in charge of the 
offices in Albany, Buffalo and Miami. So this is a document 
that was disseminated not only to the Director of the FBI but 
to the head of offices to Albany, Buffalo and Miami. The date 
is March 12, 1965. That's the date Teddy Deegan was murdered.
    We don't know when this was tranmitted, but presumably, 
because Mr. Deegan was murdered late at night, this was the 
document that was transmitted before the Deegan murder on the 
same day of the murder. It says in the third paragraph, Flemmi 
stated that Deegan is an arrogant nasty sneak and should be 
killed.
    So this is the second important document on the day of the 
murder in the FBI's possession.
    Now, again, Mr. Garo, again you did not know about this 
information until----
    [Exhibit 8 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.047
    
    Mr. Garo. December 19 the year 2000.
    Mr. Wilson. If we could move to exhibit 15, please.
    Exhibit 15 is a memorandum to the Director of the FBI from 
the man in charge of the Boston FBI office. It's dated March 
19, 1965, and this is the document that Congressman Barr was 
referring to earlier.
    It states,

    The following are the developments during the current week:
    On 3/12/65, EDWARD ``TEDDY'' DEEGAN was found killed in an 
alleyway in Chelsea, Mass. in gangland fashion.
    Informants report that RONALD CASESSA, ROMEO MARTIN, 
VINCENT JAMES FLEMMI, and JOSEPH BARBOZA, prominent local 
hoodlums, were responsible for the killing.''

    Now this is another one of the documents that was released 
in December 2000, is that correct?
    [Exhibit 15 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.062
    
    [GRAPHIC] [TIFF OMITTED] T6507.063
    
    [GRAPHIC] [TIFF OMITTED] T6507.064
    
    Mr. Garo. That is correct, Mr. Wilson.
    Mr. Barr. Excuse me, if I could--this document says, the 
following are the developments during the current week. Were 
there weekly updates that were being furnished?
    Mr. Wilson. It's our understanding from the documents that 
there were weekly updates that were going to the Director of 
the FBI. They were not voluminous. They were the highlights of 
what was happening, and we have other documents of this sort.
    Mr. Barr. Thank you.
    The gentleman from Connecticut.
    Mr. Shays. So we have Chelsea, and we have the Boston 
Police Department, and we have the State police. This is from 
the FBI, basically saying the same thing that were in the other 
three documents.
    Mr. Wilson. Yes. Although these are different in that these 
documents actually talk about the Deegan murder before it 
occurred. They actually had information that the Deegan murder 
was to occur.
    The one thing I can say, having reviewed all the documents 
produced to us and we received, we made a document request for 
all documents related to the murders of Teddy Deegan and 
anything related to Teddy Deegan, and we got about a linear 
foot of documents from the FBI last Friday night. That would 
probably be 1,000 pages of documents. And in those 1,000 pages 
of documents there was nothing contemporaneous that mentioned 
Mr. Salvati's name, nothing. The other people were described in 
the different reports and seem to be accurately described.
    Mr. Shays. Just one last question. When I see this blacked-
out area, what is that? What did they black out?
    Mr. Wilson. There are a number of conventions that the FBI 
used when they redacted documents. The most consistent 
redactions go to the names of the informants. The FBI never 
shared the names of informants or information about informants 
with anyone, including the Attorney General.
    Mr. Shays. Is it possible they blocked out a signature of 
someone who made notes that they read it or anything like that?
    Mr. Wilson. This we just don't know.
    Mr. Shays. I would like to know if we have the ability to 
have counsel go to the FBI and see what was redacted. It would 
be amazing. We can only speculate. Sometimes when people read 
documents they check them off and put their initials next to 
them and so on.
    Mr. Wilson. We have gone through three documents, one 
before the Deegan murder, one the day of the Deegan murder, one 
7 days after the Deegan murder.
    Now I would like to turn, if we could, to exhibit No. 24.
    Now bear in mind that all the documents we've seen identify 
Vincent Flemmi as a participant in the Deegan murder, and these 
are the documents that we've just put up, the one before the 
murder where Vincent Flemmi went and asked permission to kill 
Deegan and afterwords where he was identified as in fact a 
person who participated in the Deegan murder.
    Exhibit 24 is a write-up of an interview of Joseph Barboza. 
The interview took place on March 8, 1967. It was conducted by 
Dennis M. Condon and H. Paul Rico.
    The important point that I think we need for the record 
here, that on the second page of this exhibit there is a 
section that was redacted so we don't know what it says, but 
then the one bit that's left in says, Baron--Baron is another 
name for Joseph Barboza--Baron knows what has happened in 
practically every murder that has been committed in this area. 
He said he would never provide information that would allow 
James Vincent Flemmi to fry but that he will consider 
furnishing information on these murders.
    Now, the easy question we're asking, Mr. Garo, is, did you 
know anything about this statement ever until----
    [Exhibit 24 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.091
    
    [GRAPHIC] [TIFF OMITTED] T6507.092
    
    Mr. Garo. Never.
    Mr. Wilson. When did you first see this statement?
    Mr. Garo. I don't recall.
    Mr. Wilson. Now, one thing we know from reviewing the 
document was that in 1965 when Mr. Deegan was murdered Vincent 
Flemmi was an FBI informant.
    Mr. Garo. That's correct.
    Mr. Wilson. His brother Steven was also an FBI informant.
    Mr. Garo. That is correct.
    Mr. Wilson. If you could provide an explanation to us in 
the context of all the things we have heard today, what this 
means, and specifically Mr. Barboza has told two FBI agents in 
1967--that's before the Deegan trial, correct, the Deegan 
murder prosecution? Barboza has told two FBI agents that he 
will never provide information that would allow Vincent Flemmi 
to fry. Is it fair to say that all of the evidence that was in 
the possession of prosecutions at the time or investigators at 
the time indicated that Vincent Flemmi was at the crime scene?
    Mr. Garo. From the very beginning when the Chelsea Police 
Department, Mr. Wilson, investigated the case that night with 
the information--if you remember me telling you that there was 
a number 404 on a license plate that had been turned over. And 
from the statements by Captain Kozlowski that he had come upon 
the scene and that he had seen the red car and that it had been 
a registration plate 404, and from the informants' statement 
that they had left the Ebb Tide that night and mentioned the 
people, the Chelsea Police Department from that very night knew 
who the killers were. They had a good notion as to who the 
killers were.
    Mr. Wilson. And there was eyewitness identification--or at 
least eyewitness identification of a bald man.
    Mr. Garo. Absolutely. That is why the ridiculous story 
about Joe Salvati--about him having to wear a wig to make him 
look bald is because Vincent Flemmi was bald. Isn't it 
interesting that Barboza would give the story to have Joe 
Salvati look like his partner? Doesn't that make a lot of 
sense?
    Mr. Wilson. I will finish here, and I will ask for your 
opinion on this.
    Mr. Garo. Surely.
    Mr. Wilson. What I would like to know is that, in your 
opinion, do you think it was fair or appropriate for the FBI to 
put a witness on the stand in a murder trial to testify when he 
had told them in confidence that he would never provide 
information about somebody who they had information had been at 
the crime and had committed the crime?
    Mr. Garo. In my opening statement you heard what I said, 
the truth be damned. This was never a search for the truth, Mr. 
Wilson. It has always been a search only for convictions and to 
help the propaganda of the FBI during that period of time to 
show that it was the ultimate crime-fighting force in the 
United States and in the world. And in order to keep that up 
they have concocted and perjured testimony to show that, what 
they were, that they were the FBI.
    Mr. Wilson. Thank you very much, Mr. Garo. And again, Mr. 
and Mrs. Salvati, for all the courtesies you have extended to 
us, thank you very much.
    Mr. Garo. Mr. Acting Chairman, may I make a statement at 
this time?
    Mr. Barr. Yes, sir, Mr. Garo.
    Mr. Garo. Thank you. What I'd like to say is this, that I 
wanted to thank everybody that's here. I'd like to thank the 
chairman, Mr. Burton. I'd like to thank the Congressmen who 
have gone out of their way to do an awful lot of work in this 
case.
    Some time ago, I met Mr. James Wilson. He calls me up on 
the phone and said, Victor, I would like to talk to you. And I 
said sure. When he told me about the Deegan murder case, I 
said, I have been known to talk for a few minutes about that 
case; and I met his staff, Mr. Bowman and Mr. Schumann.
    Then Mike Yeager from the Democratic side called me up, Mr. 
Rapallo, and I have never seen a group of people work so hard 
and so diligently for any type of organization in my life time. 
The dedication that they have shown here in putting together a 
very, very difficult story--folks, it is a very difficult 
story. I guess maybe I am said to be the master of the facts 
because I've been around it so long. But just to have people on 
your staff knowing that when they do their research they have 
done a damn good job, I am proud to be associated and to know 
them. And I say this in front of this committee and, Mr. 
Wilson, especially to you, thank you so much. We're here for 
you whenever you need us. We thank you for giving the attention 
to this case that it really needs.
    Congressman Delahunt, thank you so much for the kind 
statements. Thank you for coming to my office for the muffins 
we enjoyed for over 5 hours.
    And the final statement that I would like to make is this, 
there is a country for the people. It is a country where we 
have as our most prized possession freedom. It is an awesome 
responsibility to make sure that freedom stays where it 
belongs, with those that were innocent. The job that you are 
doing is God's work.
    Because here you have seen in actuality pain, emotion and 
feelings. When you were reading the documents, they were only 
pages. I have lived with these people 26 years. And I say to 
you that a gentleman and a lady and four good young kids, I 
knew them then. It isn't right that their lives were taken away 
from them and stolen from them. So we thank you for giving us 
the opportunity here today to speak to our case. We thank you 
so much, and God bless all of you.
    Mr. Barr. Thank you, Mr. Garo, Mr. Salvati, Mrs. Salvati. 
Thank you very much for being here today. We know it has been 
very difficult, and we look forward to being in further contact 
with you. I know I speak for the entire committee, those that 
are here and those that could not be with us, in wishing you 
godspeed.
    Mr. Shays. I wonder if either one of them wanted to make a 
closing comment. This may be the last time you are before this 
committee.
    Mr. Garo. Say that once more.
    Mr. Shays. If either one wants to make a closing statement.
    Mr. Garo. You mean Mr. or Mrs. Salvati.
    Mr. Salvati. My family and I would like to thank you for 
giving the opportunity to tell our story. I get very emotional 
when I speak about my family, but that's the way I am. Again, 
thank you very much.
    Mr. Shays. Thank you.
    Mrs. Salvati. To add to that, my husband speaks from his 
heart. That's the kind of people we are. Thank you for the 
opportunity at least to hear the story, and I know all good 
would come out of this here. OK. Thank you.
    Mr. Barr. Your faith is inspiring. Mr. Garo, we can't thank 
you all enough for what you have done. Thank you very much.
    Mr. Burton [presiding]. I don't know if anybody needs about 
a 5-minute break. We're ready for your next panel. Mr. Bailey, 
are you ready to go or do you need to take a break?
    Mr. Bailey. I am ready.
    Mr. Burton. We'll bring the next panel up. It's F. Lee 
Bailey and Joe Balliro.
    Would you both please stand.
    [Witnesses sworn.]
    Mr. Burton. I think we'll start with you, Mr. Bailey; and 
if you have an opening statement we will be glad to hear you 
say it.

   STATEMENTS OF F. LEE BAILEY, ESQUIRE, ATTORNEY FOR JOSEPH 
BARBOZA; AND JOSEPH BALLIRO, SR., ESQUIRE, ATTORNEY FOR VINCENT 
                    FLEMMI AND HENRY TAMELEO

    Mr. Bailey. I do not have a prepared opening statement. Mr. 
Wilson suggested that a quick recap might help the committee.
    I was admitted to practice in Massachusetts in 1960, have 
been trying cases in the military from 1954 and defended Joe 
Barboza on an unrelated crime in 1965, the year of the Deegan 
murder.
    Later, I was contacted by a contractor named Frank Davis 
that said Barboza wanted to recant his testimony both in the 
Federal case against Cassesso, Imbuglia and Raymond Patriarca 
and in the Deegan murder case. He was afraid that he would go 
away for life for perjury in a capital case because that is the 
punishment in Massachusetts. But he had, surprisingly, been 
acquitted--surprising to him at least--in 1965 and thought that 
I might have some magic scheme that would enable him to 
vindicate the victims of his perjury and at the same time leave 
him with a whole skin.
    I flew down to New Bedford by arrangement and was picked up 
by someone and went to a two-story wood frame home where I was 
confronted with more machine guns than I ever saw in military 
service. I spoke with Mr. Barboza and essentially learned that 
he now wanted to say what we in Boston had always known. That 
although Cassesso and French were in fact involved in the 
Deegan murder with him and Vincent Flemmi, that Tameleo and Mr. 
Salvati and Peter Limone and Louie Greco had nothing to do with 
it whatsoever; and Greco, in fact, was in Florida when the 
murder occurred.
    And he wanted to say that his story about Patriarca, 
Tameleo and Cassesso was at least, in large measure, 
fabricated, and I asked him if he had any help in putting these 
false stories together, and he told me that he had quite a bit 
of help that came from two agents in the FBI. I did not name 
them in my affidavit, but the agents he named to me were Paul 
Rico, then known as ``the Spaniard'' in Boston, and Dennis 
Condon who has been the subject with Mr. Rico of some fairly 
fiery testimony in the proceedings before Judge Wolf, where 
Stevie Flemmi, the brother of Vincent Flemmi, is defended by my 
colleague, Ken Fishman on a court appointment.
    This, I believe, has been the genesis of smoking out most 
of this dirt from the FBI files, because some of them have 
testified extensively, and I think some of the questions you 
have may be answered in that record; for instance, who was the 
informant. You were asking a while ago--there are papers here 
that show and that it has been independently shown that it was 
Stevie Flemmi who told the FBI.
    One of the things that puzzled me was how Barboza's 
testimony was able to switch. Flemmi, who had been seen in the 
back seat by a Chelsea police officer who couldn't identify him 
but knew he had a bald spot, ``the Bear,'' Jimmy Flemmi, was a 
person about 5 foot 8\1/2\ inches tall, very burly and strong. 
He had a bald spot in his crown, which was prominent and 
everybody knew about it. And he said that in order to fit to 
those facts, because no one knew when that police report was 
going to come up, that he had to put someone else there since 
Flemmi was his partner and he wasn't going to rat him out, as 
he put it, and that he didn't like Salvati anyway, because 
Salvati had been rude to one of his shylock collectors and 
Salvati was about the right size. So he made up a story, with 
encouragement, that a wig had been obtained that simulated a 
bald spot, because Joe Salvati had and he knew he still has a 
full head of hair. That struck me as highly corroborative of 
what Barboza was saying.
    However, I have long been an advocate of protecting one's 
self against chronic liars. He certainly was one, had been one 
all his life, and the condition I had made to the man paying 
the fee, Frank Davis of HiLo Construction, was that I wasn't 
going to go forward with the case unless Barboza would agree to 
take a polygraph, because recanting witnesses are never looked 
on with favor, but buttressing his testimony would at least 
make me more comfortable before starting to name names.
    While that program was in progress, Barboza managed to get 
himself caught with a weapon in his car. He was clamped in 
jail, violated on probation, but did not give up his effort. I 
arranged for Charles H. Zimmerman, then the probable dean of 
all polygraph examiners in the United States, certainly in 
Massachusetts, much revered by the courts in years when we used 
polygraph, to test Barboza on the truthfulness of his statement 
and whether he was being paid any money under the table by 
anyone connected with the case, innocent or guilty. That test 
was scheduled for, I believe, July 30, 1970. I saw Barboza in 
the prison, and although I cautioned him, he would recklessly 
describe his crimes, and he had no hesitation at all about 
describing the most cold-blooded, ruthless killings--he claimed 
more than 20, largely in the McLain-McLaughlin gang wars of the 
fifties--as if he were eating a piece of apple pie. And cell 
mates were within earshot.
    Mr. Harrington--who I hasten to interject is one of the 
best Federal judges on the bench, he was then a strike force 
lawyer--and an assistant named Barns went to Walpole, and 
somehow the polygraph test went away. We later learned, of 
course, that the FBI said, fire Bailey and don't take the 
polygraph test or you're here forever. And I'm quite satisfied 
that happened, since I was terminated.
    Unfortunately for Mr. Barboza, one of the killings that he 
boasted about in Santa Rosa, CA was within earshot of another 
inmate, who then went to the authorities, caused Barboza to be 
indicted in Santa Rosa, and I was summoned as a witness. And I 
said, I have, I'm afraid, attorney-client privilege. The judge 
out there ruled no; Barboza knew there were people not within 
the umbrella of the attorney-client privilege present when he 
talked about this, and you can be called and will be called as 
a witness. And I said, all right, but I want you to order me to 
answer any questions that relate to conversations, whether 
anyone was there or not.
    It was agreed by the prosecutors that would happen.
    When it was known that I was going to appear as a witness 
in the case and that he would face more than a cell mate on the 
prosecution side, Mr. Barboza began to negotiate, with 
considerable help from the Federal Government, and walked away 
with second degree murder, 5 to life, and was hustled off to 
Montana to some country club to serve his time.
    In 1976, in January, Barboza was out, once again with 
Federal help, roaming the streets of San Francisco as I was 
engaged in defending Patty Hearst, and I believe in February of 
that year, was gunned down by someone with a machine gun. The 
curious twist to Mr. Barboza is that he was, at the end of it 
all, not a tough guy. When he first came to me to get me to 
defend him in the unrelated charges in 1965, which were 
felonies and of which he was acquitted by a jury, I took an 
immediate dislike to him. I was to defend him as a favor to a 
man named Howie Winters, who's still alive and was a gang 
member at the time, and Wimpy Bennett, who was simply murdered 
later on. And I told Barboza to take his hat off, and he 
exploded, because I didn't make Bennett take his hat off. And I 
frankly put my hand in my drawer, where I had a 38, because 
this man's reputation was fearsome. And I said, Wimpy Bennett 
is bald, he can keep his hat on; take yours off or get out. And 
he left the room and broke down in tears and came back in 
crying, saying if you don't defend me, I'll go to jail. That 
was the beginning of a relationship which later evolved into 
the meetings of 1970, and that is most of my knowledge from 
Barboza that I can disclose.
    Mr. Burton. I have a question, but we'll defer that till we 
hear from Mr. Balliro. Mr. Balliro.
    Mr. Balliro. Mr. Chairman, I first of all want to thank you 
and members of the committee for the privilege of appearing 
here today. I suppose, almost as much as the Salvati family, I 
am just thrilled to see what this committee is attempting to 
do, because for some 30-odd years of the 50 years that I have 
been practicing law and defending people accused of crime, I've 
had to carry with me the knowledge that Joe Salvati, Henry 
Tameleo, who was my direct client, Louis Greco and Peter 
Limone, who also had a very young family at the time, were in 
jail, had suffered the almost expectation of being executed for 
crimes that I was satisfied from the get-go that they did not 
commit.
    Now, during the course of the 50 years that I have been 
practicing law, many people have asked me how can you do that 
day after day, because all of my practice is on the criminal 
side of the court. And I've always told them that which I 
believe as much as I believe in anything in this world, that 
everybody is entitled to a defense, no matter how bad anybody 
else might think they be. And as a matter of fact, I feel so 
strongly about it, that I feel that our very form of 
government, our system of government depends upon due process 
and the right of everybody who's accused by the government of 
having committed a crime to get a fair trial.
    During the course of my career, I've represented clergymen, 
politicians, lawyers, judges, the old, young, male, female, 
people of all kinds of lifestyles. And in all of those cases, 
except one kind of case, the government always has the burden 
of proof, and they've got to prove their case beyond a 
reasonable doubt, except when it comes to an organized crime 
figure. I've lectured at seminars throughout this country, and 
I've always told lawyers, especially young lawyers, don't ever 
walk into a courtroom defending someone who's been labeled as a 
part of organized crime and ever expect that those things that 
you learned in law school are going to hold true.
    Now, I'm not at all defensive about the fact that I was the 
lead counsel in the Deegan murder case. And a young colleague 
in my office, Chester Paris, who was an excellent lawyer, I 
designated to represent Joe Salvati. And, by the way, Mr. 
Chairman, and members of the committee, all of the defendants 
paid for their own fees in that case. And much to the contrary 
of what the public may have an expectation or deception of 
believing, the fees were not very large. As a matter of fact, I 
have a daughter and a son in practice, and they accuse me, even 
today, of charging less money to represent people than they 
charge to represent people.
    But the Congressman from Connecticut, Mr. Shays, asked 
earlier on today, how could you lose that case? Well, we lost 
it for a number of reasons, but I think the principal reason 
was expressed somewhat in the chairman's earlier remarks this 
morning--his opening remarks this morning, when he talked about 
what his feelings were toward the FBI back in those years of 
the 1950's and the 1960's and the 1970's, the tremendous amount 
of respect he had, and understandably so, because I myself had, 
other than for the fact that I knew things that perhaps others 
didn't about some of the agents of the FBI.
    But, you know, the star witness in this case really wasn't 
Joseph Barboza. The star witness in this case was the FBI. And 
I don't mean that just figuratively. I mean it literally, 
because what the government did in that case, in addition to 
putting Joe Barboza on the stand, totally, completely 
uncorroborated, as far as his testimony was concerned--there 
was no other corroboration in the case--except the fact that 
they put on the stand Dennis Condon. There was no legitimate 
reason for putting Dennis Condon on the witness stand. The only 
reason he was put on the stand was to project up there on the 
board, so to speak, the image that everybody respected of the 
FBI at that time.
    And I was reminded earlier today of some of my cross-
examination, obviously, not very successful, but I think very 
significant, as far as the work that this committee is starting 
to do. I was trying to undermine through my cross-examination 
of Dennis Condon the credibility of that which Joseph Barboza 
had testified to. And I sought to do that by pointing out that 
over the period of time that Barboza was in the custody of the 
government, preparing for trial, a whole raft of different law 
enforcement people had access to him. And in doing that, I was 
trying to convey to the jury the fact that his testimony had 
been shaped and molded. And the only thing that I could get 
Dennis Condon to agree to was how essential it was to have the 
purity of a witness' testimony.
    He agreed with me in this case, knowing about all of these 
intels and all of these memorandums that we have no clue about, 
of course, at all, he agreed with me how essential it was to 
the administration of justice, the due process, that a person's 
witness' testimony be pure. And he did that as his testimony 
was being monitored by a whole sheave of law enforcement 
officers that had participated in the preparation and the 
prosecution of that case.
    So, Congressman Shays, I'm not defensive, as counsel in 
that case. We never had a chance from the get-go, but that's 
what we were up against. That's what these defendants, these 
innocent defendants, were up against during the course of that 
trial. I'll be happy to answer any questions that the committee 
might have.
    Mr. Burton. I only have one question at the outset, and 
then I'll yield to Mr. Barr, and then we'll come back to Mr. 
Delahunt. And that is, when you met with Mr. Barboza when he 
was incarcerated----
    Mr. Balliro. Mr. Flemmi.
    Mr. Burton. Beg your pardon?
    Mr. Bailey. Barboza.
    Mr. Balliro. Oh, I'm sorry. Yes.
    Mr. Burton. When you, Mr. Bailey, met with Mr. Barboza when 
he was in prison--I think it was in prison--you said that 
within earshot, there were other inmates who overheard the 
conversation. Did he say anything about the Deegan murder to 
you? Did he say that he was involved in it or that--who the 
other members were that were involved in that murder?
    Mr. Bailey. Oh, yes. He was involved--Vincent Flemmi was 
involved. Nicky Femia, who was a Barboza sidekick, was 
involved. Chico Amico, his other sidekick, I do not believe was 
involved. Roy French was the trigger man, and Cassesso was 
involved. When it came to adding names, he dealt with the FBI 
this way: You let me put in a couple, and I'll put in a couple 
that you want.
    Mr. Burton. But when you talked to him, did he mention 
Salvati at all? Did he say, you know----
    Mr. Bailey. Yes.
    Mr. Burton. What did he say?
    Mr. Bailey. He said Salvati was innocent, had nothing to do 
with the case.
    Mr. Burton. So he flatly told you Salvati was innocent in 
that meeting, and you wanted him to take a polygraph about that 
issue as well as the others that you talked about?
    Mr. Bailey. He signed an affidavit, which although not this 
specific, was the first step. And I wrote a letter to Attorney 
General Quinn telling him what was up.
    Mr. Burton. Did you send the affidavit with the letter?
    Mr. Bailey. Oh, sure. Yes.
    Mr. Burton. So he got the letter from you saying that 
Salvati was innocent, plus the affidavit, and nothing was done?
    Mr. Bailey. Nothing was done. All of this was mentioned in 
my memorandum to Mr. Balliro in 1970 after I was fired.
    Mr. Burton. Thank you very much. Mr. Barr. You want me to 
go to Mr. Shays first? Mr. Shays.
    Mr. Shays. I would like Mr. Delahunt to go, and then I'll--
--
    Mr. Burton. Mr. Delahunt, are you prepared? Mr. Delahunt.
    Mr. Delahunt. First of all, let me welcome two gentlemen 
for whom I have great respect, that I consider friends, people 
whom I had dealings with, Mr. Chairman, during the course of my 
20 years as an elected prosecutor in Massachusetts. These are 
people of great talent, great skill, and in my dealings with 
them, I can tell you now that their integrity was 
unimpeachable. It's good to see you both here, Lee and Joe. I 
can tell you this, too. They're very formidable adversaries, 
but I think that they both know that in their dealings with my 
office----
    Mr. Shays. 'Fess up. They whipped your butt every time.
    Mr. Delahunt. No. We had some wins. We had--in fact, the 
first case that was ever televised in Massachusetts, the case 
of the Commonwealth v. Prendergast, Mr. Balliro was the counsel 
for the defendant in that case. So we've made some history 
together, and, again, this is not just hyperbole or saying good 
things about good people. It's the truth, and their remarks 
today I think are very important, because, again, my experience 
has been as a prosecutor. But I always remember, and I think 
they both would verify that I had a group of prosecutors that 
were exceptionally talented. In some cases, their abilities far 
exceeded mine in a courtroom. But my only admonition was to 
remember that they had delegated to them the most single 
awesome power in a democracy, which was to deprive people of 
their liberty and that one thing I would never tolerate would 
be the abuse of that power. And I hope that's my legacy of 21 
years.
    I would pose it to either of you, it's interesting that 
with all the attention given to Mr. Barboza, in the end what 
did he really produce for the U.S. Government, if you know? I 
think Mr. Garo indicated earlier that he testified in three 
cases. Well, in one of them, it's now overwhelmingly clear that 
he put four innocent people in jail. If either one of you know, 
what did he contribute to public safety in Massachusetts and in 
New England by virtue of his involvement in the other two 
cases?
    Mr. Balliro. Well, it's my view that not only did he not 
contribute anything toward public safety, but the use of his 
testimony, like the use of many other jailhouse informants or 
cooperating witnesses who are testifying solely for reward, 
does much to damage terribly the administration of criminal 
justice in this country.
    Mr. Delahunt. What you're saying, then, is that in the end, 
when we find people who are innocent in jail because of a 
result of this kind of testimony, that in the end it really 
erodes the confidence of the American people and the integrity 
of the system? Isn't that really what we're talking about here?
    Mr. Balliro. And in a very expensive way.
    Mr. Delahunt. And in a very expensive way. It's my 
understanding in my conversation with Mr. Garo that on the 
other cases that he testified that resulted in convictions, 
what we're talking about were sentences of some 5 years, and 
who knows what the veracity, the credibility, of his testimony 
was in that case. But after all this, all this money, all this 
effort, Joe Barboza did absolutely nothing in terms of justice 
and in terms of protecting the people. It was an egregious 
mistake to recruit him as an informant to begin with.
    Mr. Bailey, you said something that was very disturbing to 
me. It's clear to me that the position of the Federal Bureau of 
Investigation, reading from just newspaper reports, is that 
when they receive this information--and if you had an 
opportunity to review the exhibits, you see the correspondence 
back and forth from the special agent in charge in Boston and 
the Director of the FBI, who at that time was J. Edgar Hoover, 
as well as reports filed by Special Agent Rico and in some 
cases by Special Agent Condon, that they concluded that by 
simply disseminating the information, that was the end of their 
legal obligation.
    Now, I don't know whether failing to produce that 
information or insist upon it being brought to the appropriate 
court of jurisdiction would violate any criminal statute. I 
find it offensive on a moral and ethical basis. But what you 
said earlier about Mr. Barboza's testimony being helped, were 
you suggesting that his testimony was manipulated, was agreed 
to, was suggested by Federal agents?
    Mr. Bailey. I'm quite certain of that. And before more FBI 
bashing, let me say I am a big fan of the FBI. Judge Webster 
and Judge Sessions are friends. But the FBI is like the little 
girl with the curl; when they're bad, they are horrid. In this 
case I believe that the testimony was furnished. When the FBI 
decided who they wanted to target, it just happened to be the 
right-hand man of Raymond Patriarca, the reputed right-hand man 
of Jerry Angiulo. They suggested those names. Barboza threw in 
Greco, because Greco beat him up once, and he threw in Salvati, 
because he had to replace Flemmi. They knew all about that. And 
one particular agent not only did it in this case but did it 
again with another----
    Mr. Delahunt. You know, that's a very serious statement.
    Mr. Bailey. It is.
    Mr. Burton. Could the gentleman yield real quickly? You 
said they did it in another case?
    Mr. Bailey. Yes.
    Mr. Burton. Would you care to be a little bit more 
specific? I'll grant the gentleman the time.
    Mr. Bailey. Certainly. As these people were indicted, Mr. 
Balliro and I were engaged in defending what Congressman 
Delahunt will remember as the Great Plymouth Mail Robbery, then 
the largest in the history of the country. All these men were 
acquitted. The purported leader, John J. Kelley, whom I 
defended, was caught a year later, in a Brinks truck robbery, 
nailed cold. And he was told--and I talked with Mr. Kelley 
about this extensively. He was told, you are such a big fish, 
that to get a deal you're going to have to give us somebody 
bigger. And there are only two people we can think of, F. Lee 
Bailey and Raymond Patriarca. He chose Mr. Patriarca, was 
helped to make up a story about Mr. Patriarca orchestrating a 
homicide, testified falsely in Federal court and obtained a 
conviction. The manager of that witness as well was Paul Rico, 
who came to my office attempting to intimidate me after Kelley 
turned, and I threw him out.
    Mr. Burton. Any information you have about that case we'd 
like to have. Anything----
    Mr. Bailey. I can only tell you, because----
    Mr. Burton. We'll check with the FBI to get documentation 
on that as well.
    Mr. Bailey. You should. Yes.
    Mr. Burton. I'm sorry, Mr. Delahunt.
    Mr. Delahunt. I thank the Chair. I just would note that 
this goes far beyond simply the withholding of exculpatory 
evidence, which is--what you're suggesting here is that in a 
capital case----
    Mr. Bailey. Well, I said, ``now, Joe, could you have done 
it by yourself?'' And he said no, he wouldn't have known how to 
arrange his facts so that he could testify falsely to them.
    Mr. Delahunt. Well, again, in the Deegan case, this is 
suggestive of subornation of perjury, Mr. Bailey.
    Mr. Bailey. It is, the penalty of which is life.
    Mr. Delahunt. And that particular statute does not have any 
statute of limitations, does it, Mr. Bailey?
    Mr. Bailey. It does not. And it suggested strongly to me of 
a conspiracy to cause murder to happen. If these men had not 
been saved, not by the judicial process in the United States, 
which endorsed the death sentences, not of Salvati and French 
but of the other four, had they not been saved by the U.S. 
Supreme Court's widespread--effective the Furman v. Georgia 
decision of striking down capital punishment, they would have 
been executed, and nobody would have come forward on----
    Mr. Delahunt. Mr. Bailey, you seem to be convinced that one 
Stevie Flemmi was the informant in the reports of the FBI.
    Mr. Bailey. He is mentioned not by name but because we know 
that he was the owner of a certain property, and that's how 
he's described in the memo which I saw a little while ago. But 
please understand, the FBI had, we now know, a nest of 
ruthless, cold-blooded psychopathic killers, two Flemmis, 
Barboza and Whitey Bulger. They left them on the streets, they 
protected them at all times. They were killing people left and 
right and committing all kinds of other crimes. And who gave 
them information in a given case is hard to say, but Vincent 
Flemmi has admitted that he was that person in the back seat 
with the bald spot.
    Mr. Delahunt. Mr. Balliro, could I ask you just in terms of 
how do we remedy this situation? Let me just give you my own 
theory.
    Mr. Burton. Can I clarify?
    Mr. Delahunt. Certainly.
    Mr. Burton. Mr. Balliro, I want to make sure we don't miss 
that point. You're saying your client was Mr. Flemmi. Did Mr. 
Flemmi admit to you that he was the fellow with the bald spot 
in the back seat?
    Mr. Balliro. Oh, yes.
    Mr. Burton. OK. Well, I think that's very important that we 
make sure that's clear to everybody. I thank the gentleman.
    Mr. Balliro. Not only did he admit to me that he was the 
fellow sitting in the back seat, but he also told me that 
Barboza had sent him a message explaining that he had 
substituted Salvati for him, and that Limone, Tameleo and Greco 
had nothing to do with it; but since they didn't give him, 
Barboza, the proper, what he called respect, he was very 
concerned about being respected by the people in the north end 
of Boston, all of whom were of Italian heritage, and he wasn't 
getting that respect, so he was going to get even.
    Mr. Delahunt. I posed a question earlier, but I'd like to 
ask another question of Mr. Bailey. Can you identify the law 
enforcement agents that told Barboza, according to Barboza's 
conversation with you, that you're here forever if you continue 
to insist upon recanting your testimony?
    Mr. Bailey. No, because he didn't tell me that. It has 
since come out, and I don't have personal knowledge of that, 
but I do know this: Whenever Barboza was on the move doing 
anything, Rico and Condon would pop up as they did in Santa 
Rosa.
    Mr. Delahunt. Mr. Balliro, in the State, some offices, 
including mine when I was the district attorney, adopted a 
policy of full discovery, an open file policy. Can you describe 
for members of the committee the discovery procedures in the 
Federal system and whether, in your opinion, there is 
difficulty securing exculpatory evidence?
    Mr. Balliro. It's like pulling teeth. That's what it's 
comparable to. You know, they boast--most U.S. attorney's 
offices--about how much discovery they give to defense counsel 
in criminal cases, and they're prone to sending you banker 
boxes full of discovery, really without identifying what in all 
those thousands upon thousands of pages really is important, 
what's significant and what isn't significant. But when it 
comes down to the real nitty-gritty of what you need to 
effectively represent your client and to do a competent cross-
examination, it's like pulling teeth. They fight it all the 
way.
    Mr. Delahunt. Thank you. Just indulge me, Mr. Chairman, for 
one more question. You referenced earlier Stevie Flemmi and 
Whitey Bulger, and I know you were present earlier when I 
inquired of Mr. Garo about his problems with the commutation, 
securing the commutation, despite having in his possession 
documents that were clearly exculpatory. Now as I sit here and 
I reflect, if Stevie Flemmi, one could theorize, was the 
informant in this case, given his role and position in the 
criminal element in Massachusetts, it certainly wouldn't be to 
his advantage to have Limone and Greco and Tameleo out on the 
street, would it, Mr. Bailey?
    Mr. Bailey. I don't think Stevie was ever accepted as a 
member of the so-called Angiulo group. The two Flemmis----
    Mr. Delahunt. Well, in fact, it was his testimony that did 
lead in the late 1980's, early 1990's, to the conviction of 
Gennaro Angiulo and others. Am I correct in stating that? He 
played a role in it. Not only did he play a role----
    Mr. Bailey. The Federal prosecution of Gennaro and Angiulo, 
yes.
    Mr. Delahunt. Yes. But I guess my point is, if you will 
listen to me for one moment----
    Mr. Bailey. Yes.
    Mr. Delahunt [continuing]. And just reflect on this 
premise, it was as if Stevie Flemmi and his associate, Mr. 
Bulger, were acquiring a monopoly in terms of organized crime 
in the greater Boston area. There was no competition.
    Mr. Bailey. Well, they had their own organization, but they 
had a very powerful partner, called the FBI.
    Mr. Delahunt. I yield. Thank you, Mr. Chairman.
    Mr. Burton. Thank you. We'll come back, if you have more 
questions. Mr. LaTourette. Then we'll go to Mr. Shays. And Mr. 
Horn, you have questions, too? We'll get to all of you in just 
a minute. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Bailey, I come 
from Cleveland, OH, and my mom put together a scrapbook and 
this doesn't have anything to do with it, but I was born in the 
month of July 1954, the month Marilyn Sheppard was murdered, 
and your name is certainly emblazoned in a lot we've done, and 
there are some parallels. As a matter of fact, I just heard Sam 
Ray Sheppard on the radio the week before I came back and his 
continuing travails to clear his father, but it's a pleasure to 
be in your company.
    Mr. Balliro, it's a pleasure to be in your company too. I 
don't want to exclude you, but you didn't have anything to do 
with Marilyn Sheppard.
    I am concerned, Mr. Balliro, about an exhibit that's in our 
book, exhibit No. 35, which is an affidavit that I think you 
executed earlier this year in connection with the release of--
dealing with representation you had. You're conversant with 
that affidavit and----
    Mr. Balliro. Yes.
    Mr. LaTourette. OK. And I think that the chairman was 
talking to you before about the fact that--whether or not you 
had a conversation with Vincent Flemmi about the murder of 
Teddy Deegan, and you did in fact have such a conversation. And 
in that conversation, as I understood not only your previous 
observations but the affidavit as well, he basically told you 
what had happened to Teddy Deegan.
    [Exhibit 35 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.123
    
    [GRAPHIC] [TIFF OMITTED] T6507.124
    
    [GRAPHIC] [TIFF OMITTED] T6507.125
    
    Mr. Balliro. He told me it in the context of the attorney-
client relationship. As a matter of fact, he started off by 
saying--I had gone up to see what information I could get from 
him that might undermine the credibility of Barboza----
    Mr. LaTourette. Right.
    Mr. Balliro [continuing]. In the upcoming trial. And he 
started off by saying that he was very concerned about giving 
me any information, which kind of stunned me, because I knew 
what his relationship was to other people in that whole group, 
and the expectation was that he would be very happy to be of 
help, if he could be of help. But he said he couldn't and that 
he was concerned about Barboza, because as close as he was to 
Barboza, he didn't trust Barboza for one moment. He felt that 
he might turn on him and might implicate him in the Deegan 
killing. And if so, he wanted me to represent him. I 
represented Jimmy on previous cases. As a matter of fact, I 
represented him on a case that he was in jail for at that time.
    Mr. LaTourette. Right. But this conversation which I think 
I want to get to, this conversation took place, according to 
the affidavit, at least, in the summer of 1967?
    Mr. Balliro. Correct.
    Mr. LaTourette. The trial for the Deegan murder took place 
in 1968?
    Mr. Balliro. Correct.
    Mr. LaTourette. OK. So at the time that you were 
representing one of the codefendants, I guess, in the Deegan 
murder, you had information from another client that the client 
you were representing had nothing to do with the Deegan murder, 
and in fact, it was Vinny Flemmi and ``the Animal'' that had 
actually been the bad people. Is that right?
    Mr. Balliro. Correct. It was a lot more complicated than 
that, because one of the co-counsels who represented Joe 
Salvati was a fellow who I had put into the case. He was in my 
office at the time.
    Mr. LaTourette. Well, that was the next thing that I was 
going to ask you. Mr. Salvati's lawyer came from your firm as 
well?
    Mr. Balliro. Correct.
    Mr. LaTourette. And it's been--I haven't practiced law, 
obviously, since I've been here, but it seems to me that there 
was some rule that what was knowledge of----
    Mr. Balliro. Conflicts.
    Mr. LaTourette. Well, we'll get to conflict in a minute 
maybe, but what was the knowledge of one person within the firm 
was imputed to be the knowledge of the law firm, I guess. Is 
that----
    Mr. Balliro. I think that's a fair statement, yeah.
    Mr. LaTourette. OK. So at the time your associate was 
representing Mr. Salvati, your firm had institutional 
knowledge, at least, that Vincent Flemmi and Mr. Barboza were 
the murderers?
    Mr. Balliro. We didn't set up Chinese walls in those days.
    Mr. LaTourette. I'm not trying to cast stones here. I'm 
trying to just indicate that this is a pretty intense web that 
was weaved back in 1968, and I think that it's intense, because 
when your client was found guilty on July 31, 1968, you knew it 
was wrong. Right?
    Mr. Balliro. Oh, absolutely.
    Mr. LaTourette. And you didn't know it was wrong because 
they had just done a nice job of the prosecution. You knew it 
was wrong because you had another client who was the murderer?
    Mr. Balliro. Sure.
    Mr. LaTourette. And that applied to Mr. Salvati as well?
    Mr. Balliro. Absolutely.
    Mr. LaTourette. You know, we're going to deal with how the 
government handles informants and things of that nature, but--
and I also understand that the fact that the attorney-client 
privilege is inviolate. But I guess I would solicit an opinion 
from you as to that's a pretty big pickle you've found yourself 
in.
    Mr. Balliro. Sure.
    Mr. LaTourette. And do you think that there is no ethical 
way out of--not just you, but----
    Mr. Balliro. Well, there is now, and there is in 
Massachusetts anyway, because the Supreme judicial court in 
Massachusetts, effective January 1, 1998, opened the door for 
counsel to invade the attorney-client privilege if, among other 
things, it would result in preventing an unlawful 
incarceration. That's one of the phrases that's in the rule 
now. So you can do that today, and that's----
    Mr. LaTourette. But that change only took place----
    Mr. Balliro. Which led to my finally divulging the name of 
Flemmi. It says ``may.'' It doesn't say ``has to,'' and in an 
exercise of caution, I asked for a court order, and I did get 
that.
    Mr. LaTourette. And as we look at changing that, what do 
you think about making it mandatory, the ``shall''? If you have 
information as a lawyer, or I had information or Mr. Delahunt 
or Mr. Bailey, that a fellow is going to go to jail, face the 
death penalty--and thankfully the jury showed mercy and he only 
got--only, I say, life in prison, but he spent 33 years--do you 
think making it mandatory would have----
    Mr. Balliro. Well, I think that--I'm a little hesitant 
about making it mandatory, because there are too many shades 
sometimes, you know, having to do with those kinds of 
revelations. But I do think that an acceptable alternative 
would be to have the attorney at least make an in camera 
presentation to a judicial officer and then let the judicial 
officer in the exercise of his discretion determine whether or 
not he should----
    Mr. Delahunt. Would the gentleman yield?
    Mr. LaTourette. The red light is on. If you want me to 
yield, Mr. Chairman, I'll yield.
    Mr. Burton. Well, we're being very lenient, because we 
don't want to break up the train of thought of those who are 
doing the questioning, but I'd just like to say, we don't have 
a Federal statute that deals with that. Do you think it would 
be advisable to have a Federal statute that's similar to the 
statute in Massachusetts that would allow a defense attorney to 
divulge that kind of information if there was somebody 
wrongfully convicted?
    Mr. Balliro. I think it's extremely important, Mr. Chairman 
and, you know, this isn't the first time that I've had a client 
tell me about someone else's innocence in a case that I was 
representing, you know, somebody on, and it's not the first 
time that the person that's told me was the person who actually 
committed the offense that I was defending somebody else on.
    Mr. Burton. I think Mr. Delahunt and others on the 
Judiciary Committee, I'll be happy to cosponsor a bill like 
that. Would the----
    Mr. Delahunt. Yeah. The question that other--again, the 
observation by Chairman Burton and your informing the committee 
about the change in Massachusetts rules, I think it's something 
that this committee, in conjunction with the Judiciary 
Committee and the full Congress, ought to give serious 
consideration, and any ideas that either one of you or any 
members of the bar, whether it be prosecutors or defense 
counsel. I think this particular case highlights the need to 
have some discretion. I concur, Joe, with you. I think making 
mandatory might cause some real problems, given the various 
degrees, if you will, of culpability and involvement, but I 
think it's an excellent suggestion, and I'd welcome working 
with the Chair and Mr. LaTourette on that.
    Mr. Balliro. Whatever my committee in Massachusetts can do 
to be of help. I want you to know, Congressman, that we'd be 
very happy to set up a liaison relationship in that regard.
    Mr. Delahunt. Thank you, Joe.
    Mr. LaTourette. I thank you. I thank the Chairman.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Gentlemen, it's very 
nice to have you both before this committee. You've sat very 
patiently listening to the first panel, and so we don't need to 
bring forward those exhibits. But just to quickly go over them 
again quickly without bringing them up, exhibit 11 was from 
Lieutenant Thomas F. Evans, Chelsea Police Department, in which 
it was fairly clear they had identified the perpetrators of the 
murder.
    Exhibit 12 was the city of Boston Police Department of 
March 14, 1965, in which they basically had similar 
information. Then you had the Department of Public Safety, 
March 15th, Massachusetts State Police, exhibit 13, that 
confirmed what the first--what the Chelsea police had been told 
and what the police department in Boston had been told. None of 
this information, Mr. Balliro, was made available to you. 
Correct?
    [Exhibits 11, 12 and 13 follow:]

    [GRAPHIC] [TIFF OMITTED] T6507.053
    
    [GRAPHIC] [TIFF OMITTED] T6507.054
    
    [GRAPHIC] [TIFF OMITTED] T6507.055
    
    [GRAPHIC] [TIFF OMITTED] T6507.056
    
    [GRAPHIC] [TIFF OMITTED] T6507.057
    
    [GRAPHIC] [TIFF OMITTED] T6507.058
    
    [GRAPHIC] [TIFF OMITTED] T6507.059
    
    [GRAPHIC] [TIFF OMITTED] T6507.060
    
    Mr. Balliro. You know, one needs only to look at the 
transcript of the record of the trial in this case. If 
anything, a glimpse of all of that information had been 
furnished to defense counsel, it would have resulted in a 
flurry of discovery motions and days of cross-examination of 
Mr. Barboza and other witnesses that we would then put on the 
witness stand.
    Mr. Shays. You would have had an absolute field day. 
Exhibit 15 was the Airtel to Director of the FBI from the 
special agent in charge, dated March 19th, which was actually 
dated after the murder, but described what they had been told 
would be the murder--what was going to take place, and in fact 
the murder did take place. And, again, your witness was not 
mentioned in any of these as well.
    [Exhibit 15 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.062
    
    [GRAPHIC] [TIFF OMITTED] T6507.063
    
    [GRAPHIC] [TIFF OMITTED] T6507.064
    
    Mr. Balliro. Absolutely not.
    Mr. Shays. Mr. Bailey, you had--I now would like to turn to 
exhibit 26. This is an affidavit that Joseph Barboza signed in 
front of a notary, and this was at your request. Is that true?
    [Exhibit 26 follows:]
    [GRAPHIC] [TIFF OMITTED] T6507.102
    
    Mr. Bailey. Yes. And the notary was my law partner.
    Mr. Shays. Thank you. Would you read No. 1 and No. 2, 
``that I am the same''?
    Mr. Bailey. You mean Paragraphs 1 and 2?
    Mr. Shays. Yes. Thank you.
    Mr. Bailey. OK. ``That I am the same Joseph `Baron' Barboza 
who testified in the trial of the Commonwealth v. French,'' 
with numbers.
    No. 2, ``That I wish to recant certain portions of my 
testimony during the course of the above-said trial insofar as 
my testimony concerned the involvement of Henry Tameleo, Peter 
J. Limone, Joseph L. Salvati and Lewis Grieco in the killing of 
Teddy Deegan.''
    Mr. Shays. So basically, he is acknowledging--and he was in 
fact the only witness in their--he was the witness against 
these individuals. Is that correct?
    Mr. Bailey. The men were sentenced to death on the sole 
basis of Barboza's testimony.
    Mr. Shays. And he is saying that he did not testify 
accurately. Is that not true?
    Mr. Bailey. Yes, he certainly is.
    Mr. Shays. OK. So you have this document, and walk me 
through again what you did with this document.
    Mr. Bailey. I believe I sent it to the attorney general.
    Mr. Shays. OK. And the attorney general at the time was?
    Mr. Bailey. Robert Quinn.
    Mr. Shays. Now, in the State of Massachusetts, the attorney 
general does criminal as well as civil? In the State of 
Connecticut it's only civil but----
    Mr. Bailey. He has a supervisory role and can take over 
most any case, as Senator Brooke did the strangling cases that 
were being handled by several jurisdictions.
    Mr. Shays. And it's not like frankly you're a lightweight 
attorney. It's not like you aren't well known. It's not like 
this would have just passed through his desk and somehow 
slipped through. I mean, this came with your signature, and 
this was the affidavit. And in your letter, did you outline 
what was said in the affidavit? Do you remember?
    Mr. Bailey. I believe I said generally that Mr. Barboza was 
looking for a vehicle to make the truth known without being 
penalized too heavily.
    Mr. Shays. OK. So the bottom line to it is, though, you got 
what kind of a response?
    Mr. Bailey. None.
    Mr. Shays. By none, you got no thank you, or you didn't get 
a no thank you?
    Mr. Bailey. No. I got no response.
    Mr. Shays. OK. I just need to know what you would do after 
that. If you got no response, is it kind of case closed or----
    Mr. Bailey. Well, bear in mind on the day this affidavit 
was signed, I believe according to other documents you have, 
Barboza was visited by the Federal prosecutors, and that ended 
my relationship with him.
    Mr. Shays. OK.
    Mr. Bailey. And the lie detector test was canceled.
    Mr. Shays. OK. So this relates to the lie detector----
    Mr. Bailey. Yes.
    Mr. Shays. In other words, all of this is related to the 
same----
    Mr. Bailey. He was to take the test to verify the fact that 
he was now truthfully saying these four men had nothing to do 
with it and that he lied in the Federal case against Raymond 
Patriarca and others.
    Mr. Shays. So you seem to not just imply, but you're saying 
quite strongly that the FBI, aware of this affidavit, was 
basically saying you shouldn't have any more relationship with 
Mr. Bailey?
    Mr. Bailey. Well, after their visit, I never did.
    Mr. Shays. OK. What is the penalty in Massachusetts--I 
don't know if either of you qualify--for giving false testimony 
in a trial?
    Mr. Bailey. Well, there's a penalty for perjury, which I 
believe carries 5 years or more, but there's a special statute 
for perjury in a capital case, and life is the punishment, and 
was then.
    Mr. Shays. So for me, the nonattorney, if Mr. Salvati was 
going to be sentenced potentially to capital punishment--and 
receive the death penalty, then if someone else gave false 
evidence, they could be subject to the same penalty?
    Mr. Bailey. Not the death penalty, but life.
    Mr. Shays. Life. OK. What is the penalty for helping a 
witness give false testimony?
    Mr. Bailey. Well, perjury and suborning perjury are usually 
treated equally in the eyes of the law, and I would say that if 
I were the prosecutor, a good case could be made for the 
architects of perjured testimony to suffer the same penalty as 
the perjuring witness.
    Mr. Shays. And what is the penalty for a law enforcement 
officer withholding evidence important to a case?
    Mr. Bailey. Unfortunately, to my knowledge, it is no 
greater than the average felon marching down the street. I 
believe there should be much stiffer penalties for those 
entrusted with great power and respect who choose to abuse that 
power, as was done here.
    Mr. Shays. In the third panel, we have Mr. Paul Rico, 
retired FBI special agent. We also requested that Dennis 
Condon, retired FBI special agent, testify. Mr. Condon, I 
believe, will not be able to show up, and I believe----
    Mr. Burton. We will question him. He, on the advice of his 
physician because of health reasons, couldn't be here.
    Mr. Shays. So we will be having Mr. Paul Rico after you 
testify. Would you describe to me--both of you gentlemen, would 
you describe to me what you think their involvement was in this 
case?
    Mr. Bailey. My only personal contact with Paul Rico was 
when he came to my office shortly after John Kelley had become 
a government witness and been incarcerated in the Barnstable 
County Jail. Prior to testifying in the Federal case, which he 
appeared as a witness who had organized an escape route for a 
murder requested by or ordered by Raymond Patriarca, and he 
later told me that story was one that he was told he would have 
to tell. Since he was unwilling to implicate me in my felonies, 
Patriarca was the only acceptable trade for his freedom, which 
he got. But I saw him many times after the trial was over.
    The only other knowledge I have of Mr. Rico's activity was 
one of which I am highly suspicious, and that was in the 
attempt to convict your colleague, Alcee Hastings. He was up to 
his ears in that.
    Mr. Balliro. May I say this, Congressman?
    Mr. Shays. Yes.
    Mr. Balliro. It's, to me, unconscionable, given what we 
know now, seeing these internal documents that were going up 
the line to the Justice Department to just before, during, and 
after the Deegan killing, many of them authored by Special 
Agent Rico. I mentioned the testimony of Agent Dennis Condon 
during the course of the Deegan trial. And to sit by and just 
let that happen, I don't know that there's any penalty for 
that, but I can't imagine anything worse for a law enforcement 
officer to do. Talk about obstructing justice, much less a 
perjury. This is fashioning the obstruction of justice with a 
determined purpose to frame people, and that's happened. They 
were framed.
    Mr. Shays. Well, we won't have Mr. Condon here today to ask 
questions, but I do look forward to asking Mr. Rico a number of 
questions that are the result of our two panels. I thank you 
both for being here. At this time I have no more questions.
    Mr. Burton. Thank you, Mr. Shays. Do you have questions, 
Mr. Barr? We'll come to you in just a minute.
    Mr. Barr. I think both of you gentlemen are aware of the 
Justice Task Force on this and related matters that was formed 
in January 1999. Are you all familiar with that?
    Mr. Balliro. I have a peripheral awareness of it, 
Congressman, but----
    Mr. Bailey. I am aware of Mr. Fishman, who is partly 
responsible for smoking out this mess.
    Mr. Barr. Mr. Bailey, has the task force contacted you and 
communicated with you to gather information?
    Mr. Bailey. They have not.
    Mr. Barr. And they have not contacted you, Mr. Balliro?
    Mr. Balliro. They have not.
    Mr. Barr. Well, the Justice Task Force was formed in 
January 1999--2 years ago. And the investigation, its history 
and a brief synopsis of its work, is contained as an attachment 
to the Director Freeh statement that he furnished to us. Was 
that included, Mr. Chairman, in the earlier----
    Mr. Burton. In the record?
    Mr. Barr [continuing]. Record?
    Mr. Burton. Yes. We included not only Director Freeh's 
letter but the contents of the attachment.
    Mr. Barr. OK. There is a case that has risen out of the 
Justice Department's task force in this case involving John 
Connolly, Bulger, Whitey Bulger and Flemmi. Are either of you 
aware of the status of--I know there has not yet been a trial, 
but are you aware of the status of that case?
    Mr. Balliro. It's in its very early stages, I would suggest 
to you. I know the counsel for John Connolly, Tracy Minor from 
Mince, Lever, and they've just begun to scratch the surface, 
both defense-wise and prosecution-wise. So it's going to be a 
long time before that case goes to trial.
    Mr. Barr. Now, Mr. Bailey--I'm not sure which one of you is 
better qualified to do this, but could you just briefly 
describe--this fellow Bulger's name keeps surfacing in all of 
this. What role does he play in these goings-on? I know he's 
part of this case, in which an indictment and then a 
superseding indictment was brought by the Justice task force, 
but how does he fit into all this, if at all?
    Mr. Balliro. Well, he was the handler, of course, for both 
Bulger and for Steve Flemmi, the handler in this----
    Mr. Barr. Connolly?
    Mr. Balliro. Connolly was--John Connolly was. My 
understanding from his remarks to the media at or about the 
time that he was indicted was that he didn't know what bad 
people they were, and as far as he knew, Steve Flemmi was 
just--well, maybe a bookmaker and perhaps a loan shark. So they 
were willing to give him a pass on those kinds of activities.
    But I can tell you this, Mr. Congressman. I've lived in 
that area my entire life and got a pretty good street sense of 
everything that is going on. And I can tell you that every kid 
in south Boston, which was their area, understood very, very 
clearly what violent people both Flemmi and Bulger were. They 
terrorized that area. When they walked into a place of 
business, people actually quaked. John Connolly comes from that 
area. It's just unconceivable to me that he didn't know what 
every kid on the street in south Boston knew, much less all the 
rest of law enforcement, both State and local, in Massachusetts 
knew.
    And, by the way, I've had many, many cases involving 
shylocking, and time and time again at sentencing I've heard 
prosecutors stand up and tell judges what a terrible, violent 
crime shylocking was. So for John Connolly, an FBI agent, to 
demean it and deprecate its importance or its lack of violence 
is just unconceivable to me.
    Mr. Barr. And Bulger was an FBI informant for a fairly long 
period of time, too, wasn't he?
    Mr. Bailey. Until he became a fugitive, yes.
    Mr. Barr. For over 20 years he was an informant?
    Mr. Bailey. So far as we can sort out, because Flemmi knows 
all about it, and Flemmi has made that known to the court as 
his defense in a racketeering case. In other words, he says I 
was set in motion by the government. You can't now turn on me; 
I have, in effect, immunity. And that is the defense he has 
raised. He has since been indicted for murders all over the 
country, and they're still digging up bodies as of this time to 
indict Flemmi.
    Mr. Balliro. And, Mr. Congressman, may I just say this in 
addition, because I think this may be important to counsel as a 
source of information. Back in the early 1980's, between 1980 
and 1985 when the Anguilos were prosecuted, there were--I don't 
want to exaggerate it--but carefully, I say, many, many, many 
hundreds of hours of wiretapping in two different locations in 
the north end of Boston conducted by agents of the Federal 
Bureau of Investigation, and you don't have to get into too 
many pages to start hearing Bulger's name and Flemmi's name 
being mentioned in connection with the most violent of 
offenses.
    Now, apparently Agent Connolly, Agent Rico, agent whoever, 
didn't know what those wiretaps contained. Everybody in the 
world knew it in 1985 when they were finally released. They had 
all been put by Judge Nelson, who handled that case, in my 
custody until the court proceeding, the actual trial took 
place. So we knew about it in between 1983, 1984 and 1985 when 
the trials began, but then the public knew, and those were open 
for anybody's examination.
    Mr. Barr. I'm not personally yet familiar with this case 
that the Justice task force has brought, but according to the 
material furnished by Director Freeh yesterday, this brief 
synopsis indicates that the December 1999 indictment was 
returned against retired FBI Senior Special Agent John 
Connolly, Bulger and Flemmi. Do you all know what the nature of 
the charges against Connolly were or are?
    Mr. Balliro. Included in them, I believe, are accessory to 
murder charges.
    Mr. Bailey. I think that was a----
    Mr. Barr. So arising out of the dealings with these 
gentlemen as--or these men as informants?
    Mr. Balliro. Well, they claim--Connolly claims, of course, 
that he didn't know anything about murders. I mean----
    Mr. Bailey. I believe, Congressman, that the first 
indictment affecting John Connolly was for obstruction and 
related offenses and that a new indictment was brought, 
dragging him in as being responsible in part for murder.
    Mr. Balliro. What happens is the government keeps flipping 
people, and between the first indictment and the second 
indictment, they flipped a confidante of Bulger and Flemmi, a 
man by the name of Kevin Weeks, who now is a cooperating 
witness with the government. He was able to tell them about 
many of these murders, because he participated in things like 
hiding the bodies and burying the bodies and digging them up 
and reburying them. You know, like some movies that we've seen 
recently, this all happened, and they found those bodies. And 
the government has gone in, they're digging up places, and 
these bodies keep coming up now, all of which Kevin Weeks tells 
them exactly where they are, and that's why you're getting 
these--and I'm not sure the indictments are all finished 
either. I believe there may be superseding indictments in those 
cases.
    Mr. Barr. Thank you very much. I appreciate both of you 
gentlemen sharing both your history in these cases, as well as 
your vast expertise on these type legal matters with us and 
look forward to continue to work with you as we try and fashion 
some additional safeguards to avoid these things happening in 
the future. Thank you.
    Mr. Burton. Thank you, Mr. Barr.
    Mr. Delahunt, did you have one more question?
    Mr. Delahunt. Yes, I do. I just wanted to make a note, too, 
that--I don't know whether it was Mr. Bailey or Mr. Balliro 
that indicated that Mr. Connolly was the so-called handler for 
both Bulger and--Flemmi.
    Mr. Balliro. Steve Flemmi.
    Mr. Delahunt. Steve Flemmi. Are you aware--obviously both 
had been informants prior to Mr. Connolly's coming to the 
Boston office of the FBI? Are you aware of--whom the FBI 
handler was for Mr. Bulger or Mr. Flemmi, Mr. Steven Flemmi? 
Maybe you----
    Mr. Balliro. Well, whether he can be named as a handler or 
not, I don't know, but from the materials that I'm now reading 
just recently in late December that have been revealed, it 
appears that Special Agent Rico very well could be categorized 
as a handler, at least of Steven Flemmi.
    Mr. Delahunt. So it's a----
    Mr. Balliro. I don't know if there's anything about----
    Mr. Delahunt. Right. I reviewed those too, and I reached 
the same conclusion. But I guess it's a fair statement to say 
that Steve Flemmi went from the supervision of Mr. Rico to the 
supervision of Mr. Connolly?
    Mr. Balliro. It appears to be that way.
    Mr. Delahunt. He was passed in that direction. Joe, if I 
can just ask this question, because I think when I listen to 
the questions of my colleagues here, particularly Mr. Shays, I 
think it's important to try to clarify how a homicide 
investigation, which is a State prosecution, is conducted in 
Massachusetts, specifically in the case of Deegan. Am I correct 
when I say usually it is the local police department, and 
sometimes there is assistance from the State police; and 
rarely, but sometimes, it does occur there is assistance from 
the FBI?
    Mr. Balliro. This was highly unusual. It's a very rare case 
that the FBI, in my experience, has been participating so 
intimately in the preparation, investigation and prosecution of 
a criminal--of a State case of homicide. But they were all over 
this one.
    Mr. Delahunt. So they were intimately involved in the trial 
preparation. They were witnesses. They were present when this 
case was being prosecuted?
    Mr. Balliro. That's correct.
    Mr. Delahunt. Thank you.
    Mr. Burton. Well, let me just thank both of you very much. 
You've been very, very helpful. We realize that you're very 
prominent attorneys. And Mr. Wilson, with whom you've worked, 
and I and the rest of the panel wants to thank you very much 
for being here, because I know that it took time out of your 
busy schedules, which in your income brackets is pretty 
expensive.
    So we really appreciate you very much being here and giving 
us information. We would like for you if we have additional 
questions to respond to them in writing if you wouldn't mind.
    Mr. Bailey. Thank you very much.
    Mr. Burton. Thank you very much. We will now go to our 
third panel, which is Mr. Rico. Would you come forward, please?
    [Witness sworn.]
    Mr. Burton. Do you have an opening statement, Mr. Rico?

      STATEMENT OF H. PAUL RICO, RETIRED FBI SPECIAL AGENT

    Mr. Rico. I have no opening statement.
    Mr. Burton. We will go directly to questions then.
    You have heard the statement about the murder which took 
place which involved the conviction of Mr. Salvati. Were you 
aware that he was innocent?
    Mr. Rico. I was aware that he was on trial and he was found 
guilty. That's all I know. I have heard what has transpired and 
I believe that it's probably, justice has finally been done. I 
think he was not guilty.
    Mr. Burton. Were you aware----
    Mr. Rico. I am saying that until I heard the facts, which 
is the first time I have heard the facts is today, that I was 
not convinced that he was innocent until today. I'm convinced 
he was innocent.
    Mr. Burton. Well, you were one of the FBI agents in the 
Boston office at the time. Were you not aware of any of the 
statements or documents that we have been able to uncover 
during our investigation?
    Mr. Rico. I think I caused some of those documents to be 
written. I think I wrote some of those documents, and when I 
identified who I knew from an informant who committed this 
homicide, but as someone has said before, the information is a 
lot different than testimony.
    Mr. Burton. You knew--according to the record, you sent a 
memo to FBI Director Hoover, as I understand it, saying that 
you had been informed that Mr. Deegan was going to be hit or 
murdered?
    Mr. Rico. That's probably true, yes.
    Mr. Burton. And you knew before the fact that was going to 
occur?
    Mr. Rico. We have had several of those things happen in the 
past. I have been involved in warning some of the people that 
have been targeted in the past.
    Mr. Burton. Did you or anybody in the FBI let Mr. Deegan 
know that he was going to be hit?
    Mr. Rico. It's possible because----
    Mr. Burton. Wait a minute.
    Mr. Rico. I want to say to you that normally when we hear 
something like that we try to figure out how we can do 
something to be able to be of assistance, like make an 
anonymous phone call or call the local police department or 
something along that line. I don't know what happened in that 
case. Whether or not someone did notify him or not, I don't 
know.
    Mr. Burton. Did you know Mr. Barboza?
    Mr. Rico. I came to know Mr. Barboza.
    Mr. Burton. Did you know him prior to the Deegan murder?
    Mr. Rico. No.
    Mr. Burton. Did Mr. Condon know him prior to the Deegan 
murder?
    Mr. Rico. No, I don't think he did.
    Mr. Burton. So he was not working with you and he was not 
an informant or anything?
    Mr. Rico. That's right.
    Mr. Burton. How about Mr. Flemmi?
    Mr. Rico. At one time I had Steven Flemmi as an informant. 
He has admitted that before Judge Wolf and all of the contacts 
were exposed between my contacts with him and those contacts 
that were written--were introduced before Judge Wolf.
    Mr. Burton. Did you know he was a killer?
    Mr. Rico. No.
    Mr. Burton. Did you not know he was a killer?
    Mr. Rico. I knew that he was involved in probably loan 
sharking and other activities but, no.
    Mr. Burton. Well, it's testified here by several witnesses, 
including the last two, that it was fairly well known on the 
north side of Boston that he was to be feared and that he was 
killing people, but you in the FBI didn't know about that?
    Mr. Rico. Are we talking about Steven Flemmi or Vincent 
Flemmi.
    Mr. Burton. Vincent Flemmi, Jimmy Flemmi.
    Mr. Rico. Oh, Vincent Flemmi. I think when I was in Boston 
I would have known that Vincent Flemmi had committed homicide.
    Mr. Burton. Did you have any dealings with him?
    Mr. Rico. Not really, no.
    Mr. Burton. Did Mr. Condon have any dealings with him?
    Mr. Rico. I think at one time he might have opened him up 
as an informant, I don't know. I don't personally know.
    Mr. Burton. But neither you nor Mr. Condon knew anything 
about his involvement in the Deegan murder prior to the murder?
    Mr. Rico. I can only speak for myself, and it's possible 
that I had information that he might have been involved or 
going to be involved.
    Mr. Burton. Well, there was a memo from you to FBI Director 
Hoover that was 2 or 3 days prior to the killing that said that 
you had information that Mr. Deegan was going to be hit or 
killed?
    Mr. Rico. Yeah.
    Mr. Burton. Did you not know who was going to be involved 
in that? You did not know Mr. Barboza or Mr. Flemmi was going 
to be involved?
    Mr. Rico. Is that document before me?
    Mr. Burton. Where is that document, Counsel? He would like 
to look at that real quickly, the document that went to FBI 
Director Hoover informing him that there was--it's exhibit No. 
7, in front there.
    [Exhibit 7 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.045
    
    [GRAPHIC] [TIFF OMITTED] T6507.046
    
    Mr. Rico. Seven.
    Mr. Burton. Yes, sir. It's on the second page, the relevant 
part. I think it's right at the top, isn't it? ``according''--
--
    Mr. Rico. ``according to''--this reads like it's a 
microphone, not an informant report.
    Mr. Burton. But it was sent by you to the FBI Director. And 
I guess while----
    Mr. Rico. I don't see where, I don't see where I sent this. 
I can see what it says, but I don't see where I sent it.
    Mr. Burton. It's exhibit No. 7. It was from the head of the 
FBI office there in Boston.
    Mr. Rico. Yeah, right.
    Mr. Burton. So that would not have been you at that time?
    Mr. Rico. No, I have never been the head of the FBI office.
    Mr. Burton. Did you know that Mr. Deegan, was it not 
discussed in the FBI office that Mr. Deegan was going to be 
killed?
    Mr. Rico. I believe it was discussed in a small group, 
probably the supervisor.
    Mr. Burton. So it was discussed?
    Mr. Rico. Yes.
    Mr. Burton. I can't understand if it was discussed----
    Mr. Rico. It probably was discussed as to who should notify 
the police or who should try to contact him.
    Mr. Burton. If you knew that there was going to be this hit 
on Mr. Deegan, would you not have discussed who the proposed 
assassins were going to be? You knew of Barboza and you knew of 
the others, Mr.----
    Mr. Rico. Vincent Flemmi.
    Mr. Burton. Vincent Flemmi. You knew of them. Did you not 
know they were out planning the killing? If you knew and the 
FBI office up there knew enough to send this memo to the FBI 
Director, would you not have known who was going to be involved 
in this?
    Mr. Rico. I'm not sure.
    Mr. Burton. Let me go to exhibit No. 10 real quickly and 
I'll yield to my colleagues. OK. Exhibit No. 10. It says,

    Informant advised that Jimmy Flemmi contacted him and told 
him that the previous evening Deegan was lured to a finance 
company in Chelsea and that the door of the finance company had 
been left open by an employee of the company and that when they 
got to the door Roy French, who was setting Deegan up, shot 
Deegan, and Joseph Romeo Martin and Ronnie Casessa came out of 
the door and one of them fired into Deegan's body. While Deegan 
was approaching the doorway, Flemmi and Joe Barboza walked over 
to a car driven by Tony Stats and they were going to kill Stats 
but Stats saw them coming and drove off before any shots were 
fired.
    Flemmi told informant that Ronnie Casessa and Romeo Martin 
wanted to prove to Raymond Patriarca that they were capable 
individuals and that is why they wanted to hit Deegan. Flemmi 
indicated that what they did was an awful sloppy job.

    [Exhibit 10 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.051
    
    [GRAPHIC] [TIFF OMITTED] T6507.052
    
    Mr. Rico. All right.
    Mr. Burton. That was written by you?
    Mr. Rico. Right, right.
    Mr. Burton. So you had firsthand knowledge about all of 
these individuals?
    Mr. Rico. I did at that time, right. But I didn't know 
Barboza at that time. I'm talking about from the standpoint 
of----
    Mr. Burton. Did you have dealings with him after that?
    Mr. Rico. Yes. Oh, yes.
    Mr. Burton. And you knew that he was involved in this 
murder?
    Mr. Rico. Yes.
    Mr. Burton. And you used him as an informant?
    Mr. Rico. No, I never had him as an informant.
    Mr. Burton. Who did?
    Mr. Rico. I don't think anyone had him as an informant. We 
had him as a witness.
    Would you like me to tell you how he became----
    Mr. Burton. Yes, while we're looking for exhibit No. 4, and 
then I'll yield to my colleagues. But go ahead.
    [Exhibit 4 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.040
    
    [GRAPHIC] [TIFF OMITTED] T6507.041
    
    [GRAPHIC] [TIFF OMITTED] T6507.042
    
    Mr. Rico. He was arrested and was held on $100,000 bail. 
And the organized crime people in New England told the bondsmen 
not to give him the bail money. So they told two of his 
associates if they can collect the money if they need a little 
money to finish it off, to come to a nightclub and they would 
make up the difference so that he could get bailed. When they 
showed up at the nightclub they waited until closing time, they 
counted out the money, it was $85,000 of money, money that they 
had collected. This is allegedly. And they killed Barboza's 
people that were collecting the money. The bodies were found 
over in south Boston and eventually--the Boston police went to 
the nightclub and found a mirror being repaired and they went 
behind the mirror and found where a shot had gone into the 
wall. They matched the bullet that had gone through the glass 
and into the wall and fallen down with the bullet in one of 
Barboza's associates. So that's why when we went to Barboza he 
was interested in trying to find a way to help us and probably 
hurt organized crime. That was his reason for becoming a 
witness.
    Mr. Burton. Because he wanted to hurt organized crime.
    Mr. Rico. Well, he felt that that was his money, the 
$85,000 was his money. I thought he would be more concerned 
about the two people that were killed. But he was more 
concerned about the $85,000.
    Mr. Burton. It seems incredulous that anybody would think 
this guy was concerned about getting rid of organized crime 
when he was a major----
    Mr. Rico. No, what he was concerned about----
    Mr. Burton. Was his money.
    Mr. Rico. Is that he had been told that they were going to 
make up the difference, the bail money, that he was going to 
get bailed out.
    Mr. Burton. Let me make one more statement. Then I will 
yield to my colleague. The Justice Task Force search determined 
that around the time Deegan was murdered Vincent James Flemmi 
was an FBI informant. According to the file maintained in the 
FBI, efforts to develop Flemmi as an informant focus on 
Flemmi's potential as a source began about March 9, 1965. So 
you folks were working with him well before the murders?
    Mr. Rico. I don't recall working with Vincent Flemmi at 
that time.
    Mr. Burton. Do you remember anybody talking about that, 
working with him before the murder? I mean how did they find 
out there was going to be a hit on Deegan and Flemmi did it and 
you guys had him as an informant if somebody in the FBI didn't 
know about it?
    Mr. Rico. There's two brothers, Steven Flemmi and Vincent 
Flemmi.
    Mr. Burton. Yes, but Jimmy Flemmi was an informant before 
this?
    Mr. Rico. Well, he wasn't my informant. He wasn't my 
informant. He might have been Dennis Condon's informant.
    Mr. Burton. But the point is you guys did talk; it wasn't 
that big of an operation that you didn't confide in each other?
    Mr. Rico. No, that is true.
    Mr. Burton. But you didn't know Jimmy Flemmi was an 
informant?
    Mr. Rico. Because that is a clerical matter whether a guy, 
you write him down as an informant or you don't write him down 
as an informant.
    Mr. Burton. Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. Mr. Rico, I am going 
to direct you to exhibit 6. It's entitled U.S. Government 
Memorandum and it's to SAC, and then there's a redaction and 
it's from Special Agent H. Paul Rico. The date is March 15, 
1965.
    [Exhibit 6 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.044
    
    Mr. Rico. Yeah, all right.
    Mr. Delahunt. Do you see that, Mr. Rico?
    Mr. Rico. Yes. And may I inquire a moment maybe of counsel 
and the Chair, but I can't understand why all of the material 
from the FBI has substantial redactions. I would again 
respectfully request the Chair and counsel to inquire of the 
FBI to determine whether this committee should receive, in my 
opinion, but could receive the original materials without 
redactions. It seems earlier in a question posed by Chairman 
Burton that there was some confusion on the part of Mr. Rico as 
to whether he was the author of an error, and this is very 
important obviously.
    Mr. Rico. Right.
    Mr. Delahunt. But I am just going to ask you just one 
question. I want you to read thoroughly the body of the report.
    Mr. Burton. Which exhibit?
    Mr. Delahunt. This is for my colleagues exhibit 6. It is a 
so-called 209, and it is authored by the witness before us and 
it is to the Special Agent in Charge in Boston whose name was 
somehow redacted. For what reason I fail to comprehend. The 
date of the report is March 15, 1965. The date of the contact 
presumably with the informant is March 10, 1965, 2 days prior 
to the murder of Mr. Deegan. And I would ask Mr. Rico to read 
that, take a moment, reflect, because I'm just going to ask him 
several questions.
    Mr. Rico. All right.
    Mr. Delahunt. You have read it and you have had an 
opportunity to digest?
    Mr. Rico. Yes.
    Mr. Delahunt. The question I have for you is, and let me 
read the first sentence. ``Informant advised that he had just 
heard from Jimmy Flemmi, that Flemmi told the informant that 
Raymond Patriarca had put the word out that Edward ``Teddy'' 
Deegan is going to be hit and that a dry run has already been 
made and that a close associate of Deegan's has agreed to set 
him up.''
    My question is who is that informant, Mr. Rico?
    Mr. Rico. I can't tell.
    Mr. Delahunt. You can't tell?
    Mr. Rico. I mean, I don't know.
    Mr. Delahunt. Well, you authored this report, is that 
correct?
    Mr. Rico. Right, I did.
    Mr. Delahunt. I would suggest that this is information that 
is significant. Would you agree with that?
    Mr. Rico. Yes.
    Mr. Delahunt. Is it reasonable to conclude that if you 
received this information, even albeit back in 1965, that this 
is something that would stick with you?
    Mr. Rico. I would have known who it was in 1965, I'm sure, 
but I don't know who that is right now.
    Mr. Delahunt. If I suggested Stevie Flemmi.
    Mr. Rico. I don't think Stevie Flemmi would give me his 
brother as being----
    Mr. Delahunt. You're sure of that, you're under----
    Mr. Rico. I'm under oath and I am pretty confident that 
Steve would not give me his brother.
    Mr. Delahunt. Mr. Chairman, could I request a recess of 
some 4 or 5 minutes.
    Mr. Burton. Yes, I think that all of the members of the 
committee and the guests here can discuss this real quickly. 
Can you come up here to the front? We will stand in recess for 
about 5 minutes.
    [Recess.]
    Mr. Burton. Mr. Rico, we're now back in session and we want 
to make absolutely sure that you understand everything 
thoroughly. Do you understand that if you knowingly provide 
this committee with false testimony you may be violating 
Federal law, including 18 U.S.C. 1001, and do you also 
understand that you have a right to have a lawyer present here 
with you today?
    Mr. Rico. Yes.
    Mr. Burton. You understand all that?
    Mr. Rico. Yes, yes.
    Mr. Burton. And you prefer to go on answering questions 
with your testimony? You're subpoenaed here?
    Mr. Rico. I have had advice of counsel and I'm not taking 
my counsel's advice. I am going to explain to you whatever you 
want to know.
    Mr. Burton. Let me make sure I understand. Your counsel has 
advised you what?
    Mr. Rico. My counsel advised me to take the fifth amendment 
until you people agree to give me immunity. I have decided that 
I have been in law enforcement for all those years and I'm 
interested in answering any and all questions.
    Mr. Burton. Very well.
    Mr. Meehan. Mr. Rico, have you consulted with your lawyer 
in terms of changing your mind and testifying? Have you 
consulted with your lawyer?
    Mr. Rico. Since this hearing has begun?
    Mr. Meehan. Since you decided to testify.
    Mr. Rico. I am not going to get my lawyer to change his 
mind. His opinion was that I should not testify.
    Mr. Burton. And take the fifth?
    Mr. Rico. And that I should take the fifth.
    Mr. Meehan. But have you consulted with him?
    Mr. Rico. No.
    Mr. Burton. But you consulted with him prior to that?
    Mr. Rico. I used to have Jack Irwin.
    Mr. Burton. But you consulted him and he advised you to do 
that prior to you coming here today?
    Mr. Rico. He advised me to take the fifth.
    Mr. Burton. And you have decided to testify?
    Mr. Rico. Right.
    Mr. Burton. Very well.
    Mr. Rico. And also I would like to say that in relation to 
the question that Mr. Delahunt had asked about whether Flemmi 
had provided information on that case, if Steven Flemmi had 
provided the information, I think that before Judge Wolf in 
Federal Court, Steven Flemmi had admitted that he was an 
informant, I took the stand and admitted he was an informant 
and we produced every FD 209 that I had during the period of 
time I was in contact with Steven Flemmi and I don't think this 
was in there. So that's one of the bases for my answering you 
that I don't think Steven Flemmi would provide the information 
about Jimmy Flemmi.
    Mr. Delahunt. But let me just revisit that.
    Mr. Rico. All right.
    Mr. Burton. Go ahead.
    Mr. Delahunt. Thank you, Mr. Chairman. You don't think but 
you're not certain?
    Mr. Rico. Well, I don't have formal certitude, but I am 
pretty sure that this is not Steven Flemmi.
    Mr. Delahunt. OK. If you look back on your career, I'm sure 
you developed a number of informants----
    Mr. Rico. That's right.
    Mr. Delahunt [continuing]. That would have information 
regarding activities of Mr. Deegan and others?
    Mr. Rico. Right.
    Mr. Delahunt. You have had some time, maybe 20 minutes, 
have you given any more thought to----
    Mr. Rico. I don't know who that is. I really can't tell you 
right now. I don't know. I really don't know.
    Mr. Delahunt. You really can't tell us?
    Mr. Rico. No, I don't know.
    Mr. Delahunt. Well, when you got the information, which 
would have been 2 days before the murder, and again I'm 
referring to that one page, Mr. Rico.
    Mr. Burton. This is exhibit No. 6.
    Mr. Delahunt. This is exhibit No. 6.
    Mr. Burton. Excuse me, let me interrupt here, Mr. Delahunt. 
Exhibit No. 6, the date on the top is March 16 and the date of 
contact is March 10. It's down at the bottom. It says exhibit 
6.
    Mr. Rico. Right.
    Mr. Burton. Go ahead.
    Mr. Delahunt. Obviously at that point in time you had 
information through this informant whose name you can't 
remember?
    Mr. Rico. Right.
    Mr. Delahunt. That Edward Deegan was going to be hit?
    Mr. Rico. Right.
    Mr. Delahunt. What did you do with that information at any 
time on the 10th.
    Mr. Rico. I believe that the supervisor would have had the 
person handling Chelsea Police Department disseminate the 
information.
    Mr. Delahunt. What did you do, Mr. Rico?
    Mr. Rico. I would bring it to the attention of my 
supervisor and we would discuss how we could handle this 
without identifying the informant and provide the----
    Mr. Delahunt. Let me go back a bit. You would discuss it. 
Did you discuss it with your supervisor?
    Mr. Rico. I would think I did, yes.
    Mr. Delahunt. Who was the supervisor?
    Mr. Rico. I think it was Jack Kehoe.
    Mr. Delahunt. Jack Kehoe. Is it the same Mr. Kehoe that 
after he left the FBI became the Commissioner of the 
Massachusetts State Police.
    Mr. Rico. Yes, yes.
    Mr. Delahunt. And what was his capacity in the FBI at that 
time as your supervisor?
    Mr. Rico. That was his capacity. He was my supervisor.
    Mr. Delahunt. Was he in charge of the Organized Crime Unit?
    Mr. Rico. Yes.
    Mr. Delahunt. What was the conversation you had with 
Supervisor Kehoe relative to this information?
    Mr. Rico. It's a long time ago and I don't remember. I 
don't remember the conversation in any detail. I just know that 
this is the type of information that----
    Mr. Delahunt. It was good information, wasn't it, Mr. Rico?
    Mr. Rico. I think it was.
    Mr. Delahunt. I think it was proven 2 days later that it 
was very good information?
    Mr. Rico. Yeah, yeah. Unfortunately, right.
    Mr. Burton. Excuse me. If I could interrupt. The date of 
this memorandum is March 15, after Deegan was killed. But the 
date of the contact was March 10. So when you sent this 
memorandum it was after the fact, after Mr. Deegan had been 
killed. It seems to me that it would really ring a bell if you 
had the contact with your informant who in this memo was Jimmy 
Flemmi and then 2 days later he is killed and the memo is then 
sent on the 15th to your supervisor. It seems like that would 
all resonate, one, because you had an informant tell you 
someone is going to be killed. They're killed 2 days later and 
you're sending the memo 3 days after that and you can't 
remember?
    Mr. Rico. Well, I don't know whether these dates are 
accurate or not. I don't know right now whether or not this is 
an actual correct reflection of what happened or not.
    Mr. Delahunt. Mr. Rico, did you type up this memorandum?
    Mr. Rico. No.
    Mr. Delahunt. Did you dictate it?
    Mr. Rico. I think I did.
    Mr. Delahunt. Would that account for the date of March 15 
that you dictated it or was that the day that whomever typed it 
would have memorialized it as we now see this copy?
    Mr. Rico. I can't truthfully answer that. I have no way of 
knowing that.
    Mr. Delahunt. You don't know?
    Mr. Rico. No.
    Mr. Burton. Can we come back to you, Mr. Delahunt, and 
we'll go to Mr. Barr and come back to you in just a minute?
    Mr. Barr.
    Mr. Barr. Mr. Rico, the Department of Justice in January 
1999 created a joint task force, a Justice Task Force. Are you 
aware of that?
    Mr. Rico. Yes.
    Mr. Barr. Have you spoken with them?
    Mr. Rico. No.
    Mr. Barr. Have they attempted to speak with you?
    Mr. Rico. I'm not sure whether they have or not. I mean 
they may have contacted my attorney. I don't know.
    Mr. Barr. Would he be obligated to tell you that?
    Mr. Rico. My attorney? I would think so.
    Mr. Barr. Has he?
    Mr. Rico. I don't recall. I don't recall him specifically 
telling me that.
    Mr. Barr. Have they sent any letters?
    Mr. Rico. No, not that I'm aware of.
    Mr. Barr. This fellow Barboza, did you ever meet him?
    Mr. Rico. Yes, I did.
    Mr. Barr. Did either you or Mr. Condon receive awards or 
letters of commendation for your work with him?
    Mr. Rico. I don't know, I don't know.
    Mr. Barr. You don't know?
    Mr. Rico. No. It's possible, it's possible. I don't know.
    Mr. Burton. Would the gentleman yield real quickly? Did you 
ever receive any gifts or money or anything from Mr. Barboza, 
Mr. Flemmi or any of those people?
    Mr. Rico. No, no.
    Mr. Burton. I thank the gentleman.
    Mr. Barr. Did Mr. Condon receive an award or any 
commendation or his work on the Deegan case?
    Mr. Rico. I don't know.
    Mr. Barr. The communications that we have seen here for; 
example, exhibit 15, I think 7 and 8, but these are what are 
called Airtels between the FBI field offices and headquarters 
here in Washington, DC, and some of these, such as 15, indicate 
that Mr. Hoover himself was aware of this murder before it 
happened and who the suspects and likely perpetrators were 
after the fact. Were you also aware of this murder before it 
happened and who the apparent perpetrators were almost 
immediately following the murder?
    [Exhibits 15, 7 and 8 follow:]

    [GRAPHIC] [TIFF OMITTED] T6507.062
    
    [GRAPHIC] [TIFF OMITTED] T6507.063
    
    [GRAPHIC] [TIFF OMITTED] T6507.064
    
    [GRAPHIC] [TIFF OMITTED] T6507.045
    
    [GRAPHIC] [TIFF OMITTED] T6507.046
    
    [GRAPHIC] [TIFF OMITTED] T6507.047
    
    Mr. Rico. You say it's exhibit 15?
    Mr. Barr. That's one of them.
    Mr. Rico. Yeah.
    Mr. Barr. No. 7 and No. 8 also.
    Mr. Barr. They're the same ones we have looked at earlier 
today. Let me just ask you the question.
    Mr. Rico. All right.
    Mr. Barr. You were aware of the fact that Mr. Deegan was 
going to be murdered, correct?
    Mr. Rico. Yes.
    Mr. Barr. Did you take any steps to prevent that murder 
from occurring?
    Mr. Rico. I believe the office did something to try to do 
something, whether they had called the local police or whether 
they tried to make an anonymous phone call to him, I don't 
know.
    Mr. Barr. Is there any record of that?
    Mr. Rico. I don't know, I don't know. But that's normal 
procedure, although we've had procedures where we've gone out 
and actually told people that they're going to get hit. I have 
done that.
    Mr. Barr. But that didn't happen in this case?
    Mr. Rico. Not in this case, no.
    Mr. Barr. Some of these documents also indicate very 
clearly that FBI headquarters was aware of who the perpetrators 
of the murders were. Were you aware of that?
    Mr. Rico. Aware that headquarters was aware or was I aware 
who the perpetrators were?
    Mr. Barr. That headquarters was aware of that.
    Mr. Rico. If I sent them the information, I suppose they 
would be aware of that, yes.
    Mr. Burton. Could I followup on that, please? Were you 
aware who the murderers were; who were the people who 
participated in the hit?
    Mr. Rico. After it happened?
    Mr. Burton. Yes.
    Mr. Rico. Well, I know that we had versions from informants 
and then we had the Joe Barboza version.
    Mr. Burton. Well, here before us on this March 19, exhibit 
15 that we're talking about--can you help him find exhibit 15, 
please--it states very clearly to FBI Director Hoover, it 
states very clearly that the people who were involved in the 
killing are named. And what I can't understand is if this was 
known by the FBI office, you and the other people there, then 
why was Mr. Salvati tried and convicted and went to jail for 30 
years and was convicted and supposed to be electrocuted? Why 
didn't somebody at the FBI say in every report that we had 
there was evidence that Mr. Salvati had nothing to do with 
this? I mean you had all these FBI agents, obviously they knew 
all this information. They went to J. Edgar Hoover at the 
Bureau's head office and yet this innocent man and some other 
people innocent of this crime went to jail for life and some of 
them died in prison.
    Mr. Rico. Well, informant information is difficult to 
handle and it depends on a lot of different circumstances as to 
how to handle it. It's very easy if you just take whatever 
comes in and you immediately disseminate it.
    Mr. Burton. Let me just interrupt to say that Mr. Barboza 
was a known killer.
    Mr. Rico. Oh, yes, right, he was.
    Mr. Burton. He was the only person who testified at the 
trial that put these people in jail for life and they were 
going to get the death penalty. The FBI had information, you 
had information that other people were involved in the killing 
and yet that never came out in the trial.
    Mr. Rico. That was disseminated to the Chelsea Police 
Department.
    Mr. Burton. Wasn't there an FBI agent that testified there? 
Mr. Condon.
    Mr. Rico. I didn't testify in the case and witnesses were 
sequestered. I never saw Mr. Salvati before today.
    Mr. Burton. You didn't know Mr. Salvati was innocent of 
that crime because of the information that you had in your 
office?
    Mr. Rico. We come up with a witness that's going to provide 
information to local law enforcement. We turn the witness over 
to local law enforcement and let them handle the case. We don't 
have any jurisdiction.
    Mr. Burton. Was this memo turned over to the local police 
along with the informant, Mr. Barboza?
    Mr. Rico. I can't tell you that the information was 
furnished to----
    Mr. Burton. This is exculpatory information. This could 
have kept Mr. Salvati out of jail. I think this alone would 
have created doubt in the mind of the jury that he would have 
gone to jail for 30 years.
    Mr. Rico. Do you think we can send people away on informant 
information alone?
    Mr. Burton. You certainly sent him away on Barboza and he 
was a hitman?
    Mr. Rico. That's not an informant. That's a witness.
    Mr. Burton. He's also a killer who didn't have much 
credibility.
    Mr. Rico. I'm not one of his biggest boosters.
    Mr. Burton. I'm sorry. I took your time. Did you have more 
questions, Mr. Barr?
    Mr. Barr. No.
    Mr. Burton. Let me go to Mr. Shays. Do you have questions? 
I was talking about the gentlelady.
    Mrs. Morella. I do, but I will defer to Mr. Shays.
    Mr. Shays. This is just the first round. And Mr. Rico, I 
have been watching you for the whole day. I have known about 
you for 20 years. You are a person who basically worked for the 
FBI and then worked, in my judgment, for organized crime when 
you worked for World Jai Alai. That is my view of you. My view 
of you is that you sent an innocent man to jail.
    Mr. Rico. Your what?
    Mr. Shays. My view is that you sent an innocent man to jail 
and you knew it. I'm just telling you what I believe. You can 
tell me anything you believe that you want to. I'll tell you 
what I believe. You have been a person on my radar screen for 
years. I never thought you would come before this committee. 
Now you have been here all day long. You have heard what the 
Chelsea police knew. You heard what the Boston police knew, you 
heard what the State police knew. You heard what the FBI, and 
I'm assuming it was you, but frankly I don't even care, told 
Hoover, and I want to know how you think you fit into all of 
that.
    Mr. Rico. I think we supplied the information that we had 
available to the local police department and I think that 
should be our way of disseminating the information.
    Mr. Shays. Let me ask you this. What does it feel like to 
be 76 years old, to have served in the FBI and know that you 
were instrumental in sending an innocent man to jail and you 
knew it. What is it like? What do you feel? Tell me how do you 
feel. I asked what it was like for Mr. Salvati to be in jail. I 
asked what it was like for his wife to know her husband was in 
jail. I want to know what it's like for you.
    Mr. Rico. I have faith in the jury system and I feel that 
the jury should be able to decide the innocence.
    Mr. Shays. This is what's fascinating.
    Mr. Rico. Why? You think you can make a decision as to 
who's innocent?
    Mr. Shays. What's fascinating to me is that if I were you I 
would get down on bended knee in front of this family and ask 
for eternal pardon because even if you somehow didn't know 
about the report of the local police, of the Boston police, of 
the State police, of some documents in the FBI that are 
extraordinary since they come from your office, even if you 
didn't know that then, you know it now, and you don't seem to 
give a shit. Excuse me. You don't seem to care.
    Mr. Rico. Is that on the record?
    Mr. Shays. You know what? I'm happy to have what I said on 
the record. I just hope everything you say is on the record.
    Mr. Rico. Sure, sure.
    Mr. Shays. Because the one thing is you don't seem to care. 
I have been looking at you. You have no remorse about your 
involvement even if you think you weren't guilty. Where is your 
remorse?
    Mr. Rico. I have been in position where I have taken people 
out of jail and to me----
    Mr. Shays. You don't care. Tell me how you feel about Mr. 
Salvati and his wife. I would like to know.
    Mr. Rico. How do I feel about what?
    Mr. Shays. You hold on a second. Let me explain why I'm 
asking. You can shake your head. You can just wait. I wanted to 
know how a retired FBI agent feels about the facts that you 
learned today. Let's assume you didn't know anything about it.
    Mr. Rico. I didn't.
    Mr. Shays. OK.
    Mr. Rico. I never----
    Mr. Shays. I'll make that assumption for this moment in my 
question. I learned about it in the past few weeks. I know what 
it does to me. Why doesn't it affect you the same way? Why 
wouldn't you feel incredible remorse that you had a role to 
play, and you're saying it's ignorance but you had a role to 
play in the fact that an innocent man spent 30 years of his 
life in jail. Why no remorse?
    Mr. Rico. I feel that we have a justice system and however 
it plays out it plays out. I don't think we convict everybody 
that is guilty and I don't think we let everyone go that is 
innocent.
    Mr. Shays. You don't care. Does it bother you that this man 
was in jail for 30 years?
    Mr. Rico. It would probably be a nice movie or something.
    Mr. Shays. So you don't really care about this guy. I'm 
getting to learn a lot about you right now. You don't really 
care that he was in jail for 30 years. Do you care about his 
wife, that she visited him for 30 years?
    Mr. Rico. I do not know everything that Joseph Salvati has 
done in his lifetime. I do not know that he is completely 
innocent of everything. I don't know.
    Mr. Shays. What I didn't understand was that I thought that 
if you were a law enforcement officer and you had that training 
and you carried the badge of an FBI agent, I thought that you 
would care about the fact that you could be guilty of something 
he feels but if you weren't guilty of that crime then you're 
not guilty of that crime. And you're seeming to imply that 
somehow maybe there's something else in his past which is 
typical of what we heard about this case.
    But I'm going to get right back. I'm not going to give up 
quite yet. I just still want to understand. Do you have any 
remorse that Mr. Salvati spent 30 years of his life in jail?
    I can't hear your answer.
    Mr. Rico. There isn't an answer.
    Mr. Shays. You have no remorse. Do you have any remorse 
that his wife spent 30 years visiting him in prison even though 
he was innocent of the crime? I want a word. I want something 
we can put down on the transcript. I don't want ``nods'' or 
something. I want a word from you. Do you have any remorse that 
his wife had to visit him for 30 years in jail even though he 
was an innocent man and even though he was framed by someone 
who testified who was trained by the FBI, was the FBI's 
witness?
    Mr. Rico. Joe Barboza was not trained by the FBI.
    Mr. Shays. I'll retract that. I'll get to that in a second. 
Do you have any remorse about Marie?
    Mr. Rico. Well, I feel sorry that anything like that ever 
happened to anybody.
    Mr. Shays. So you don't feel sorry for the husband?
    Mr. Rico. I feel sorry for anybody that went away----
    Mr. Shays. Do you have any remorse?
    Mr. Rico. Remorse for what?
    Mr. Shays. For the fact that you played a role in this.
    Mr. Rico. I believe the role I played was the role I should 
have played. I believe that we supplied a witness and we gave 
them to the local police and they're supposed to be able to 
handle the case from there on. That's it. I cannot----
    Mr. Shays. So you don't really care much and you don't 
really have any remorse. Is that true?
    Mr. Rico. Would you like tears or something?
    Mr. Shays. Pardon me?
    Mr. Rico. What do you want, tears?
    Mr. Shays. No, I want to understand a little more about an 
FBI agent who served his country. I just want to know how you 
feel. It will teach me something about the FBI. You're going to 
be a representative of the FBI. And so there's really no 
remorse and no tears; is that correct?
    Mr. Rico. I believe the FBI handled it properly.
    Mr. Shays. Why don't you tell me why you think they handled 
it properly?
    Mr. Rico. Because they take whatever information they have 
that is pertinent and they furnish it to the local law 
enforcement agency that has the jurisdiction and let them 
handle it.
    Mr. Shays. You just made a claim that I just don't believe 
is true. How did you disclose this to all the public--how do we 
know and tell me how you disclosed this to the courts and the 
public officials?
    Mr. Rico. Not me, not me personally.
    Mr. Shays. Let me ask you this. The witness on behalf of 
the FBI against this individual, you and your partner Mr. 
Condon, you were both partly responsible for having this 
witness, isn't that true?
    Mr. Rico. For what?
    Mr. Shays. Pardon me?
    Mr. Rico. I'm responsible for what?
    Mr. Shays. Aren't you responsible for the witness that 
testified against Mr.----
    Mr. Rico. We supplied a witness, right.
    Mr. Shays. You supplied a witness.
    Mr. Rico. We supplied a witness.
    Mr. Shays. And that witness didn't tell the truth, did he?
    Mr. Rico. Well, it's easy to say now but it wasn't that 
easy then.
    Mr. Shays. But the witness didn't say the truth, right, the 
witness you supplied did not tell the truth; isn't that 
correct? That's not a hard question to answer.
    Mr. Rico. No, but it's easy to say that now. It's not that 
easy to say that when it was happening.
    Mr. Shays. But you haven't answered the question. Answer 
the question first.
    Mr. Rico. What question?
    Mr. Shays. The question was simply that you have supplied a 
witness who did not tell the truth? Isn't that true.
    Mr. Rico. We supplied the witness. And now that everything 
is said and done it appears that he didn't tell the whole 
truth.
    Mr. Burton. Mr. Shays, can we come back to you?
    Mr. Shays. You sure can. I'm waiting.
    Mr. Burton. Mr. Clay, before I yield to you could I ask a 
question or two?
    Mr. Clay. Yes.
    Mr. Burton. The two attorneys we had up here, Mr. Bailey 
and Mr. Balliro, they testified that the FBI had taped a great 
many phone conversations by reputed members of organized crime 
in the Boston and north Boston area. Is that true?
    Mr. Rico. I would imagine it would be true. If anyone knows 
about organized crime, it would be Joe Balliro.
    Mr. Burton. I am asking you, did the FBI tape any phone 
calls of organized crime figures up in the northern Boston 
area?
    Mr. Rico. I was not in the Boston area at that time.
    Mr. Burton. You were not?
    Mr. Rico. No. I was in Boston in 1970. I left in 1975.
    Mr. Burton. Well, I'm talking about back when----
    Mr. Rico. You're talking about 1980, when they were 
involved in----
    Mr. Burton. I'm talking about back during the time that 
these crimes took place, when Mr. Deegan was killed, when Mr. 
Barboza was killing these people, when Mr. Flemmi was killing 
people. Were there any wiretaps that the FBI was conducting? Do 
you know of any wiretaps that were conducted?
    Mr. Rico. You're talking about legal wiretaps?
    Mr. Burton. Legal wiretaps. You don't know?
    Mr. Rico. You're asking the wrong agent.
    Mr. Burton. Do you know if there were any wiretaps by the 
agency out of that office? Do you know of any wiretaps out of 
that office by the FBI.
    Mr. Rico. During which period of time? When I was there?
    Mr. Burton. No, during the time when Flemmi and Barboza 
were there and Deegan was killed, do you ever remember any 
wiretaps?
    Mr. Rico. I don't know whether we had a wiretap at that 
time. I don't know. I have no idea. I wasn't involved in the 
wiretapping.
    Mr. Burton. You don't know if there were any wiretaps out 
of that office for organized crime up in that area? J. Edgar 
Hoover, nobody ever authorized wiretaps in that area? We'll 
find out if anybody authorized wiretaps.
    Mr. Rico. I'm not trying to tell you if there wasn't any. I 
just don't know myself personally the timing of wiretaps.
    Mr. Burton. But you don't know if there were any wiretaps 
out of that office? Do you know if there were any? You don't 
have to be involved. Do you know if there were any?
    Mr. Rico. I can't remember the timing. This is 35 years 
ago. I can't remember whether they had the wiretaps in 1963 or 
1964 or when.
    Mr. Burton. This isn't the Stone Age we're talking about. 
They did have wiretaps back then.
    And you don't recall the FBI ever using a wiretap to try to 
nab organize crime figures?
    Mr. Rico. The FBI used some wiretaps for intelligence 
information during the period of time that I was in the Boston 
office.
    Mr. Burton. OK. Was it being done on any individuals out of 
the Boston office?
    Mr. Rico. I would think that it's the timing. I cannot 
understand the timing. I cannot comprehend----
    Mr. Burton. Well----
    Mr. Rico [continuing]. The timing of why it----
    Mr. Burton. Well, I think you do comprehend.
    Mr. Rico. Well.
    Mr. Burton. And it was pretty well known, according to 
legal counsel we had and others, that wiretaps were taking 
place, because they were trying to nab organized crime figures, 
and Barboza and Flemmi were two of the biggest contract killers 
in that place, and yet you guys had him as a witness to put 
innocent people in jail, and you're saying you didn't know 
anything about it. You thought that Barboza was a legitimate 
witness at that time.
    Mr. Rico. I'm not a big supporter of Joe Barboza, and I've 
never been a big supporter of Joe Barboza, but he was the 
instrument that we had. He was a stone killer, and he was put 
in a position where he decided he wanted to testify. So we let 
him testify.
    Mr. Burton. Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman. Mr. Rico, what an 
incredulous story. This is truly amazing just sitting here 
listening to some of the details and facts. Just to followup on 
Mr. Shays' questioning, first, did you know beforehand that 
Teddy Deegan had been targeted to be killed?
    Mr. Rico. Evidently, I did.
    Mr. Clay. Evidently?
    Mr. Rico. From the informant.
    Mr. Clay. You did know. And did you know also that Mr. 
Salvati was not involved in the murder itself?
    Mr. Rico. I had never heard of Salvati being involved in 
this case, and so----
    Mr. Clay. That he----
    Mr. Rico. Until he was indicted, right. I never heard of 
him.
    Mr. Clay. You had never heard of him?
    Mr. Rico. I had never----
    Mr. Clay. But you also knew that he did not play a role in 
the murder; correct?
    Mr. Rico. I can't say that.
    Mr. Clay. You cannot say that. Is this standard operating 
procedure for the FBI to withhold evidence from a court of law, 
to know that someone is going to trial and is going to face 
criminal incarceration and to withhold that evidence? Is that 
standard operating procedure?
    Mr. Rico. Standard operating procedure is to take whatever 
information you have and supply it to the local police that 
have the authority in whatever manner is coming up.
    Mr. Clay. But think about the circumstances of Mr. Salvati 
going to trial, facing, I assume, murder charges and being 
convicted, and all the while, the local FBI office, you in 
particular, knowing that this man did not commit that crime. I 
mean, did that ever cross your mind that maybe we should 
intercede to ensure that justice prevails?
    Mr. Rico. There is a time when you're involved in a case 
and you know what's happening, but there are many cases, many 
things happening, and I would say that thinking of Salvati on a 
day-to-day basis probably did not happen.
    Mr. Clay. Well, I'm going to stop there, Mr. Chairman, and 
if I can, can I yield the remainder of my time to Mr. Delahunt? 
Is that permissible?
    Mr. Barr [presiding]. The gentleman from Massachusetts.
    Mr. Delahunt. We thank you, Mr. Chairman. Let's talk about 
bugs for a minute, Mr. Rico.
    Mr. Rico. Sure.
    Mr. Delahunt. And let's use a timeframe of 1960 to 1970.
    Mr. Rico. OK. That's when I was there.
    Mr. Delahunt. Right. Are you familiar with a bug that was 
placed in the office of Raymond Patriarca, Jr.?
    Mr. Rico. Absolutely not. I was familiar with a bug placed 
in Raymond Ellis Patriarca, Sr.
    Mr. Delahunt. Senior. I thank you for correcting me.
    Mr. Rico. Right.
    Mr. Delahunt. Did you have anything to do with placing that 
bug there?
    Mr. Rico. No.
    Mr. Delahunt. No. Do you know who did?
    Mr. Rico. No.
    Mr. Delahunt. You don't know. But you knew that there was a 
bug?
    Mr. Rico. Oh, yes. Oh, yes. I knew that.
    Mr. Delahunt. Was that particular bug authorized by a court 
order?
    Mr. Rico. I can't tell you that. I don't know. I don't know 
whether it was a court order or not. I can tell you when it was 
removed.
    Mr. Delahunt. When was it removed?
    Mr. Rico. Oh, God. A new attorney general came in, and they 
removed them all across the country. I don't remember who it 
was right now.
    Mr. Delahunt. So a new attorney general could very well 
have made the decision that it was a black-bag job, it was an 
illegal wiretap?
    Mr. Rico. I think that the new attorney general wanted 
nothing to do with these bugs.
    Mr. Delahunt. These bugs. I'd request counsel to--if he 
could, to supply us with what available documents the FBI has 
regarding the Raymond Patriarca, Sr. bug and who was 
responsible for planting this bug within that office.
    You know, in terms of the--you're right, and I think 
there's some misunderstanding relative to terms that we're 
using here today. Barboza was not an informant----
    Mr. Rico. No.
    Mr. Delahunt [continuing]. For you?
    Mr. Rico. No.
    Mr. Delahunt. But Barboza was--I think your words were, you 
supplied the witness, and the witness was Joseph Barboza.
    Mr. Rico. Right.
    Mr. Delahunt. Now----
    Mr. Barr. Excuse me. The time of the gentleman from 
Massachusetts has expired. We'll come back to Mr. Delahunt in 
just a few minutes. The chair recognizes the gentlelady from 
Maryland for 5 minutes.
    Mrs. Morella. Thank you, Mr. Chairman.
    Mr. Rico, I've been looking at some of the evidence that 
has been put together in some of the booklets that we have, and 
I was noting that on exhibit 10, there is a memorandum from 
you, which describes the Deegan murder and identifies the 
killers. Were you satisfied that the informant provided 
accurate information to you? I'll give you a chance to look at 
that, sir. 65.
    Mr. Chairman, don't count that on my time.
    [Exhibit 10 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.051
    
    [GRAPHIC] [TIFF OMITTED] T6507.052
    
    Mr. Rico. Yes. Yes. I consider that accurate.
    Mrs. Morella. You do.
    Mr. Rico. Right.
    Mrs. Morella. You do not? You do consider that accurate?
    Mr. Rico. I consider--it seems to be accurate information. 
Right.
    Mrs. Morella. Do you believe that the informant correctly 
identified Deegan's killers?
    Mr. Rico. The problem with being absolutely certain on the 
informant information is that the informant may be telling you 
exactly what he learned. You see, the informant advised that 
Jimmy Flemmi contacted him and told him, when you get into 
Jimmy Flemmi telling something to an informant, you're now a 
step away from having the certitude that you would have if the 
informant learned this from somebody else. Jimmy Flemmi, I 
would say, would not be that reliable an individual and has a 
propensity to put himself involved in crimes.
    Mrs. Morella. But because of the information that you had 
received since October 1964 regarding Vincent Flemmi wanting to 
kill Deegan, was there any doubt in your mind that Flemmi was 
involved in Deegan's death?
    Mr. Rico. I'm sorry. I don't understand.
    Mrs. Morella. I just wondered was there any doubt in your 
mind that Flemmi was involved in Deegan's death because of the 
information you received after October 1964? I mean, did you 
have any doubt----
    Mr. Rico. It seemed logical to be involved, yeah.
    Mrs. Morella. OK. Right. So you really didn't have any 
doubts that Flemmi was involved.
    Mr. Rico. Well, I always had some doubts when Flemmi was 
involved in anything.
    Mrs. Morella. Remote. Few doubts. Did you have information 
at this time that Joe Salvati was involved in Deegan's murder?
    Mr. Rico. I never received any information that Salvati was 
involved in the Deegan murder.
    Mrs. Morella. Did you or anyone else in the FBI office 
question any of the individuals that were identified as 
participants in Deegan's murder?
    Mr. Rico. I'm sorry. I'm not getting it.
    Mrs. Morella. Now, did you or anyone else in the FBI office 
question any of the individuals that were identified as 
participants in Deegan's murder?
    Mr. Rico. Let me see.
    Mrs. Morella. Did you question any of the individuals that 
were identified as participants?
    Mr. Rico. Only Joe Barboza.
    Mrs. Morella. Page 2 of the memorandum you wrote, you wrote 
that this information was passed to Captain Robert Renfrew of 
the Chelsea Police Department.
    Mr. Rico. Right.
    Mrs. Morella. Did you did pass this information to Captain 
Renfrew?
    Mr. Rico. No, Don Shannon did that.
    Mrs. Morella. So he did that. Was Captain Renfrew given any 
additional information that was not included in this exhibit 
10?
    Mr. Rico. Was he given any additional information?
    Mrs. Morella. Right, additional information that was not 
included.
    Mr. Rico. I don't know. I don't know whether he was or not, 
because if Shannon gave it to him, he might have given him 
other information----
    Mrs. Morella. The FBI office in Boston has recently claimed 
that your statement proves that the FBI shared this information 
with local law enforcement. Do you agree with this statement?
    Mr. Rico. Yes. I think that pretty well covers it.
    Mrs. Morella. Exhibit 11 is a Chelsea police report about 
the Deegan murder. On Page 3, the report identifies seven men 
who left the Ebb Tide Restaurant around 9 p.m. on the night of 
the murder and returned around 11 p.m. One of those identified, 
Romeo Martin, allegedly said to Roy French, ``we nailed him.'' 
The report said, this information came from Captain Renfrew, 
who was also supposed to have received the information from the 
FBI. Have you seen that report before?
    Mr. Rico. I haven't seen the report before, and I wouldn't 
know if he is still in the Chelsea Police Department or not.
    Mrs. Morella. So did you mention anything about the Ebb 
Tide to Captain Renfrew?
    Mr. Rico. I'm aware of the Ebb Tide. We used to--it was 
there when I was around, but I don't--can't tell you about 
Renfrew and the Ebb Tide.
    Mrs. Morella. Did you talk to Captain Renfrew that Francis 
Imbuglia, Nicky Femia or Freddy were with the others the night 
of the murder?
    Mr. Rico. I have seen Captain Renfrew on a number of 
occasions, but I don't recall having any discussion about this 
case with him.
    Mrs. Morella. I wanted to kind of set up that list of 
questions, and I'll get back to you, Mr. Rico, but I do want to 
say from having been here at the beginning, that I wish we 
could give back 30 years of life to a happily married couple, 
and my heart goes out to them----
    Mr. Rico. Sure.
    Mrs. Morella [continuing]. For--they represent the old 
school virtues that I think I grew up with, too: that you make 
the best with what you've got and always remember family. Thank 
you. I yield back.
    Mr. Barr. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Delahunt. Thank you, Mr. Chairman. I asked you earlier 
about the fact that you stated that Barboza was not your 
informant?
    Mr. Rico. Right.
    Mr. Delahunt. But that you did cultivate him as a witness?
    Mr. Rico. Actually, that's true. We----
    Mr. Delahunt. That's fine----
    Mr. Rico. Comes from a period of time where he wants to be 
an informant. We don't want him as an informant. We want him as 
a witness.
    Mr. Delahunt. Right. I understand that, and you were 
successful in convincing him to be a witness?
    Mr. Rico. Right.
    Mr. Delahunt. What induced him to become a witness?
    Mr. Rico. The fact that they banged out two of his partners 
and stole $85,000. They had collected for his bail. He stopped 
by the Night Light for them to make up the difference, and they 
counted it out and killed them.
    Mr. Delahunt. And that was the exclusive motive for his 
cooperation with law enforcement?
    Mr. Rico. Well, I thought he was going to be angry because 
they killed his two friends, but----
    Mr. Delahunt. But it was the money?
    Mr. Rico. But he was angry, because it was his money----
    Mr. Delahunt. It had nothing to do with the fact that he 
seemed to escape prosecution for a variety of crimes?
    Mr. Rico. Well, he wasn't really being held on a very 
serious crime, because it was--the bail was $100,000, but I 
don't think----
    Mr. Delahunt. Did he do----
    Mr. Rico. I don't remember what the crime was.
    Mr. Delahunt. But given his record, in fact, he--let me 
suggest this.
    Mr. Rico. Yeah.
    Mr. Delahunt. That at one point in time, the Suffolk County 
district attorney's office brought--before filed a charge, 
charging him with being a habitual offender.
    Mr. Rico. Could have been, yeah.
    Mr. Delahunt. Now, you know and I know, Mr. Rico, that that 
carries with it a substantial penalty.
    Mr. Rico. Sure.
    Mr. Delahunt. Did you ever have any conversations with Joe 
Barboza, relative to recommending that he not be prosecuted, or 
at least he serve no time for crimes that he had been charged 
with?
    Mr. Rico. On that matter, Gary Byrne, as you know, is the 
district attorney of Suffolk County at that time.
    Mr. Delahunt. Uh-huh.
    Mr. Rico. Told me that I could tell him that whatever 
cooperation he gives will be brought to the attention of the 
proper authorities.
    Mr. Delahunt. Right.
    Mr. Rico. He says you can't tell him anything more or 
anything less. That's exactly what you can tell him, and that's 
what I told him.
    Mr. Delahunt. And that's what you told him?
    Mr. Rico. Yes.
    Mr. Delahunt. Was Dennis Condon with you?
    Mr. Rico. I am sure he was.
    Mr. Delahunt. Because the practices of the FBI is such that 
there are always two agents working together.
    Mr. Rico. Hopefully right.
    Mr. Delahunt. In terms of interviewing witnesses.
    Mr. Rico. Right.
    Mr. Delahunt. Well, you did supply the witness to the 
appropriate authorities?
    Mr. Rico. I didn't----
    Mr. Delahunt. The Commonwealth of Massachusetts, Suffolk 
County district attorney's office?
    Mr. Rico. Right. Right.
    Mr. Delahunt. Did you supply the report that you and I 
discussed earlier that you filed as a result of a contact on 
March 10th? Did you provide that report to the appropriate 
authorities?
    Mr. Rico. I think we did. I think we notified Chelsea. I 
think that was the appropriate authority at that time.
    Mr. Delahunt. Well, let me go back to a question that I 
posed to Mr. Balliro earlier. While the Suffolk County district 
attorney's office was prosecuting the case, given the very high 
profile of that case, it was a headliner back in the mid 
1960's, because it obviously had charged a number of 
individuals alleged to be major organized crime figures. You 
played, and Dennis Condon played, and State police played, and 
Chelsea Police played, and Boston Police played an active role 
in the investigation at preparation for trial?
    Mr. Rico. No.
    Mr. Delahunt. No?
    Mr. Rico. We were not involved in the--to my knowledge, in 
the preparation of the trial or in the investigation. I had 
never been to the scene of the homicide. I had never----
    Mr. Delahunt. When you say we, do you mean yourself and 
Dennis--Mr. Condon?
    Mr. Rico. Right.
    Mr. Delahunt. Are you aware that Mr. Condon testified at 
the trial?
    Mr. Rico. Oh, yes. Yes.
    Mr. Delahunt. And you're telling me and members of this 
committee that he wasn't involved in the preparation and the 
trial of the case? Why don't you take a moment and refresh your 
memory.
    Mr. Rico. Well, it depends on what you're talking about 
preparation. I think that we made Barboza available at a time 
when they came to interview him, we would be there, but it 
wasn't as if we're directing the investigation----
    Mr. Delahunt. But you heard----
    Mr. Rico. It's a----
    Mr. Delahunt. I----
    Mr. Rico. And we're trying to be cooperative with him.
    Mr. Delahunt. I understand it's their investigation, but 
let's be very candid. The FBI and the director of the FBI, Mr. 
Hoover, had a major interest in organized crime in New England?
    Mr. Rico. Eventually, he did. Right.
    Mr. Delahunt. And the people that were indicted, with the 
exception of Mr. Salvati, were alleged to be major organized 
crime figures. Is that a fair statement?
    Mr. Rico. They were organized crime figures.
    Mr. Delahunt. They were organized crime?
    Mr. Rico. Right.
    Mr. Delahunt. And you mean to tell myself and members of 
this committee that you followed this case from a distance, and 
you really weren't intimately involved in one of the cases that 
the Director of the FBI had prioritized?
    Mr. Delahunt. And, Mr. Rico, you were a well-known agent. 
You were decorated. You spent your career with organized crime 
figures, developing information.
    Mr. Rico. In a different way than Bear did, right.
    Mr. Delahunt. Well, I'm going to ask that that statement be 
struck from the record and expunged, because the Bear isn't 
here.
    Mr. Rico. Right.
    Mr. Delahunt. I'm asking you the questions----
    Mr. Rico. Right. OK.
    Mr. Delahunt [continuing]. Mr. Rico, OK?
    Mr. Rico. I am not----
    Mr. Barr. Excuse me, Mr. Rico. Statements can't just be 
struck.
    Mr. Rico. What's that?
    Mr. Barr. I'm saying that statements just can't be struck 
from the record. Just because somebody isn't here who's name is 
mentioned. Your time is expired, and we'll now turn to the 
gentleman from Ohio. Mr. LaTourette is recognized for 5 
minutes.
    Mr. LaTourette. Thank you, Mr. Chairman. Mr. Rico, I want 
to pick up where my friend from Massachusetts left off, and 
that is, not only did--and Mr. Condon--Special Agent Condon 
testify, but also Special Agent Bolin testified at the trial of 
these defendants. Are you aware of that?
    Mr. Rico. What trial?
    Mr. LaTourette. The trial that brings us all together here, 
the Salvati trial, the trial involving the murder of Deegan. 
Did you know a Special Agent Bolin?
    Mr. Rico. No.
    Mr. LaTourette. Apparently----
    Mr. Rico. I think I do.
    Mr. LaTourette. Apparently he's credited with discrediting 
the alibi of one of the co-defendants in the case, and that 
letter, I think, after everyone is convicted on July 31st, a 
report goes up to headquarters, recommending commendations for 
you, Special Agent Condon, and Special Agent Bolin. Does any of 
that ring a bell to you?
    Mr. Rico. Well, I can remember Special Agent Bolin now, but 
I didn't know what degree he was involved in the case.
    Mr. LaTourette. OK. There came a time when you and Special 
Agent Condon went up to--is it Walpole prison?
    Mr. Rico. Yes.
    Mr. LaTourette. To interview Mr. Barboza?
    Mr. Rico. Yes.
    Mr. LaTourette. And that was before the trial of Mr. 
Salvati and the defendants in the Teddy Deegan murder, was it 
not?
    Mr. Rico. Yes.
    Mr. LaTourette. And during the course of that interview, 
you wrote a report back to your superiors, and in that report, 
you indicated that Mr. Barboza, as kind of a valuable witness, 
or could be, because he knows anything on any murder that's 
occurred in the minority east but he makes clear to you and 
your partner during the course of that interview that he's not 
going to give up Jimmy Vincent Flemmi. Do you remember that?
    Mr. Rico. Yes.
    Mr. LaTourette. OK. And the question I have to you is, 
then, that at the time that Mr. Salvati and his co-defendants 
go to trial, you have, as a result of your investigation, the 
information that you have received--and if not you personally, 
I assume that you just didn't gather information as a special 
agent and keep it to yourself. There would be dialog in Boston 
office, wouldn't there? You and Mr. Condon certainly talked, 
did you not, Special Agent Condon?
    Mr. Rico. Yes.
    Mr. LaTourette. OK. At the time these fellows went to 
trial, you had received confidential information from an 
informant that James Vincent Flemmi wanted to kill Deegan. 
Isn't that correct? Or said that he wanted to kill him. Right?
    Mr. Rico. Yes. Yes.
    Mr. LaTourette. OK. You also had information that Vincent 
Flemmi--or the claim was that Vincent Flemmi did, in fact, 
participate in the killing of Teddy Deegan.
    Mr. Rico. Yes.
    Mr. LaTourette. You also had information in your position 
or the office did that Joe Barboza participated in the homicide 
of Teddy Deegan?
    Mr. Rico. Yes.
    Mr. LaTourette. Prior to the trial. And then you also had 
information from this interview at Walpole Prison that Barboza 
would never give up Jimmy Flemmi.
    Mr. Rico. Right.
    Mr. LaTourette. OK. Given all that information--and I 
understand what you said that you handed it over to the local 
police and the prosecuting agencies and so on and so forth, but 
going back to Mr. Delahunt's question, or maybe it was Mr. 
Barr, certainly the FBI office in Boston is not just a casual 
observer of this--you know, it's not--while it's interesting 
that there's a trial going on and we'll get back to you, it was 
so interesting that the minute it's over on July 31st, a report 
goes to headquarters saying that all are convicted.
    Given all of those things that were within your knowledge, 
I mean, did you have any qualms back in 1968 about putting Joe 
Barboza or knowing that Joe Barboza was going to be the sole 
and only testimony against Joe Salvati, and potentially put him 
on death row? Did that cause you any--I'm not talking today. 
I'm talking back in 1968.
    Mr. Rico. I was not aware of all of the ramifications of 
the case itself.
    Mr. LaTourette. Maybe not, but you were aware of all of the 
things I went through--the five or six things I just went 
through with you.
    Mr. Rico. Right. Right.
    Mr. LaTourette. And none of that caused you any concern or 
qualm about the witness that you supplied--not you personally, 
but your office, and you were the handler, that this was the 
only testimony against not only the other court defendants but 
Mr. Salvati, who we now know had nothing to do with it?
    Mr. Rico. Uh-huh.
    Mr. LaTourette. That he could go on death row on the basis 
of this testimony? As an experienced law enforcement officer, 
isn't that shaky, even by confidential informant standards?
    Mr. Rico. Well, there isn't any good answer to that.
    Mr. LaTourette. I don't think there is a good answer to 
that, because I think that the answer is that it was real 
shaky. The last thing I want to ask you is that I think I saw 
you sitting here during the course of the hearing today, and 
you're pretty much aware of the theory of this hearing, if you 
will, or the observations that people are making, and that is 
that the FBI office in Boston, MA was willing to sacrifice 33 
years of a man's life, separate him for 33 years from his wife 
and his children, to protect a guy nicknamed ``the Animal,'' a 
cold-blooded killer, so that the mob could be penetrated and 
brought down. And I just would like to have your observation as 
to the accuracy of that theory.
    Mr. Rico. I don't think that the FBI was interested in 
saving Joe Barboza from anything. Joe Barboza was an instrument 
that you could use. If he was involved in a crime and it was 
something that could be prosecuted, that was fine, but there 
was no--we didn't think he was a knight in shining armor.
    Mr. LaTourette. I know you don't but----
    Mr. Rico. We did not think he should have been in the 
foreign service or anything. We just tried to use him----
    Mr. LaTourette. Right.
    Mr. Rico [continuing]. For obtaining information and 
evidence of crimes.
    Mr. LaTourette. If Mr. Barr would just let me complete this 
thought. But when you say ``weren't interested in protecting 
him from anything,'' the testimony before the panel is that the 
Witness Protection Program in the U.S. Government was 
established and begun for Mr. Barboza.
    Mr. Rico. Well, the--also I'd like to clear up that Santa 
Rosa situation. We did go out there and testify that he had 
been a witness. That's all we testified to.
    Mr. LaTourette. Thank you. Thank you, Mr. Barr.
    Mr. Barr. The gentleman from Connecticut, Mr. Shays, is 
recognized for 5 minutes.
    Mr. Shays. I don't understand a lot of things, Mr. Rico. I 
don't understand your lack of remorse. It just seems cold. It's 
kind of what I think in other people, not an FBI agent. But 
with Mr. Salvati, because of your star witness, your prized 
witness, he was found guilty of a crime he didn't commit, and 
you ended up deciding to go to California, you and Mr. Rico and 
Mr. Harrington and Mr. Condon. Why did all three of you go to 
California?
    Mr. Rico. We were subpoenaed.
    Mr. Shays. You all three were?
    Mr. Rico. We were subpoenaed and the Attorney General of 
the United States authorized us to testify.
    Mr. Shays. OK.
    Mr. Rico. And that's what----
    Mr. Shays. What was your testimony? Are you under oath 
telling us that you just went to say he was a witness, or were 
you here to say he was a good witness? Did you characterize him 
in any way at that hearing?
    Mr. Rico. I think we indicated that he had been a witness 
in three separate trials back in Massachusetts, one of which 
everyone was found not guilty.
    Mr. Shays. Right. And isn't it true that besides saying 
that he was a witness, you were also saying that he was a 
reliable witness?
    Mr. Rico. No. No, no.
    Mr. Shays. So you didn't, in any way in California, 
characterize the quality of his testimony?
    Mr. Rico. My memory is that we just testified that he was a 
witness on three different cases back in Massachusetts.
    Mr. Shays. Tell me what you thought of him as a witness.
    Mr. Rico. As a witness?
    Mr. Shays. Yeah.
    Mr. Rico. Well, the case that we're interested in here, I 
was not----
    Mr. Shays. Just in general. Just in general, tell me what 
you thought of Mr. Barboza as a witness.
    Mr. Rico. I thought that he was convincing, that he was 
there at the scene of a crime. If he was a participant in the 
crime.
    Mr. Shays. What would have convinced you that he would have 
told the truth? I mean, he was a notorious contract killer. 
That you knew. Correct? You knew he was a contract killer?
    Mr. Rico. He testified to that.
    Mr. Shays. And you knew that he was a--see, the thing is 
even though he--if he testifies to that, I don't know if you're 
willing to acknowledge he knew it. You knew he was a contract 
killer?
    Mr. Rico. I don't know if I knew he was a contract killer 
before he testified. I knew he was a killer, but I knew he was 
a contract killer till after he testified.
    Mr. Shays. Did you have any doubts that he was a contract 
killer?
    Mr. Rico. Not after he testified, no. Convincing----
    Mr. Shays. And what you're saying to us is that when you 
all--didn't you have conversations with Mr. Barboza before he 
testified?
    Mr. Rico. Sure. Yes.
    Mr. Shays. Of course. Of course you did.
    Mr. Rico. Yes.
    Mr. Shays. And you're not a naive FBI agent. That's the one 
thing I'll give you credit for.
    Mr. Rico. I'm not a what?
    Mr. Shays. You're not a naive FBI agent. You're a pretty 
wily guy and you knew a lot of stuff, so I'll give you credit 
for that and so did Mr. Condon. So in the course of your 
conversation, you were testifying to us that in all your 
conversations with Mr. Barboza, you did not know that he was a 
contract killer until he testified under oath?
    Mr. Rico. Well, no. When he told us the contract that he 
was asked to execute for Raymond Patriarca, that's when I 
became aware.
    Mr. Shays. So you knew before he testified that he was a 
contract killer?
    Mr. Rico. Yes. Right.
    Mr. Shays. But before you said you didn't know until he 
testified. And so I just want to see which story----
    Mr. Rico. It was until----
    Mr. Shays. No. Which story----
    Mr. Rico. Came up.
    Mr. Shays. I didn't say when the subject came up. I didn't 
do that. You're starting to say things that I didn't say. I 
asked you a question.
    Mr. Rico. Right.
    Mr. Shays. Of whether you knew he was a contract killer, 
and under oath. You said you didn't know until he testified. 
And now you're saying something different. Now you're saying 
you knew before, and the reason you're saying you knew 
something before is because I happened to ask you the question, 
and it conflicts with what you said earlier. The fact is, you 
had many conversations with this gentleman; correct?
    Mr. Rico. I had some conversation with him. Yeah. Right.
    Mr. Shays. More than two or three?
    Mr. Rico. Right.
    Mr. Shays. He was a witness that you turned against 
organized crime and be supportive of going after organized 
crime. He was one of the witnesses you turned. He was a crook, 
and now he was going after crooks. Isn't that true?
    Mr. Rico. Yes.
    Mr. Shays. OK. And the FBI took some pride in the fact that 
they had this witness who was now--we had successfully turned 
to go after organized crime, and the fact is, Mr. Rico, you 
knew he was a contract killer before he testified. Isn't that 
true?
    Mr. Rico. From interviewing him, I knew, yes.
    Mr. Shays. Yes. OK. Well, it's just good to have you say 
that. So I should believe that testimony, not the part when you 
answered the question and said you didn't know until after he 
testified. So OK.
    Mr. Rico. After he agreed to testify?
    Mr. Shays. Pardon me?
    Mr. Rico. After he agreed to testify. After he agreed 
that--to testify, then----
    Mr. Shays. So now you're----
    Mr. Rico. The debriefing him comes out----
    Mr. Shays. So you knew he was a contract killer, and you 
knew this contract killer was--had testified against Mr. 
Salvati; correct? You knew he testified and five other 
individuals. Isn't that correct?
    Mr. Rico. Right.
    Mr. Shays. OK. So you knew he had testified--you knew this 
contract killer was testifying against these six witnesses. 
What made you think he was telling the truth?
    Mr. Rico. Because I think the--I thought that the fear of 
perjury----
    Mr. Shays. Excuse me. You need to get close to the mic.
    Mr. Rico. I would think that the fear of perjury would 
prevent him from lying.
    Mr. Shays. Why would you think the fear of perjury would 
prevent him from lying?
    Mr. Rico. I don't know. I had to think something. So that's 
what I thought.
    Mr. Shays. No. I think that's an honest answer. I think 
your character is coming through. You think you had to say 
something. So in fact you really couldn't be certain he was 
telling the truth?
    Mr. Rico. No. I don't think I could be certain that he's 
ever telling the truth.
    Mr. Shays. Right. OK. But he was a witness, and you and Mr. 
Condon were involved in turning this witness around; correct? 
Turning him against the mob, whereas before he worked for the 
mob?
    Mr. Rico. I don't think it was us as--that turned him. I 
think the fact that they killed his associates and took his 
money.
    Mr. Shays. Right, but you----
    Mr. Rico. Turned. But I happened to be there when----
    Mr. Shays. Were you the FBI agents that basically were 
responsible for convincing Mr. Barboza that he would be better 
off testifying against organized crime?
    Mr. Rico. All we're trying to convince a lot of people 
that, yes, and he was one of them.
    Mr. Shays. I know that and he was one of them and you 
succeeded with him and failed with others. Isn't that true?
    Mr. Rico. Well, we succeeded with some others too.
    Mr. Shays. OK you succeeded with some others too. In the 
end, the answer to the question--the answer to the question is, 
yes, you succeeded----
    Mr. Rico. Yes.
    Mr. Shays [continuing]. In turning him around? OK. What 
made you feel comfortable that the testimony that he gave 
against these six individuals was accurate, given the fact that 
you had information that it was people other than these six? Or 
at least four of them weren't guilty. Given the fact you knew 
of information that never brought Mr. Salvati into this case 
and three others, what made you think that he was telling the 
truth?
    Mr. Rico. I had no way of knowing he wasn't telling the 
truth, except informant information.
    Mr. Shays. No. No, but----
    Mr. Rico. And informant information, I don't know whether 
that's true.
    Mr. Shays. So--but you acknowledge that you had informant 
information, not Mr. Barboza, but informant information that 
conflicted with what Mr. Barboza said on the trial----
    Mr. Rico. I can tell you--I'm under oath and can tell you 
that I have known some informants that have supplied 
information that hasn't been true.
    Mr. Shays. I understand that. I understand, but that's not 
what I asked. So you answered something you wanted to answer, 
but you didn't answer the question.
    Mr. Rico. What's the question?
    Mr. Shays. The question was that you had information from 
informants that conflicted with the testimony of Mr. Barboza?
    Mr. Rico. Right. Right.
    Mr. Shays. Why did you decide to go along with Mr. Barboza 
and not with the testimony from--excuse me, the information you 
had from your informants?
    Mr. Rico. I was not handling the case. This was a local 
case that was being handled by the local authorities.
    Mr. Shays. You're not testifying under oath, are you, Mr. 
Rico, that you had no conversations with Mr. Barboza about this 
case? So your testimony, you had no discussion with Mr. Barboza 
about this case?
    Mr. Rico. About this case?
    Mr. Shays. Yes.
    Mr. Rico. I had conversations in the past about this case.
    Mr. Shays. October. You had many conversations.
    Mr. Rico. Right?
    Mr. Shays. Isn't that true? So when you say you weren't 
involved in this case, you had conversations with Mr. Barboza 
about the case informing Mr. Salvati and five other witnesses. 
You had conversations. So you can't say you weren't involved in 
the case. How can you say that? This is your witness. So tell 
me how you can make that claim?
    Mr. Rico. Because we indicate to the Boston Police 
Department that we have this witness, and they come and 
interview him.
    Mr. Shays. No. But you also told me something more. You 
told me something more. You told me that you had a witness that 
had spoken to you about this case. Correct?
    Mr. Rico. I have a witness that spoke----
    Mr. Shays. Mr. Barboza talked to you about this case?
    Mr. Rico. Yes.
    Mr. Shays. Yes? Correct? And then you supplied this witness 
to the local authorities and the State authorities. Isn't that 
true?
    Mr. Rico. We----
    Mr. Shays. I want an answer to my question.
    Mr. Rico. I didn't hear the whole question.
    Mr. Shays. Well, I'll say it again.
    Mr. Rico. All right. Say it again.
    Mr. Shays. You spoke with Mr. Barboza about this case 
involving Mr. Salvati and five other witnesses. You had a 
number of conversations with Mr. Barboza about this case. 
You've already said that's correct. And I am asking you the 
question now, isn't it true that you then contacted local 
authorities and State authorities and said you had a witness 
who had information about this case?
    Mr. Rico. Yes.
    Mr. Shays. OK. What I want to know is why were you willing 
to supply only that part of the information and not the part to 
the State and local authorities about the informants you had?
    Mr. Rico. I'm not sure we didn't say something about that 
also. We might have said something about that.
    Mr. Shays. You might have said it. Is that your testimony 
that you did?
    Mr. Rico. What?
    Mr. Shays. Is your testimony that you did notify them about 
the informants who had a different story than the witness? 
You've got an informant and you've got a witness. What----
    Mr. Rico. I have no--I actually have no clear recollection 
of telling the local authorities of that informant 
information----
    Mr. Shays. Why not? Why didn't you tell them about what the 
informant said that conflicted with what your witness said?
    Mr. Burton [presiding]. Would the gentleman yield? Well, 
the thing is, he has, as you know, selective memory loss.
    Mr. Shays. But----
    Mr. Burton. But he's continuing to say that, you know, he 
doesn't remember, that he can't remember----
    Mr. Shays. No. But what he did say under oath is very 
clear. He said that he had information about what the informant 
said and he had information about what the witness said. He had 
both two different stories, and I want to know why you decided 
to give the local police, the State police information that 
your witness had and not provide information about what the 
informant had that you knew of. It conflicted----
    Mr. Rico. Because the informant told me that 2 years--2-1/2 
years before, this witness arrives on the scene.
    Mr. Shays. So what?
    Mr. Rico. So----
    Mr. Shays. So I would believe their story more. You've 
already told me that your witness is a notorious criminal. You 
acknowledge the fact that he killed people. You acknowledged 
the fact that he was a hit person. He, in fact, even told you 
that. You told me that you couldn't be sure he--no. Hold on. 
You already told me you couldn't be sure he would tell the 
truth, and yet you decided to only supply some information to 
the authorities that were going to prosecute. And then you give 
this incredible lame comment that the informants told you 2 
years earlier. To me, that's even more important. They told you 
2 years earlier. Why didn't you give them that information 2 
years earlier?
    Mr. Rico. 2 years earlier we supplied that information to 
the Chelsea Police Department. They had jurisdiction over this 
case.
    Mr. Shays. Well, the bottom line is, you have no remorse. 
You didn't provide information you should have. I think you 
should be prosecuted. I think you should be sent to jail. 
That's what I think. I'd like to ask a few more questions, if I 
might. I'll be happy to take my time.
    Mr. Burton. OK. You said a minute ago that you did supply 
this information to the Chelsea Police Department----
    Mr. Rico. Right.
    Mr. Burton [continuing]. About the informant as well as the 
witness. Right?
    Mr. Rico. Yes. It was supplied by Don Shannon to Robert 
Renfrew.
    Mr. Burton. So you're saying that the Chelsea Police had 
information that would have created doubt in a jury's mind 
about whether or not Mr. Salvati was guilty? I mean, if they 
had that information from the informant as well as the witness, 
obviously there would have been some conflicts there, and it 
would have created doubt. Why is it--can you explain to me and 
to the committee why is it that the Chelsea Police didn't use 
that in the trial? Why it wasn't brought up in the trial?
    Mr. Rico. I don't know.
    Mr. Burton. Well, your partner, who was your partner, he 
was your partner. As I understand it, you two worked very 
closely together. Your partner testified as to the veracity of 
what Mr.--of what Barboza said at the trial. He testified that 
he thought he was a credible witness. Now, you were his 
partner. You had to know that the informant said something else 
and Mr. Condon had to know that as well. So why in the world 
didn't they say that at the trial? Why didn't Mr. Condon, as an 
FBI agent--he's your partner. Come on. Don't tell me you didn't 
know--you didn't talk about this stuff. You had dinner together 
and everything else. Why didn't he just say, look, here's what 
Mr. Barboza is saying, but we have information contrary to that 
from an informant? This exculpatory evidence, why in the heck 
wasn't that brought up? Why did Mr. Condon not say that at the 
trial?
    Mr. Rico. I don't know. I don't know if Mr. Condon said 
that at the trial or not. I don't know. I wasn't there at the 
trial.
    Mr. Burton. And you guys never talked about that? You 
weren't partners? I mean, you weren't together a lot?
    Mr. Rico. I don't know what he said at the trial, but I 
have a transcript here, if I can find it. Do you think he 
testified----
    Mr. Burton. He did testify.
    Mr. Rico [continuing]. That this is a credible witness?
    Mr. Burton. He testified at the trial and----
    Mr. Rico. He testified he was a credible witness? What page 
is that on?
    Mr. Burton. Well, we'll get the exact language for you, 
Mr.----
    Mr. Rico. Yeah. If you would. Sure. I appreciate that.
    Mr. Burton. We'll get that for you. We'll come back to 
that.
    Mr. Rico. I know you wouldn't want to mislead me.
    Mr. Burton. No. I wouldn't mislead you. We'll come back to 
that. Who's next? Mr. Delahunt, do you have any questions?
    Mr. Delahunt. Thank you, Mr. Chairman. Going back to the 
conversation you had with Jack Kehoe, is Jack Kehoe still 
alive?
    Mr. Rico. The last I knew, he was. That's fairly recently.
    Mr. Delahunt. OK. I would suggest that the committee, Mr. 
Chairman, should interview Mr. Kehoe, relative to the 
conversation he had with Mr. Rico.
    Would it be fair to say that you would have disclosed the 
name of that informant to Mr. Kehoe?
    Mr. Rico. It would be fair to say that Jack Kehoe would 
know the identity of the informant.
    Mr. Delahunt. Thank you.
    Mr. Rico. Without my disclosing it to him, because of this 
stuff that's blocked out here. He would recognize who it was.
    Mr. Delahunt. So Jack Kehoe would. Would it be fair to 
infer, given the fact that you and Mr. Condon were partners--
and, by the way, how long did you and Mr. Condon work together 
as partners?
    Mr. Rico. Oh, probably 8 years to 10 years.
    Mr. Delahunt. And you were close?
    Mr. Rico. Yes.
    Mr. Delahunt. And you still are?
    Mr. Rico. Yes.
    Mr. Delahunt. You're close personal friends?
    Mr. Rico. Yes.
    Mr. Delahunt. Is it a fair inference that Mr. Condon, if he 
read the report that was authored by you, would know the name 
of that informant?
    Mr. Rico. I don't think so. I mean, I don't know the name. 
I can't tell you who it is. I don't know who it is. Right now I 
can't remember who that would be. I have----
    Mr. Delahunt. As we were discussing earlier in terms of 
your role in cultivating in Barboza as a witness and discussing 
the Deegan murder, did you supply any information from any 
source about the murder?
    Mr. Rico. Absolutely not.
    Mr. Delahunt. Not at all? Before he was to testify, did 
either you or Mr. Condon, working with the assistant district 
attorney in charge of the case or with local law enforcement, 
review his testimony?
    Mr. Rico. I don't recall doing that, and I don't know 
whether Dennis did. I don't think so.
    Mr. Delahunt. So your memory is that you never 
participated----
    Mr. Rico. I can't recall--I can't recall that.
    Mr. Delahunt. Now, one of the problems that I have, Mr. 
Rico, is that when you develop a witness and as you said, you 
supply a witness, particularly a high profile thug like Joe 
Barboza, the key to having him as an effective witness is to 
establish his credibility. Is that a fair statement?
    Mr. Rico. It sounds good.
    Mr. Delahunt. I mean, use an agent, myself as a former 
prosecutor, particularly when you're dealing with somebody like 
a Barboza----
    Mr. Rico. Right.
    Mr. Delahunt [continuing]. Your biggest concern is, he's 
going to be impeached. They're going to get him on the stand 
and they're going to supply documents as to his convictions, 
review bad acts. You know the drill and I know the drill.
    Mr. Rico. Right.
    Mr. Delahunt. See, what I find difficult is to vet his 
credibility, is to establish his credibility, when you're the 
author, you, Paul Rico, are the author of a report that 
implicates neither Salvati nor Greco nor Limone nor Tameleo, 
why wouldn't you, because he's your witness, you cultivated 
him, you flipped him, why wouldn't you and Dennis, working with 
Jack Kehoe, because he was considered an FBI witness, and he 
ended up being responsible for the genesis of the Federal 
Witness Protection Program, why wouldn't you conduct an 
exhaustive and an intensive investigation to evaluate and 
assess his credibility?
    Why wouldn't you go and have interviewed all of the players 
that were around in that point in time, determine whether 
Barboza was lying or telling the truth?
    Mr. Rico. It's because in our interviews with him, we were 
discussing who might have done different crimes, mostly he had 
swayed a lot of hits in the Boston area, as you remember. And 
he was on the money on--from the standpoint of--from----
    Mr. Delahunt. Let me----
    Mr. Rico. What we knew and what he knew.
    Mr. Delahunt. He was responsible or the prime witness who 
testified in three different cases?
    Mr. Rico. Right.
    Mr. Delahunt. Earlier you indicated on one case that 
everyone was found not guilty.
    Mr. Rico. His----
    Mr. Delahunt. Correct?
    Mr. Rico. His first case.
    Mr. Delahunt. Everyone found not guilty?
    Mr. Rico. Right.
    Mr. Delahunt. And on this case, he managed to put four 
innocent people in jail. How did he do on the third case, Mr. 
Rico?
    Mr. Rico. Well, the first case was handled----
    Mr. Delahunt. I'm asking about the third case.
    Mr. Rico. Well, I just----
    Mr. Delahunt. Did he ever----
    Mr. Rico. This is the third case. This is the third case.
    Mr. Delahunt. Well, I'm not asking you to go 
chronologically. The second--please, because----
    Mr. Rico. He went State, Federal and State.
    Mr. Delahunt. Right.
    Mr. Rico. He got a not guilty on everything in State court.
    Mr. Delahunt. OK.
    Mr. Rico. Guilty in Federal court, and then this was the 
third case.
    Mr. Delahunt. OK. He got a guilty--and the third case, of 
course, is--what we know now is a horrible injustice?
    Mr. Rico. Right. Right.
    Mr. Delahunt. And on the Federal case, what happened then?
    Mr. Rico. Guilty.
    Mr. Delahunt. Guilty. And what were the sentences that were 
meted out?
    Mr. Rico. Small.
    Mr. Delahunt. So in all this----
    Mr. Rico. What?
    Mr. Delahunt. With all the effort, the resources----
    Mr. Rico. Yeah.
    Mr. Delahunt [continuing]. And the time devoted to 
cultivating this witness.
    Mr. Rico. Uh-huh.
    Mr. Delahunt [continuing]. We get a couple of soft 
sentences in the Federal court. That's it. But you still 
haven't answered the question that I posed to you earlier. You 
had to know that guys like Bear and others that were there were 
going to attack his credibility, and if you supplied the 
witness----
    Mr. Rico. Right.
    Mr. Delahunt [continuing]. But you didn't supply the report 
that would have devastated his credibility, that's the problem.
    Mr. Rico. Yeah.
    Mr. Delahunt [continuing]. Isn't it, Mr. Rico?
    Mr. Rico. That's probably true.
    Mr. Delahunt. It's probably true.
    Mr. Rico. Right.
    Mr. Burton. Then why didn't you supply it?
    Mr. Rico. What?
    Mr. Burton. Why didn't you supply the report?
    Mr. Rico. Why didn't I supply it?
    Mr. Burton. Yeah. Why wasn't the report supplied? I mean, 
you just admitted to Mr. Delahunt that if it had been supplied, 
it would have changed the whole outcome. Why wasn't it 
supplied? You guys had it. Why did you choose to keep that?
    Mr. Rico. I assume that they must have had it. They must 
have had it. We had given it to Chelsea. Chelsea is the 
original crime scene----
    Mr. Burton. But you guys were involved in the case when you 
gave the information to the Chelsea Police. You knew what was 
going on. It was in the newspapers. You had to know. Why would 
you not make sure that kind of evidence was given to them? And 
your partner testified at the trial. We're getting that 
evidence right now--that information right now. But he 
testified you guys knew all this stuff and you didn't give it 
to him.
    Mr. Rico. Has he given me the--what do you say that he 
indicated?
    Mr. Burton. We'll get that.
    Mr. Rico. OK.
    Mr. Burton. We'll have that. Mrs. Morella.
    Mrs. Morella. Thank you, Mr. Chairman. Back to that police 
report that was discussed. There's a report that we have, from 
the Boston Police Department on the Deegan murder. Did the FBI 
share any information on the Deegan murder with the Boston 
Police Department? I guess I could also expand that, too, and 
add, did you see any of the police reports from either the 
Boston Police Department or the Chelsea Police Department 
during the time of the Deegan murder?
    Mr. Rico. I cannot tell you right now.
    Mrs. Morella. Uh-huh.
    Mr. Rico. Up.
    Mrs. Morella. There's a report--city of Boston report on 
exhibit 12.
    [Exhibit 12 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.056
    
    [GRAPHIC] [TIFF OMITTED] T6507.057
    
    Mr. Rico. Exhibit 12.
    Mrs. Morella. Roy French was questioned by the Chelsea 
Police the day after the murder. Besides French, do you know if 
any of the other individuals identified, either in your report 
or the Chelsea report, who were questioned about the Deegan 
murder? For instance, was Vincent Flemmi questioned?
    Mr. Rico. I don't know. I have no knowledge of that.
    Mrs. Morella. You don't remember, or you just don't know 
whether any of them were questioned?
    Mr. Rico. I don't know whether--other people were 
questioned at that time.
    Mrs. Morella. Was Vincent Flemmi ever questioned by anybody 
about the Deegan murder?
    Mr. Rico. I don't know. I didn't question him.
    Mrs. Morella. You don't know. Around the time of the Deegan 
murder, what evidence had you developed, either on your own or 
from other law enforcement agencies, regarding Joe Salvati's 
role in the Deegan----
    Mr. Rico. I never received any mention that was derogatory 
on Joe Salvati ever.
    Mrs. Morella. You never have?
    Mr. Rico. I have no information on Joe Salvati. I don't 
think I ever heard the name before.
    Mrs. Morella. You know, I understand that FBI Director 
Louis Freeh has issued a statement saying that there is a task 
force that is ongoing that is looking at this issue. It's 
called a Justice Task Force. It's now been in operation since, 
I think, early 1999.
    Mr. Rico. Uh-huh.
    Mrs. Morella. Mr. Rico, have they ever questioned you?
    Mr. Rico. No.
    Mrs. Morella. They have not questioned you at all about 
this?
    Mr. Rico. No.
    Mrs. Morella. Have you received any communication from them 
about it?
    Mr. Rico. What?
    Mrs. Morella. Have you gotten any communication?
    Mr. Rico. No.
    Mrs. Morella. From the FBI that they're interested at all? 
Don't you think----
    Mr. Rico. I appeared before Judge Wolf in Federal court 
about a year and a half ago, and I think that's part of the 
whole system.
    Mrs. Morella. Were you asked about the Deegan----
    Mr. Rico. No. At that time I was asked about Flemmi, Steve 
Flemmi, not----
    Mrs. Morella. Not Vince?
    Mr. Rico. Not Vincent.
    Mrs. Morella. Very interesting. I would guess you would 
expect that we'd be asking you some questions.
    Mr. Rico. Fine.
    Mrs. Morella. Maybe as a result of this hearing.
    Mr. Rico. Sure.
    Mrs. Morella. I think we certainly think they should. Well, 
Mr. Chairman, I'm going to yield back to you the remainder of 
my time.
    Mr. Barr [presiding]. I thank the gentlelady. Mr. Shays, 
we'll conclude with 5 minutes from you.
    Mr. Shays. I may just go slightly over, but I'll try to be 
as punctual as possible. Mr. Rico, when did you join the FBI?
    Mr. Rico. What?
    Mr. Shays. When did you join the FBI?
    Mr. Rico. I think it was 1951, beginning of 1951.
    Mr. Shays. And when did you retire?
    Mr. Rico. 1975.
    Mr. Shays. And when you--during that time that you were in 
the FBI, how long were you in the New England area?
    Mr. Rico. I was there from the early 1950's to 1970.
    Mr. Shays. Is that unusual for someone to be in one place 
basically for most of their time?
    Mr. Rico. Not really, no. Well, it could be.
    Mr. Shays. So the bottom line is you spent a good--maybe 
almost 20 years of your experience in the New England area?
    Mr. Rico. That's right. That's right.
    Mr. Shays. What did you do after you retired?
    Mr. Rico. I went to work for World Jai Alai.
    Mr. Shays. Did you know at the time that there were 
concerns that World Jai Alai was--well, let me ask you this. 
Who hired you?
    Mr. Rico. I was hired by a head hunting group. Well, I was 
interviewed by a head hunting group, and eventually was hired 
by John Callahan.
    Mr. Shays. Right. Now, did you have any information that 
John Callahan was involved in organized crime?
    Mr. Rico. Not till late in--not till later.
    Mr. Shays. Later. Explain later.
    Mr. Rico. Later was later, several years later.
    Mr. Shays. 2 years later, 1 year later.
    Mr. Rico. It was shortly before he left the company.
    Mr. Shays. And so how long was that after he had hired you?
    Mr. Rico. After he hired me?
    Mr. Shays. Yeah.
    Mr. Rico. 3 or 4 years probably.
    Mr. Shays. Why wouldn't you have known that he was involved 
in organized crime?
    Mr. Rico. Why wouldn't I know?
    Mr. Shays. Yeah, you work for FBI.
    Mr. Rico. Because there was nothing in the files of the FBI 
indicating that John Callahan was in any way connected with 
organized crime.
    Mr. Shays. So we have a retired FBI agent who is hired to 
work at World Jai Alai and hired by an organized crime figure. 
Did any of your colleagues question the advisability of you 
working for an organized crime figure?
    Mr. Rico. I don't think anyone knew he was an organized 
crime figure until later.
    Mr. Shays. The State officials knew.
    Mr. Rico. What?
    Mr. Shays. The State officials knew in Connecticut. They 
were rather surprised that you would choose to work for someone 
involved in organized crime.
    Mr. Rico. The reason he left was because he was seen with 
organized crime people. And I reported it to the board of 
directors, and he was asked to resign.
    Mr. Shays. You weren't the one who reported it.
    Mr. Rico. I wasn't?
    Mr. Shays. You were the one who discovered he was involved 
with organized crime? Your testimony before this committee is 
that no one knew in the organization that he was involved in 
organized crime until you told them?
    Mr. Rico. No one in my company knew that until I told them.
    Mr. Shays. That is your testimony under oath?
    Mr. Rico. No one in my company knew.
    Mr. Shays. What is the company----
    Mr. Rico. Huh?
    Mr. Shays. Tell me the company.
    Mr. Rico. World Jai Alai.
    Mr. Shays. Your testimony under oath is that nobody in 
World Jai Alai knew that he was involved in organized crime?
    Mr. Rico. That I knew of, yeah.
    Mr. Shays. Who is Roger Wheeler?
    Mr. Rico. He is the person who eventually bought World Jai 
Alai.
    Mr. Shays. And you worked for Roger Wheeler?
    Mr. Rico. Yes.
    Mr. Shays. What happened to Roger Wheeler?
    Mr. Rico. Roger Wheeler was a homicide victim.
    Mr. Shays. Who committed that crime? Who killed him?
    Mr. Rico. I believe they have a witness that said he did 
it. I think his name is James Martorano.
    Mr. Shays. John Vincent Martorano?
    Mr. Rico. Martorano.
    Mr. Shays. Have you ever heard of the individual?
    Mr. Rico. Yes. He was with Callahan. It was like a St. 
Patrick's Day night. He was at the Playboy with John Callahan 
and two other people, Martorano was.
    Mr. Shays. He was killed in a club, wasn't he, in Tulsa?
    Mr. Rico. What?
    Mr. Shays. He was killed in Arizona?
    Mr. Rico. Oklahoma.
    Mr. Shays. Oklahoma.
    Let me just ask you another line of questions. In 1988 the 
Supreme Court of Rhode Island found that FBI Special Agent H. 
Paul Rico, you, suborned the perjury of John Kelley, the 
State's principal witness in the 1970 murder trial of Maurice 
Lerner. Apparently at your instigation, Mr. Rico, Kelley 
altered two facts directly dealing with the murder and the 
extent of the promises that you made in exchange for Kelley's 
testimony. When asked why he perjured himself, Kelley said my 
life was in the FBI's hands, and this is in brackets, Special 
Agent Rico, end of brackets, said I had no alternative.
    Mr. Rico, why did you suborn the perjury of the State's 
main witness John Kelley in the gangland killing of Anthony 
Melei?
    Mr. Rico. Anthony who?
    Mr. Shays. Anthony Melei.
    Mr. Rico. I don't know who that is.
    Mr. Shays. Isn't it true that you were found, the Supreme 
Court of Rhode Island found you to have perjured--suborned the 
perjury of John Kelley? Weren't you cited in 1988?
    Mr. Rico. I'm unaware of that.
    Mr. Shays. You're unaware of any perjury, any order, any 
decision--I want you to be real careful about this because you 
did have a conversation with one of our staff. So I want you to 
think this through for a second. I just read you something that 
was pretty clear. I want you to tell me what your answer is to 
that.
    Do you know who Maurice Lerner is?
    Mr. Rico. Yes, oh yeah, Maurice Lerner.
    Mr. Shays. Do you know who John Kelley is?
    Mr. Rico. Yes.
    Mr. Shays. You know who those two people are?
    Mr. Rico. Yes.
    Mr. Shays. Who are they?
    Mr. Rico. John J. Kelley is an individual that's been 
involved in different forms of crime over a long period of 
time, including numerous bank robberies and armored car 
robberies on a national basis.
    Mr. Shays. Right. And you have had contact with them, 
haven't you?
    Mr. Rico. Yes.
    Mr. Shays. And you had a circumstance where you spoke to 
him about the testimony he gave before the Supreme Court in 
Rhode Island--I mean, excuse me, before the court in Rhode 
Island, not the Supreme Court.
    Mr. Rico. I had a conversation with John over that?
    Mr. Shays. John Kelley.
    Mr. Rico. I'm not trying to be evasive. I think that John 
J. Kelley----
    Mr. Shays. John. If it's John J. Kelley, I know it's John 
Kelley.
    Mr. Rico. It's the person that was tried in the Plymouth 
mail robbery. He became a government witness.
    Mr. Shays. Could you put the mic a little closer to you, 
please?
    Mr. Rico. He was a principal in the Plymouth mail robbery, 
was tried and F. Lee Bailey represented him and he was found 
not guilty. He later became involved in another robbery of a 
Brinks truck and he was awaiting trial on that matter when he 
decided that he would become a government witness. And he 
became a government witness. And once his testimony was over 
and his sentencing was over he decided to change his testimony.
    Mr. Shays. He perjured himself, and he claims that you were 
the reason he perjured.
    Mr. Rico. That's right. That's what he claimed. That's 
true.
    Mr. Shays. You just seem----
    Mr. Rico. Because I thought you were saying that I had been 
found guilty of perjury. I wasn't involved in being convicted. 
He alleged it, that I did this?
    Mr. Shays. Right. And weren't you cited by the Supreme 
Court?
    Mr. Rico. I don't know if I was. I don't think so.
    Mr. Shays. What was the claim that he made? How had he 
perjured himself?
    Mr. Rico. You ask him, Maurice Lerner. Maurice Lerner had a 
shooting gallery in his basement and he was, according to Jack 
Kelley, this guy was a very competent killer and Jack was very 
afraid of him and I think that after Jack Kelley got his legal 
problems squared away that he decided he would help Lerner and 
he changed his testimony and said that he had only testified 
the other way because I had insisted on it.
    Mr. Shays. I am going to ask you two questions. Mr. Rico, 
why did you suborn the perjury of the State's main witness John 
Kelley in the gangland killing of Anthony Melei.
    Mr. Rico. Why did I do that?
    Mr. Shays. Yes.
    Mr. Rico. I did not suborn perjury.
    Mr. Shays. Did you also perjure yourself in that case by 
corroborating Kelley's false statements concerning promises you 
made to Kelley in exchange for his testimony?
    Mr. Rico. I have always been able to say to everybody that 
was a witness or a potential witness the same thing, that we 
will bring whatever cooperation you bring to the attention of 
the proper authorities. There's nothing else that I have ever 
said concerning eliciting testimony.
    Mr. Shays. Two points. Isn't it true that Mr. Kelley 
perjured himself?
    Mr. Rico. I don't know that.
    Mr. Shays. You don't know if Mr. Kelley perjured?
    Mr. Rico. If he changed his testimony from the first time 
and changed it to something else the second time, he obviously 
was wrong in one of those instances.
    Mr. Shays. Isn't it true that he claims you were the reason 
that he had given false testimony the first time?
    Mr. Rico. That's probably true. That's probably what he 
said.
    Mr. Shays. No, not probably. Isn't it true?
    Mr. Rico. It's probably true.
    Mr. Shays. Don't use the word ``probably.'' Isn't it true 
that he said that you encouraged him to perjure himself and 
give false testimony?
    Mr. Rico. Yes.
    Mr. Shays. Well, you know I realize that he may be an 
unsavory character but why shouldn't I believe him more than 
you were willing to believe your star witness Joseph Barboza 
and send someone to jail for 30 years? Why should you be 
incredulous about my question?
    Mr. Rico. No, no, no. He would be very interesting if you 
would talk to him.
    Mr. Shays. This has been a fascinating day for me, Mr. 
Rico. I think the thing I'm most surprised about is that it's 
clear to me that the FBI became as corrupt as the people they 
went after and it's clear to me that you have the same 
insensitivity that I would imagine in someone who is a hard and 
fast criminal. No remorse whatsoever. Cold as can be. The fact 
that a man spent 30 years in jail, no big deal. No tears. No 
regret, and yet you were responsible for that man being in jail 
for 30 years. You have gotten just like the people you went 
after. What a legacy.
    Mr. Barr. The Chair recognizes the counsel, Mr. Wilson.
    Mr. Wilson. Mr. Rico, there are a number of questions that 
need to be answered but there's one that sticks out in my mind 
right now and it's this. We've learned that on many occasions 
you talked to Joe Barboza. He was a witness that you were 
handling, went into the Witness Protection Program. You worked 
with him after he was in the Witness Protection Program. When 
you asked him the question where was Vincent Flemmi on March 
12, 1965, what did he tell you?
    Mr. Rico. I don't think we ever asked him that question. We 
never asked him that question.
    Mr. Wilson. The only reason I ask that is because it's the 
only question that you could not have failed to ask. It's 
inconceivable that you wouldn't ask that question. I'll tell 
you why it's inconceivable to me. In 1964 you learned that 
Vincent Flemmi wanted to kill Teddy Deegan. That was on October 
19, 1964, you knew that Vincent Flemmi wanted to kill Teddy 
Deegan. On March 10 you learned from the informant that Deegan 
was going to be murdered. On March 13, 1965 you learned from an 
informant that Vincent Flemmi told people that the Deegan 
murder was committed by Joseph Barboza and himself. So in 1964 
you knew Teddy Deegan was going to be killed and Vincent Flemmi 
wanted to kill him or at least you learned that Vincent Flemmi 
wanted to kill him. The following year you learned that Flemmi 
had said that he had killed him. A little bit later in April, 
April 5, 1965, you had your first reported contact with Vincent 
Flemmi trying to get information from him. We're told by the 
task force head that on April 15 you opened an informant file 
on Vincent Flemmi. You started working with Vincent Flemmi's 
brother in 1965 to obtain informant information. And then you 
finally start working with Barboza, with all this knowledge in 
the background of what Vincent Flemmi wanted to do with Teddy 
Deegan, and you had the perfect opportunity to ask Barboza 
where was Vincent Flemmi. I mean that's the only question that 
you would think you would want answered. You knew you testified 
that Vincent Flemmi was a killer, right?
    Mr. Rico. Right.
    Mr. Wilson. And here's the possibility that there's a 
murder to be solved and you have got information that Vincent 
Flemmi might be involved in the murder. Did you purposefully 
want to leave him on the streets?
    Mr. Rico. No, no, no. I arrested Vincent Flemmi.
    Mr. Wilson. Well, you had an opportunity to followup and at 
least ask the question of your principal witness about Vincent 
Flemmi. Where was Vincent Flemmi on the day that Teddy Deegan 
was killed? That's to me the one question that you would have 
had to ask him.
    Mr. Rico. Yeah.
    Mr. Wilson. And you didn't ask him that?
    Mr. Rico. I don't remember asking him that, no.
    Mr. Wilson. Now the most important document I think in this 
whole series of documents we have is exhibit No. 24 in our book 
and if you would turn to that, take a moment to look at it, 
please. It's a two-page document. We talked about it in a 
previous panel. It was prepared by yourself and your partner, 
Dennis Condon. It's dated March 8, 1967. Apparently it's 
information that was obtained at Walpole, which is a prison in 
Massachusetts. And on the second page----
    [Exhibit 24 follows:]

    [GRAPHIC] [TIFF OMITTED] T6507.091
    
    [GRAPHIC] [TIFF OMITTED] T6507.092
    
    Mr. Rico. I don't find it.
    Mr. Wilson. Do you have exhibit 24?
    Mr. Rico. I have 25, OK. Coming up. 24. OK. This has to be 
24.
    Mr. Wilson. It's a two-page document. It's a write-up of 
your interview and Mr. Condon's interview with Joe Barboza, and 
on the second page the FBI has redacted most of the information 
on the second page so we don't know what's there, but it does 
say, the one bit of text that's left on the page, Baron, now 
Baron was Barboza's other name, ``Baron knows what has happened 
in practically every murder that has been committed in this 
area. He said that he would never provide information that 
would allow James Vincent Flemmi to fry but that he will 
consider furnishing information on these murders.''
    Now, given the fact that you had all the information about 
Vincent Flemmi wanting to kill Teddy Deegan and then after the 
fact having killed Teddy Deegan, given the fact that you had 
that information and given that Joe Barboza told you that he 
wasn't going to give you any information about Vincent Flemmi, 
did you have any concern that Barboza was going to protect 
Vincent Flemmi in the trial for the Deegan murder?
    Mr. Rico. I probably had concern over it at that time.
    Mr. Wilson. What did you do, what concrete steps did you do 
to express your concern.
    Mr. Rico. Well, I think I indicated to John Doyle the 
possibility that this guy would not provide information on 
Jimmy Flemmi because he's his friend and I think that should be 
borne in mind when you interview this guy.
    Mr. Wilson. But now he's your witness. You're the one 
taking the interviews here. Why didn't you ask him the question 
for your own peace of mind? This was a death penalty case. You 
apparently were his handler.
    Mr. Rico. Well, he'd already said that he will not tell us, 
right?
    Mr. Wilson. Pardon.
    Mr. Rico. He already said that he would not give us 
anything that would be harmful to Jimmy Flemmi.
    Mr. Wilson. So that was it; you wouldn't even followup and 
say I need to know, I need to know to move forward? Tell me 
what happened. Well, let me just ask you a couple of other 
related questions because a trial took place, and in hindsight, 
obviously hindsight is helpful but there was this extraordinary 
testimony about a guy wearing a wig to make him look bald. Did 
you know that Vincent Flemmi was bald?
    Mr. Rico. Yes, yes.
    Mr. Wilson. OK. What did you think about the testimony at 
trial?
    Mr. Rico. I didn't hear that testimony until today. That's 
the only time I ever heard that testimony was today.
    Mr. Wilson. It seems to us that it had to have been as far-
fetched in 1967 and 1968.
    Mr. Rico. I don't remember it happening at that time, you 
know.
    Mr. Wilson. Your partner testified at the trial, Barboza 
was your witness. Weren't you following what he was saying. 
That would have ramifications for Federal trials. You were 
going to put the guy on the stand in other trials. Didn't you 
need to know what he was saying in that trial?
    Mr. Rico. No, that was the last trial.
    Mr. Wilson. But he's still in the Witness Protection 
Program. Is that it? There was no possibility that he would 
ever be able to give up information again?
    Mr. Rico. I think that was it. I didn't think he was going 
to give us information that we could use on anything else. He 
was cut loose.
    Mr. Wilson. Did you ever debrief Barboza again? Did you 
ever talk to him about any other matter after?
    Mr. Rico. Yeah, I did. I talked to him in Santa Rosa and he 
told me that somebody from Massachusetts had visited him, and I 
told him that person was really not a friend of his and he 
should be careful. And when he got out of jail he visited that 
person and when he walked out the front door he got hit with a 
shotgun. That was the end of Barboza.
    Mr. Wilson. And that was in 1976, correct?
    Mr. Rico. I don't remember the year. I just know that's 
what happened.
    Mr. Wilson. Right. Now, one of the other things that's of 
some concern to us, and we'll just try to make sure we 
understand this fully, Vincent Flemmi was being used as an 
informant in 1965, correct?
    Mr. Rico. I don't think I used him at all.
    Mr. Wilson. I remember you said that before in answer to 
one of the Congressman's question. I think you said that you 
didn't know that Vincent Flemmi was an informant at all.
    Mr. Rico. I don't think I had him as an informant. I had--
--
    Mr. Wilson. The question is did you know he was an 
informant for the FBI?
    Mr. Rico. Well, somebody could have opened him as an 
informant.
    Mr. Wilson. But the question is did you know he was an 
informant for the FBI ever prior to today?
    Mr. Rico. We're talking about somebody that most of the 
informants you have to certify their emotional stability and it 
would be difficult to certify James's emotional stability. So I 
don't know whether or not someone decided to open him. I don't 
think I did.
    Mr. Shays. Could the gentleman yield for a second? I don't 
understand. You have to certify?
    Mr. Rico. You want to make sure that whoever you have is 
emotionally stable. Not a nut.
    Mr. Shays. You also want to make sure they tell the truth, 
too, right?
    Mr. Rico. You want to make sure whether you can determine 
that they tell the truth.
    Mr. Shays. I want to make sure I understand this. You care 
about a witness to make sure he's emotionally credible but you 
don't care about the other things that a witness might say?
    Mr. Rico. Yes, of course you do.
    Mr. Shays. Well, you didn't seem to--well, thank you.
    Mr. Wilson. Well, I'm just a little concerned that we 
didn't get a clear answer to the question.
    Mr. Rico. Well, do you have Vincent Flemmi as my informant?
    Mr. Wilson. I don't, but that's not my question. My 
question is did you know that Vincent Flemmi was being used as 
an informant by anybody in the FBI?
    Mr. Rico. At the present time I don't know whether he was 
being used as an informant. I doubt that he was being used as 
an informant.
    Mr. Wilson. Did you know that anybody was considering using 
him as an informant?
    Mr. Rico. If you work in organized crime the Bureau expects 
you to come up with sources and informants, so it's very 
possible that somebody could consider him. I don't know that.
    Mr. Wilson. Well, that is the answer. You're saying you did 
not know that?
    Mr. Rico. I can't recall that. OK.
    Mr. Wilson. You did know, I believe you testified that 
Steven Flemmi was being considered as an informant.
    Mr. Rico. I had him.
    Mr. Wilson. Now one of the problems that we face here is 
when you interviewed Barboza and he said he wasn't going to 
give you any information that would--and I'm paraphrasing--but 
would lead his brother, would lead Vincent Flemmi to fry, at 
that time you have got knowledge that you've been using Steven 
Flemmi as an informant. It seems to me there is a terrible 
conflict there. If you had asked Barboza probing questions 
about Vincent Flemmi, which seems to me a fairly logical thing 
to have done, you would have put yourself into trouble with 
your informant Steve Flemmi. Did that ever occur to you?
    Mr. Rico. That is a possibility.
    Mr. Wilson. Well----
    Mr. Rico. It wouldn't have prevented us from asking. We try 
not to be married to informants.
    Mr. Wilson. But to try to put it as simply as possible, one 
of our concerns is that in order to keep your relationship with 
Steven Flemmi you're turning a blind eye to what Vincent Flemmi 
is doing.
    Mr. Rico. No, no. I mentioned before I ended up arresting 
him, including with my partner Dennis.
    Mr. Wilson. But not for the Deegan murder?
    Mr. Rico. No.
    Mr. Wilson. And you didn't ask any questions about Vincent 
Flemmi's possible participation in the Deegan murder, none at 
all?
    Mr. Rico. Well, I think John, I think John Doyle was pretty 
much aware that Vincent Flemmi and Joseph Barboza were very 
close. And I think that was brought out in conversations 
between us, John Doyle, myself, Dennis, yeah.
    Mr. Wilson. I guess this is a very important question that 
we've not asked yet. But in 1965, given that you knew there was 
a bald guy allegedly in the Deegan murder and that Barboza did 
commit the murder, did you suspect that that person was Vincent 
Flemmi? I'm asking whether you suspected that.
    Mr. Rico. I can't answer that now. I can't answer that at 
the present time. I can't think of what I thought back then.
    Mr. Wilson. Did----
    Mr. Rico. Vincent was capable of doing anything though.
    Mr. Wilson. Given what we now know, it's obvious to us but 
it would have been obvious to you in 1965 and 1966 and 1967. 
You told us you ultimately arrested Vincent Flemmi. But what 
you had in 1964 is information that Vincent Flemmi was going to 
kill Teddy Deegan and then you had informant information in 
fact that Vincent Flemmi was going to kill Teddy Deegan. In 
fact, you sent memos to the Director of the Federal Bureau of 
Investigation, your ultimate boss, that Vincent Flemmi is going 
to kill Teddy Deegan and then there is a bald guy that ends up 
helping to kill Teddy Deegan and you told us you don't know 
about the testimony but you just don't remember. That's your 
testimony, that you just don't remember?
    Mr. Rico. That's right, I don't remember.
    Mr. Wilson. What your suspicion was?
    Mr. Rico. And I don't think I sent a communication. Oh, 
yes, I did. OK.
    Mr. Wilson. There are a number of memoranda----
    Mr. Rico. I see it.
    Mr. Wilson [continuing]. That you authored here. Some went 
to the Director.
    Mr. Rico. Right.
    Mr. Wilson. Did you have any verbal conversations, any 
conversations with the Director of the FBI about the Deegan 
case?
    Mr. Rico. No.
    Mr. Wilson. Did you know the Director of the FBI?
    Mr. Rico. I only knew who he was. I didn't know him.
    Mr. Wilson. If you could give us a little sense of 
memoranda that were being prepared. Did you prepare more than 
one memorandum a week for the Director of the FBI?
    Mr. Rico. I don't think so. I don't think so. I don't even 
think it was, I don't recall it being my responsibility.
    Mr. Wilson. From our perspective, looking at the documents 
we've been provided, it doesn't appear to be something that you 
did frequently. Is that fair to say?
    Mr. Rico. Right, I would think it would be fair to say.
    Mr. Wilson. I think you have had a chance to look a little 
bit through the binder here. Do you know of any other memoranda 
that you prepared that discussed Vincent Flemmi, and let me put 
that in context, Vincent Flemmi in the Deegan case?
    Mr. Rico. I would like to take a break.
    Mr. Wilson. OK.
    Mr. Rico. Which way is the nearest men's room?
    Mr. Barr. We'll stand in recess for 5 minutes.
    [Recess.]
    Mr. Barr. I think Mr. Wilson has finished his questions. 
Mr. Delahunt, you had one other area of inquiry that you wanted 
to go into before we conclude?
    Mr. Delahunt. Yes.
    Mr. Barr. The gentleman from Massachusetts is recognized 
for 5 minutes.
    Mr. Delahunt. Mr. Rico, you never inquired of or ever made 
any recommendation to the Massachusetts Parole Board on any 
matter relating to a commutation for either Mr. Salvati or 
anyone else who was convicted as a result in the Deegan murder 
case; is that correct?
    Mr. Rico. That is correct.
    Mr. Delahunt. You indicated that Steve Flemmi was your 
informant and you ran him as an informant until you left the 
Bureau?
    Mr. Rico. I don't know the date. No, I think--no, I think 
that I ran him until he was indicted on--I think he was 
indicted on the bombing of John Fitzgerald's car, and I closed 
him then.
    Mr. Delahunt. Let me ask you this. You closed him then but 
you introduced him to John Connolly, is that correct?
    Mr. Rico. That is not correct.
    Mr. Delahunt. That is not correct?
    Mr. Rico. Right.
    Mr. Delahunt. Did you participate in any way in 
encouraging, either directly or indirectly through Dennis 
Condon, Steven Flemmi to cooperate again with the FBI?
    Mr. Rico. I think Dennis was the ultimate agent on with 
Stevie Flemmi. And I think when Stevie Flemmi was no longer 
under indictment I think Dennis may have handled him for a 
period of time.
    Mr. Delahunt. OK. You're familiar that Frank Salemme--
you're familiar with Frank Salemme?
    Mr. Rico. Yes.
    Mr. Delahunt. You know Frank Salemme was arrested in New 
York City?
    Mr. Rico. Yes.
    Mr. Delahunt. By John Connolly.
    Mr. Rico. Yes.
    Mr. Delahunt. Are you aware of the details of how Mr. 
Connolly developed that information?
    Mr. Rico. I believe that Dennis Condon sent a photograph of 
Frankie Salemme to New York City through John Connolly because 
he thought he was there and that the New York agents weren't 
paying much attention to it.
    Mr. Delahunt. But Steve Flemmi never provided any 
information relative to the whereabouts of Frank Salemme in New 
York City.
    Mr. Rico. I think Frank--excuse me, I think Steve Flemmi 
was a fugitive at the same time so that he wasn't available to 
provide anyone with information.
    Mr. Delahunt. So it was simply a coincidence?
    Mr. Rico. Lucky is what I think.
    Mr. Delahunt. You know, just for a minute touching on the 
Wheeler case, and we all have coincidences in our lives, but 
the witness you referred to, John Martorano, who has admitted 
killing Wheeler----
    Mr. Rico. Right.
    Mr. Delahunt [continuing]. Has testified under oath that he 
was instructed or contracted for the hit by Steve Flemmi and 
Whitey Bulger.
    Mr. Rico. I understand that.
    Mr. Delahunt. It's a coincidence that you were the handler 
for Steve Flemmi and that Steve Flemmi ordered the hit on Mr. 
Wheeler, who was the CEO of a company that you were employed 
by.
    Mr. Rico. Right.
    Mr. Delahunt. That's just a coincidence.
    Mr. Rico. You want to tie me into Bulger. I can tie myself 
into Bulger for you.
    Mr. Delahunt. Go ahead.
    Mr. Rico. Bulger.
    Mr. Delahunt. Mr. Rico, I think I need full disclosure here 
because somebody will, I'm sure, discover that years and years 
ago I went to Saint Agatha's Parochial School with John 
Martorano.
    Mr. Rico. I knew that.
    Mr. Delahunt. I figured you did know that. So I really 
wanted to be forthcoming. And you should also know that John 
Martorano and I served mass together for Cardinal Cushing back 
in the eighth grade. So there are coincidences in life.
    Mr. Rico. OK.
    Mr. Delahunt. If you want to proceed, Mr. Rico.
    Mr. Rico. The last time that Jimmy Bulger was arrested I 
arrested him. I arrested him for two bank robberies and he pled 
guilty to three bank robberies. And that's my Bulger 
experience.
    Mr. Delahunt. Well, thank you for that information. We'll 
just conclude with a--to elicit a response from you to a 
statement that was made by your counsel that appeared in the 
Boston Herald dated January 10 of this year. ``Rico cannot be 
blamed for men--referring to the innocent individuals that were 
convicted in the Deegan case.'' Those are my parentheses. 
That's not part of the quotation. It goes on. The former 
agent's attorney said yesterday orders laid down by then FBI 
Director J. Edgar Hoover kept information in the murder of 
Edward Deegan locked away in FBI files all these years, Cagney 
said. He was bound by the hierarchy, Cagney said. All that went 
to Rico supervisor--all that, rather, went to Rico supervisors 
and he can't release that without permission of his 
supervisors.
    Is that your position as well?
    Mr. Rico. I don't know where that came from. I hear what 
you're saying but it doesn't sound--I'm sorry, I have got a 
cold. But it doesn't sound like Cagney and it doesn't sound 
plausible to me.
    Mr. Delahunt. Thank you.
    Mr. Delahunt. I yield back.
    Mr. Barr. I thank the gentleman. That concludes this 
hearing. Thank you, Mr. Rico.
    Mr. Rico. Thank you. Am I dismissed?
    Mr. Barr. Yes, sir.
    Mr. Rico. Thank you.
    [Whereupon, at 5:34 p.m., the committee was adjourned.]
    [Exhibits used for the hearing record follow:]

    [GRAPHIC] [TIFF OMITTED] T6507.032
    
    [GRAPHIC] [TIFF OMITTED] T6507.033
    
    [GRAPHIC] [TIFF OMITTED] T6507.034
    
    [GRAPHIC] [TIFF OMITTED] T6507.035
    
    [GRAPHIC] [TIFF OMITTED] T6507.036
    
    [GRAPHIC] [TIFF OMITTED] T6507.037
    
    [GRAPHIC] [TIFF OMITTED] T6507.038
    
    [GRAPHIC] [TIFF OMITTED] T6507.039
    
    [GRAPHIC] [TIFF OMITTED] T6507.040
    
    [GRAPHIC] [TIFF OMITTED] T6507.041
    
    [GRAPHIC] [TIFF OMITTED] T6507.042
    
    [GRAPHIC] [TIFF OMITTED] T6507.043
    
    [GRAPHIC] [TIFF OMITTED] T6507.044
    
    [GRAPHIC] [TIFF OMITTED] T6507.045
    
    [GRAPHIC] [TIFF OMITTED] T6507.046
    
    [GRAPHIC] [TIFF OMITTED] T6507.047
    
    [GRAPHIC] [TIFF OMITTED] T6507.048
    
    [GRAPHIC] [TIFF OMITTED] T6507.049
    
    [GRAPHIC] [TIFF OMITTED] T6507.050
    
    [GRAPHIC] [TIFF OMITTED] T6507.051
    
    [GRAPHIC] [TIFF OMITTED] T6507.052
    
    [GRAPHIC] [TIFF OMITTED] T6507.053
    
    [GRAPHIC] [TIFF OMITTED] T6507.054
    
    [GRAPHIC] [TIFF OMITTED] T6507.055
    
    [GRAPHIC] [TIFF OMITTED] T6507.056
    
    [GRAPHIC] [TIFF OMITTED] T6507.057
    
    [GRAPHIC] [TIFF OMITTED] T6507.058
    
    [GRAPHIC] [TIFF OMITTED] T6507.059
    
    [GRAPHIC] [TIFF OMITTED] T6507.060
    
    [GRAPHIC] [TIFF OMITTED] T6507.061
    
    [GRAPHIC] [TIFF OMITTED] T6507.062
    
    [GRAPHIC] [TIFF OMITTED] T6507.063
    
    [GRAPHIC] [TIFF OMITTED] T6507.064
    
    [GRAPHIC] [TIFF OMITTED] T6507.065
    
    [GRAPHIC] [TIFF OMITTED] T6507.066
    
    [GRAPHIC] [TIFF OMITTED] T6507.067
    
    [GRAPHIC] [TIFF OMITTED] T6507.068
    
    [GRAPHIC] [TIFF OMITTED] T6507.069
    
    [GRAPHIC] [TIFF OMITTED] T6507.070
    
    [GRAPHIC] [TIFF OMITTED] T6507.071
    
    [GRAPHIC] [TIFF OMITTED] T6507.072
    
    [GRAPHIC] [TIFF OMITTED] T6507.073
    
    [GRAPHIC] [TIFF OMITTED] T6507.074
    
    [GRAPHIC] [TIFF OMITTED] T6507.075
    
    [GRAPHIC] [TIFF OMITTED] T6507.076
    
    [GRAPHIC] [TIFF OMITTED] T6507.077
    
    [GRAPHIC] [TIFF OMITTED] T6507.078
    
    [GRAPHIC] [TIFF OMITTED] T6507.079
    
    [GRAPHIC] [TIFF OMITTED] T6507.080
    
    [GRAPHIC] [TIFF OMITTED] T6507.081
    
    [GRAPHIC] [TIFF OMITTED] T6507.082
    
    [GRAPHIC] [TIFF OMITTED] T6507.083
    
    [GRAPHIC] [TIFF OMITTED] T6507.084
    
    [GRAPHIC] [TIFF OMITTED] T6507.085
    
    [GRAPHIC] [TIFF OMITTED] T6507.086
    
    [GRAPHIC] [TIFF OMITTED] T6507.087
    
    [GRAPHIC] [TIFF OMITTED] T6507.088
    
    [GRAPHIC] [TIFF OMITTED] T6507.089
    
    [GRAPHIC] [TIFF OMITTED] T6507.090
    
    [GRAPHIC] [TIFF OMITTED] T6507.091
    
    [GRAPHIC] [TIFF OMITTED] T6507.092
    
    [GRAPHIC] [TIFF OMITTED] T6507.093
    
    [GRAPHIC] [TIFF OMITTED] T6507.094
    
    [GRAPHIC] [TIFF OMITTED] T6507.095
    
    [GRAPHIC] [TIFF OMITTED] T6507.096
    
    [GRAPHIC] [TIFF OMITTED] T6507.097
    
    [GRAPHIC] [TIFF OMITTED] T6507.098
    
    [GRAPHIC] [TIFF OMITTED] T6507.099
    
    [GRAPHIC] [TIFF OMITTED] T6507.100
    
    [GRAPHIC] [TIFF OMITTED] T6507.101
    
    [GRAPHIC] [TIFF OMITTED] T6507.102
    
    [GRAPHIC] [TIFF OMITTED] T6507.103
    
    [GRAPHIC] [TIFF OMITTED] T6507.104
    
    [GRAPHIC] [TIFF OMITTED] T6507.105
    
    [GRAPHIC] [TIFF OMITTED] T6507.106
    
    [GRAPHIC] [TIFF OMITTED] T6507.107
    
    [GRAPHIC] [TIFF OMITTED] T6507.108
    
    [GRAPHIC] [TIFF OMITTED] T6507.109
    
    [GRAPHIC] [TIFF OMITTED] T6507.110
    
    [GRAPHIC] [TIFF OMITTED] T6507.111
    
    [GRAPHIC] [TIFF OMITTED] T6507.112
    
    [GRAPHIC] [TIFF OMITTED] T6507.113
    
    [GRAPHIC] [TIFF OMITTED] T6507.114
    
    [GRAPHIC] [TIFF OMITTED] T6507.115
    
    [GRAPHIC] [TIFF OMITTED] T6507.116
    
    [GRAPHIC] [TIFF OMITTED] T6507.117
    
    [GRAPHIC] [TIFF OMITTED] T6507.118
    
    [GRAPHIC] [TIFF OMITTED] T6507.119
    
    [GRAPHIC] [TIFF OMITTED] T6507.120
    
    [GRAPHIC] [TIFF OMITTED] T6507.121
    
    [GRAPHIC] [TIFF OMITTED] T6507.122
    
    [GRAPHIC] [TIFF OMITTED] T6507.123
    
    [GRAPHIC] [TIFF OMITTED] T6507.124
    
    [GRAPHIC] [TIFF OMITTED] T6507.125
    
    [GRAPHIC] [TIFF OMITTED] T6507.126
    
    [GRAPHIC] [TIFF OMITTED] T6507.127
    
    [GRAPHIC] [TIFF OMITTED] T6507.128
    
    [GRAPHIC] [TIFF OMITTED] T6507.129
    
    [GRAPHIC] [TIFF OMITTED] T6507.130
    
    [GRAPHIC] [TIFF OMITTED] T6507.131
    
    [GRAPHIC] [TIFF OMITTED] T6507.132
    
    [GRAPHIC] [TIFF OMITTED] T6507.133
    
    [GRAPHIC] [TIFF OMITTED] T6507.134
    

</pre></body></html>
